<html>
<title> - IMPACTS OF THE ATLANTIC LARGE WHALE TAKE REDUCTION PLAN ON MAINE'S LOBSTER FISHERY</title>
<body><pre>[Senate Hearing 110-1156]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1156
 
  IMPACTS OF THE ATLANTIC LARGE WHALE TAKE REDUCTION PLAN ON MAINE'S 
                            LOBSTER FISHERY

=======================================================================

                             FIELD HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 19, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
75-344                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>  



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         GORDON H. SMITH, Oregon
JOHN F. KERRY, Massachusetts         JOHN E. SUNUNU, New Hampshire
BARBARA BOXER, California            JIM DeMINT, South Carolina
BILL NELSON, Florida                 DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
THOMAS R. CARPER, Delaware
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 19, 2008................................     1
Statement of Senator Snowe.......................................     1

                               Witnesses

Baines, Robert S., President, Spruce Head Co-Op; Chairman, 
  Advisory Council, Department of Marine Resources, State of 
  Maine; Lobsterman..............................................    64
Beaulieu, Terry, Lobsterman......................................    63
Bishop, Lewis, Lobsterman........................................    50
Cates, Brian, Lobsterman.........................................    52
Cornish, Vicki, Vice President, Marine Wildlife Conservation, The 
  Ocean Conservancy..............................................    25
    Prepared statement...........................................    28
Cousens, David, President, Maine Lobstermen's Association........    54
Dassatt, Mike, Secretary/Treasurer and Board Member, Downeast 
  Lobstermen's Association.......................................    43
Dassatt, Sheila H., Executive Director, Downeast Lobstermen's 
  Association....................................................    41
Drouin, John, Chairman, Zone A Lobster Management Council; 
  Lobsterman.....................................................    48
Gray, Robbie, Lobster Fisherman, Deer Isle, Maine................    71
    Joint prepared statement of Travis Dennison, Arthur 
      Pettegrow, and Norbert Lemieux.............................    73
    Letter, dated February 16, 2008, from Robbie Gray, President, 
      Island Pantry to Hon. Olympia Snowe........................    72
    Prepared statement...........................................    71
Henderson, Jim, President, Southern Lobstermen's Association.....    46
Holmquist, Alison, Manager, Downeast Fishing Gear................    73
Houghton, Meredith, Member, The CALVIN Project, Adams School.....    57
Johnson, Clifford, Lobsterman....................................    66
Joyce, Spencer, Lobsterman.......................................    62
Klyver, Zach, Naturalist, Bay Harbor Whale Watch Company.........    60
Lapointe, George D., Commissioner, Department of Marine 
  Resources, State of Maine......................................     8
    Prepared statement...........................................    11
Larrabee, Sr., Hon. Richard K., Selectman, Town of Stonington, 
  Maine..........................................................    54
Lecky, James H., Director, Office of Protected Resources, 
  National Marine Fisheries Service, NOAA, U.S. Department of 
  Commerce.......................................................     5
    Prepared statement...........................................     6
Lemieux, Nick, Vice President, Downeast Lobstermen's Association.    66
    Prepared statement...........................................    66
Lemieux, Norbert, Lobsterman.....................................    47
McCarron, Patrice, Executive Director, Maine Lobstermen's 
  Association....................................................    14
    Prepared statement...........................................    17
McWeeny, Bill, Member, The CALVIN Project; and Teacher, Grades 6-
  8, Adams School................................................    58
Olivari, Meredith, Member, The CALVIN Project, Adams School......    58
Robbins III, Hon. Steve, Manager, Stonington Lobster Co-Op; 
  Selectman, Town of Stonington, Maine...........................    67
Sergeant, Stanley, Lobsterman....................................    76
Smith, Jay, Lobsterman...........................................    69

                                Appendix

Collins, Hon. Susan M., U.S. Senator from Maine, prepared 
  statement......................................................    81
Downeast Lobstermen's Association, prepared statement............    83
Jones, Donald J., Lobster Fisherman, Stonington, Maine, prepared 
  statement......................................................    84
Lenfestey, Jr., Myron, Lobsterman, Frenchboro, Maine, prepared 
  statement......................................................    83
Letter dated February 18, 2008 from Kyra Alex to Hon. Olympia J. 
  Snowe..........................................................    89
Letter dated February 18, 2008 from Trevor Jessiman and Dan 
  Hadley to Hon. Olympia J. Snowe................................    86
Letter dated February 18, 2008 from the Community Fisheries 
  Action Roundtable to the Senate Committee on Commerce, Science, 
  and Transportation and the Subcommittee on Oceans, Atmosphere, 
  Fisheries, and Coast Guard.....................................    88
Letter dated February 19, 2008 from Richard Larrabee, Jr. to Hon. 
  Olympia J. Snowe...............................................    85
Letter dated February 19, 2008 from Richard K. Larrabee, Sr. to 
  Hon. Olympia J. Snowe..........................................    85
Merchant, Tonia, Sternman, Jonesport, Maine, prepared statement..    84
Motycka, Evan, Member, The CALVIN Project, Adams School, prepared 
  statement......................................................    82
Olivari, Ben, Member, The CALVIN Project, Adams School, prepared 
  statement......................................................    82


                  IMPACTS OF THE ATLANTIC LARGE WHALE
                     TAKE REDUCTION PLAN ON MAINE'S
                            LOBSTER FISHERY

                              ----------                              


                       TUESDAY, FEBRUARY 19, 2008

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                        Brewer, ME.
    The Subcommittee met, pursuant to notice, at 10 a.m. at 
Jeff's Catering and Convention Center, Hon. Olympia J. Snowe, 
presiding.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Good morning everybody. Thank you and 
welcome to this hearing. I want to call this hearing to order. 
This is a Senate hearing, and I appreciate everybody being 
here. I know the last one in January was postponed because of 
bad weather. I can attest to the bad weather. I ended up 
getting a broken wrist on that day.
    I truly appreciate the fact that you are all here today to 
examine a very critical issue, as you all well know, that is 
confronting Maine's vital lobster industry.
    As Ranking Member of the Senate Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard, I am deeply troubled by 
the regulations that have been issued by the National Marine 
Fisheries Service and the impact they will have on our 
lobstermen.
    Indeed it's no exaggeration to say that these rules will 
likely compromise the viability of the industry, an industry 
that is critically important in many sections of our state and 
predominantly throughout our state.
    I understand and I share the profound concerns I know so 
many have here today. That's why I believe it's imperative to 
hold this hearing to provide a platform for discussion among 
our witnesses and the general public, all of you who are here, 
so we can develop solutions that provide adequate protection to 
both our threatened whales and the industry so integral to 
Maine's coastal communities and heritage.
    We must come to a reasoned, equitable solution to this 
issue, and I'm certainly going to fight to ensure all that I 
can do with those here at the table and all of you here in the 
audience and beyond.
    Before we begin an in-depth analysis, I'd like to thank our 
witnesses who have made the trip to Brewer this morning: Mr. 
Lecky, Mr. Lapointe, Ms. McCarron, and Ms. Cornish. We 
appreciate the time that you've taken to be here and look 
forward to hear your insights on this matter.
    I would also like to thank all members of the public and 
the industry for attending. I look forward to hearing from you 
directly, as you are the ones who are clearly on the front 
lines and living the consequences of these regulations day in 
and day out.
    Our agenda this morning will begin with opening statements 
from our panel, after which I will question the witnesses on 
their testimony. Following that there will be at least an hour-
long open mike period during which the floor will be open for 
comments and questions from any of you.
    If you wish to participate, please add your name to the 
list of speakers at the back of the room. You will be called to 
the microphone in that order.
    We'll certainly strive to accommodate as many comments as 
possible, and to those who are unable to make a statement here 
today, you're more than welcome to submit your comments in 
writing for inclusion in the record because this is an official 
Senate hearing, and therefore there will be an official Senate 
record.
    As you're aware, in October of 2007 National Marine 
Fisheries Service issued new regulations that will require 
fixed gear fisherman along the Atlantic seaboard, including 
lobstermen, to use sinking groundline to connect their traps in 
large areas in the Gulf of Maine beginning next fall.
    But as we understand all too well, more than 90 percent of 
the economic burden of this plan will fall on our in-shore 
lobstermen.
    Given such a disproportionate impact upon our state's 
lobstermen and that these rules would take effect on October 5, 
2008, right in the middle of the peak lobster season, there's 
no question we must ensure that we have taken every possible 
step to minimize these impacts, even to the point of amending 
existing law, if that's what it takes to resolve this 
unacceptable situation.
    To that point, hopefully we can concur that a deferral of 
implementation of this rule passed in the 2008 season can also 
be achieved.
    We are all aware of the difficulty, the safety concerns, 
and affiliated economic hardship these rules will impose upon 
our lobster industry as experience tells us that sink rope will 
abrade far more readily on Maine's rocky coastline than the 
floating rope that our lobstermen traditionally use.
    While the National Marine Fisheries Service rightly 
listened to the Congress, industry, and the State of Maine, and 
in the final rule will move the exemption line further from 
shore than they had initially proposed, I frankly still find 
the outcome of this process to impose an unacceptable and 
unnecessary burden on our fishermen.
    Furthermore, neither I nor the lobster industry have yet to 
receive any information about what sanctions may be imposed for 
such violations of these rules or even simple assurance 
effective enforcement is even possible.
    We recognize the challenges confronting our endangered 
large whales, and I have had a long record of supporting 
reasonable and responsible policies to protect them; but we 
have no direct evidence that these regulations will actually 
lower that risk in the areas where those rules will prove most 
harmful, notably in areas with rocky bottom and relatively 
shallow water where whale sightings are extremely rare.
    I think it's telling that while the National Marine 
Fisheries Service has completed its work on a rule to reduce 
ship strike incidents, the Office of Management and Budget has 
held that rule for review for over a year.
    Moreover, when the National Marine Fisheries Service issued 
its proposed rule in 2005, I was deeply troubled by the lack of 
rigor and assumptions in its economic analyses; therefore, I 
requested that the Government Accountability Office conduct a 
review of the underlying research that NMFS used to formulate 
its proposed regulations.
    That study, released in July 2007, found that the agency 
could not estimate the extent to which these rules would 
protect whales and that its economic analysis did not fully 
account for the impact of the rules on our fishing communities.
    Yet despite the GAO's findings and my own comments to the 
Administration, these issues remain unresolved in this final 
rule, and I find that, as well, objectionable and hopefully 
some of the issues that we can resolve here today and beyond.
    Those damaging omissions are particularly concerning given 
that the additional hardships that our fishing industry 
currently confronts, especially Down East where fishing plays 
such an integral role in our economy.
    The groundfish industry, once the lifeblood of this region, 
is now virtually nonexistent with just one active permit 
remaining east of Penobscot Bay. Lobster has been the lone 
bright spot in recent years, with annual landings throughout 
the state in the neighborhood of $300 million. Unfortunately, 
early returns for 2007 appear to have declined from record 
highs of 2005 and 2006, and with fuel and bait prices 
increasing, the harvest numbers already are leading to 
tightening budgets and dwindling profits.
    Then along come these regulations with an estimate from the 
Maine Lobsterman's Association that the costs to the lobstermen 
to convert their gear, including up to 800 traps, would be 
$10,000 to $15,000 and annual replacement costs would run as 
high as $9,000.
    The bottom line is it's no exaggeration to say that these 
rules could put many lobstermen out of business. The effect on 
fishing families and even on entire fishing communities could 
be devastating.
    The path forward must include comprehensive solutions that 
don't simply apply a sledgehammer to a vital segment of our 
economy and our livelihood. First, we require additional 
funding to address multiple aspects of this issue. But while 
the costs of these regulations are visited on the fishing 
industry alone, the benefits are felt nationwide, and therefore 
the government must help shoulder the economic burden.
    Financial assistance, such as a gear exchange program, for 
which I first acquired funding in 2004, will be critical to 
ensuring the survival of the fishery. NMFS and our independent 
scientists also require funding for research so that we can 
better understand the behavior of whales and develop improved 
whale-safe fishing gear.
    Together with many of my colleagues, the New England Senate 
delegation and Maine Congressional delegation, I have requested 
additional funding for Fiscal Years 2008 and 2009, and I'll 
continue to work to ensure that we receive it.
    Because the ultimate goals of these regulations is the 
protection of the endangered species of whales, I would be 
remiss if I did not also mention two additional steps that must 
be taken to ensure that the burden of this protection is 
equitably distributed.
    I have long supported stronger regulations to reduce the 
number of whales killed by ship strikes, and last week I 
introduced a resolution calling for bilateral negotiations with 
Canada to develop transboundary whale management practices.
    Because while Canadian fishermen ply the same bottom for 
the same lobsters and interact with the same whales as the U.S. 
fishermen, the Canadian government has applied no similar 
regulations to their fisherman as we face today giving them, as 
we well know, a competitive advantage and that hardly makes 
sense.
    These are both issues of equity. If Maine's lobstermen are 
being asked to dig deep in the interest of protecting 
endangered species, I'll continue fighting to ensure that 
others are making appropriate, equitable sacrifices. That is 
only right and fair.
    Furthermore, I expect that the National Marine Fisheries 
Service would not only be open to suggestions and 
recommendations and actions here today but will actively engage 
in seeking and implementing a solution that is a win-win for 
everyone.
    The fact is, these regulations are not acceptable in their 
current form, and until we have a set of rules all parties can 
agree to, we must continue to pursue an adequate result.
    To that end, I understand that the Commissioner of the 
Maine Department of Marine Resources, George Lapointe is here 
today. He has worked very hard and will be discussing his 
meetings with nongovernmental organizations and NMFS to seek 
alternative scenarios to the blanket groundline requirements.
    The Department of Marine Resources has sent its proposal to 
the Take Reduction Team in advance of its next meeting, and I'd 
like to hear from them what steps would be necessary to 
implement this plan or other appropriate changes that may come 
to light in our discussion today or in the weeks to come.
    Whatever form the final solution takes, this rulemaking 
process is far from over. We all share the goal of giving our 
endangered species the best possible opportunity to recover 
their populations without unduly and unnecessarily burdening 
the fishing industry that has played such a vital role in our 
state's economy and heritage for centuries. I, for one, am not 
ready to give up the possibility of achieving that goal.
    At this time I would like to begin to hear the testimony 
from our witnesses here today, and I would like to introduce 
them, beginning to my right. I would like to go through who we 
have here representing us today, and also, I'm sure you're very 
familiar with all of the participants.
    Mr. Jim Lecky, Director of the Office of Protected 
Resources at the National Marine Fisheries Service. Mr. Lecky 
is ultimately responsible for the development and 
implementation of regulations that impact marine species 
protected by law and will provide perspective on the new rules, 
and the feasibility of future development.
    Mr. George Lapointe, Commissioner of Maine's Department of 
Marine Resources. Mr. Lapointe has been instrumental in 
presenting Maine's perspective to NMFS and the Take Reduction 
Team throughout this regulatory process, particularly the 
development of the exemption line. He will also be discussing a 
proposal that his department plans to present to NMFS about 
possible amendments to these regulations.
    Ms. Patrice McCarron, Executive Director of the Maine 
Lobstermen's Association. I would be remiss if I did not begin 
her introduction with congratulations on the birth of her 
daughter, Anna Fallon McCarron, introducing her early to the 
industry by bringing her here at only 2 months old. 
Congratulations. It's wonderful news, Patrice.
    She's been tireless, as we all know, as an advocate for the 
lobster industry in the state as evidenced by her presence here 
today in light of her blessed event, and she'll provide a 
perspective on the socioeconomic impacts the regulations will 
have on Maine's fishing industry and fishing communities.
    And finally, Ms. Vicki Cornish, thank you for being here, 
Vice President for Marine Wildlife Conservation with The Ocean 
Conservancy. Ms. Cornish is here representing the environmental 
community and to speak to the reasons underlying these 
regulations, their ability to protect our critically endangered 
large whale species, and to add her organization's perspective 
about possible means of improving the rules to protect both the 
whales and the lobstermen.
    With that we'll begin with you, Mr. Lecky. Thank you again 
for taking the time to be here this morning.

       STATEMENT OF JAMES H. LECKY, DIRECTOR, OFFICE OF 
 PROTECTED RESOURCES, NATIONAL MARINE FISHERIES SERVICE, NOAA, 
                  U.S. DEPARTMENT OF COMMERCE

    Mr. Lecky. Thank you. Good morning. I am Jim Lecky, 
Director of Office of Protected Resources at NOAA's National 
Marine Fisheries Service. Thank you, Senator Snowe, for the 
opportunity to testify on this important issue today.
    Before I begin I'd like to commend you for your leadership 
on the critical issues facing New England and our Nation's 
fisheries.
    NOAA's National Marine Fisheries Service, or NMFS, their 
acronym is pronounced, is mandated to protect endangered whales 
under both the Endangered Species Act and the Marine Mammal 
Protection Act. Among other things, these laws require NOAA to 
reduce injury and mortality of mammals from incidental 
interactions with commercial fishing gear.
    To meet our legal mandates and protect the critically 
endangered right whale, NOAA, together with the Atlantic Large 
Whale Take Reduction Team, began a process to modify the 
Atlantic Large Whale Take Reduction Plan.
    The process began with publication of notice in 2003; 
public scoping meetings in 2003 further defined the action and 
resulted in publication of a draft and environmental impact 
statement in 2005, publication of a final environmental 
statement and final rule, which we're discussing today, 
followed in October of 2007.
    The Atlantic Large Whale Take Reduction Plan, final rule, 
needed to include significant measures to achieve statutorily 
required protection for right whales. The rule implements 
fishing gear modifications throughout the range of right whales 
and fin whales from Maine to Florida and up to the eastern edge 
of the Exclusive Economic Zone for trap, pot, and gillnet 
fisheries. The broad based mark modifications include a 
requirement for sinking groundline beginning in October of 2008 
for trap, pot, and gillnet fisheries. Expanded weak link 
requirements for trap, pot and gillnet gear that will allow the 
link to break when encountered by whales.
    Primary and management measures that take into account 
predictable movements of whales' migrations along the coast, 
identification of exempted waters where whales typically are 
not found, and therefore these modifications would not apply 
and additional gear marking requirements to help identify 
sources when entangled whales are unaccounted for.
    Most of the trap, pot, gear modifications will be effective 
this April. Also beginning in April, the final rule eliminates 
the Dynamic Area Management Program, which requires temporary 
gear modifications and closures in certain areas to protect 
unexpected aggravations of feeding right whales.
    The rules expands the seasonal Area Management Program 
temporarily, which requires gear modifications on a seasonal 
basis until October of 2008, and after October of 2008 that 
provision, likewise, will expire.
    The rule was developed over many years with broad public 
input. While the rule remains controversial, NMFS believes that 
overall the measures implemented in the rule represent the best 
available and balanced environmental and economic 
considerations related to the conservation of right whales and 
are consistent with the requirement of the Marine Mammal 
Protection Act and the Endangered Species Act.
    Thank you again for the opportunity to testify. I look 
forward to working with you, the public, and the fishing 
industry on implementing the rule. I'd be happy to answer your 
questions.
    [The prepared statement of Mr. Lecky follows:]

  Prepared Statement of James H. Lecky, Director, Office of Protected 
Resources, National Marine Fisheries Service, NOAA, U.S. Department of 
                                Commerce

    Good morning. I am James H. Lecky, Director of the Office of 
Protected Resources, within the National Marine Fisheries Service 
(NMFS). Thank you, Senator Snowe, and members of the Subcommittee, for 
the opportunity to testify on this important issue. Before I begin I 
would like to thank you for your leadership and for the support you and 
this Committee have given NMFS. We appreciate your continued support 
for our programs as we work to improve our products and services for 
the American people.
    NOAA's National Marine Fisheries Service, or NMFS, is mandated to 
protect endangered right whales under both the Endangered Species Act 
(ESA) and the Marine Mammal Protection Act (MMPA). The ESA requires 
that federally authorized fisheries do not jeopardize the continued 
existence of right whales. The MMPA requires no serious injuries to, or 
mortalities of, right whales.
    To achieve its goals, the MMPA requires the establishment of teams 
of experts, called Take Reduction Teams, to work in concert with NOAA 
to evaluate current population status and to develop Take Reduction 
Plans to reduce the serious injury and mortality to mammals from 
incidental interactions with commercial fishing gear. The Atlantic 
Large Whale Take Reduction Plan (Plan) covers right, humpback and fin 
whales. Routine assessment indicated that continued serious injury and 
mortality of right whales from entanglement in commercial fishing gear 
required additional modifications to the Plan to protect right whales 
and meet NOAA's legal mandates. The process to initiate this action 
began in 2003, with the publication of a Notice of Intent. Public 
scoping and meetings with the Plan in 2003 further helped define this 
action and resulted in the publication of a Draft Environmental Impact 
Statement and a proposed rule in 2005. Publication of the Final 
Environmental Impact Statement and final rule followed in 2007.

The Atlantic Large Whale Take Reduction Plan Rule
    This final rule needed to include significant measures in order to 
achieve the statutorily-required protection for right whales. This rule 
implements fishing gear modifications throughout the range of right, 
humpback and fin whales from Maine to Florida and out to the eastern 
edge of the Exclusive Economic Zone for trap/pot and gillnet fisheries. 
The broad-based gear modifications include:

  <bullet> A requirement to use sinking groundlines (as opposed to 
        floating groundlines) beginning in October 2008 for trap/pot 
        and gillnet fisheries;

  <bullet> Expanded weak link requirements for trap/pot and gillnet 
        gear that allow the line to ``break'' if entangling a whale;

  <bullet> Time/area management measures that take into account the 
        predictable movements of large whales;

  <bullet> Identification of exempted waters where whales typically are 
        not found and therefore these gear modifications will not 
        apply; and

  <bullet> Additional gear marking requirements to help identify the 
        source of the entangled gear.

    Most of the trap/pot gear modifications will be effective in April 
2008. Also beginning in April 2008, the final rule eliminates the 
Dynamic Area Management program, which requires temporary gear 
modification or closures in certain areas to protect unexpected 
aggregations of right whales. The rule also expands the Seasonal Area 
Management program, which requires gear modifications on a seasonal 
basis, until October 2008. After October 2008, the Seasonal Area 
Management program will be replaced with the broad-based sinking 
groundline requirement, thus eliminating unpredictable, temporary 
modifications in favor of predictable, broad-based modifications.
    While many comments were in support of the measures in the proposed 
rule and Draft Environmental Impact Statement, other comments provided 
negative feedback on specific aspects of these proposals. In response 
to public comment on the Draft Environmental Impact Statement and 
proposed rule, as well as new information obtained since the 
development of these documents, NMFS made a number of changes in the 
final rule and Final Environmental Impact Statement. These changes are 
intended to minimize potential economic impacts through various 
regulatory modifications without reducing protection to large whales. I 
would like to highlight some of the major modifications related to the 
State of Maine.
    Traditionally, trap/pot fishermen use floating lines between their 
traps. The loops created from the float rope used between the traps 
create an entanglement risk for large whales. A significant measure in 
the final rule is a requirement to use sinking groundlines to reduce 
the entanglement risk to large whales. Public comments received on the 
proposed rule indicated that this is an issue of particular concern for 
some trap/pot fishermen. They commented that using this type of line in 
areas with rock/boulder and coral bottom topography may present 
operational feasibility issues. They also commented that the costs 
associated with converting from float groundline to sink groundline, 
coupled with the increased frequency in replacing line due to wear, 
would create economic hardship for them. In response to these comments 
and concerns, additional time for the conversion was provided.
    In addition, NMFS has been actively working with commercial 
lobstermen to convert from floating groundline to sinking groundline 
and has created funding opportunities for this purpose. Since 2005, 
NMFS has promoted lobster gear buyback and recycling programs from 
Maine to North Carolina. This has been done with the assistance of 
industry and conservation organizations such as the Gulf of Maine 
Lobster Foundation, the National Fish and Wildlife Foundation and the 
International Fund for Animal Welfare.
    The proposed rule also included a nearshore exemption line, 
shoreward of which large whales are not typically found and therefore 
the gear modifications would not apply. In comments on the proposed 
rule, the State of Maine recommended an exemption line further offshore 
than the one that NMFS proposed, citing safety, economic and gear loss 
issues. In response to public comments, the final rule moved the 
exemption line in several areas further offshore, bringing it closer to 
what the State of Maine requested.
    The buoy line gear marking scheme was also modified in the final 
rule in response to public comments. Although many commenters support 
the concept of gear marking, NMFS received numerous comments opposing 
the proposed gear marking scheme on the grounds that it would be time-
consuming, costly, and impractical to implement while at sea. In 
response to these comments, a gear marking scheme was finalized (i.e., 
one 4" mark midway on the buoy line) to make it easier to implement and 
use currently available technology.
    NMFS received many comments on economic issues raised in the Draft 
Environmental Impact Statement. In response, the economic analysis 
presented in the Final Environmental Impact Statement incorporates 
updated information on labor and material costs. It also incorporates 
sensitivity analyses examining the impact of alternate assumptions on 
estimated compliance costs. This included analyzing the projected 
increase in gear loss that lobster trap/pot vessels fishing in Maine 
inshore waters may experience as a result of converting from floating 
groundline to sinking and/or neutrally buoyant groundline, the rate at 
which sinking and/or neutrally buoyant groundline will wear out and 
need to be replaced, the variation in the price of sinking and/or 
neutrally buoyant line relative to floating line, and the variation in 
the number of state-permitted vessels potentially subject to the Plan 
requirements. Each of these sensitivity analyses was performed 
independently to isolate the effects of altering each assumption on 
estimated compliance costs.

Conclusion
    NMFS believes that, overall, the measures implemented in the final 
rule represent the best alternative to balance environmental and 
economic considerations related to the conservation of right whales and 
are consistent with the requirements of the MMPA and ESA. Thank you for 
the opportunity to testify. I look forward to working with you, the 
public, and the fishing industry on implementing this critical rule. I 
will be happy to answer any of your questions.

    Senator Snowe. Thank you, Mr. Lecky. George Lapointe. Thank 
you.

 STATEMENT OF GEORGE D. LAPOINTE, COMMISSIONER, DEPARTMENT OF 
                MARINE RESOURCES, STATE OF MAINE

    Mr. Lapointe. Thank you, Senator. My name is George 
Lapointe. I'm Commissioner of Marine Resources for the State of 
Maine, and very much appreciate the opportunity to testify 
before you on this issue of critical importance to Maine, and I 
also want to thank you broadly for your continued support of 
Maine's fishing industry, and just from this morning's 
discussion, your help on the transboundary issue and ship 
strikes issue as well, because that's an issue that everybody 
in this room will agree with.
    The issue of lobster gear/whale interactions has been with 
us for a long time and will remain an issue for the foreseeable 
future.
    As Jim mentioned, the Marine Mammal Protection Act and the 
Endangered Species Act are powerful laws written to make sure 
that we protect vulnerable species from human impacts. We have 
all come to learn how powerful they are.
    The Governor has stated with respect to salmon that 
extinction is not an option, and I know that he feels the same 
way about the lobster/whale issue as well. In the interest of 
time, my testimony has a couple of pages talking about what the 
department has done over the course of the last decade with 
NMFS, with the conservation industry, and the lobster industry 
trying to make the rules under the Atlantic Take Reduction Plan 
as workable as possible. We have continued that work.
    One of the main things we have done with the industry is 
work on different groundline configurations to reduce the 
profiles in the water column. After much work, these efforts 
have focused on low profile groundline, which, as you 
mentioned, is in our plan, and this row [indicates] has a 
specific gravity. Just above that is sea water, which allows 
the groundline to float about a meter above the ocean floor as 
opposed to floating groundlines, where it floats larger, and it 
reduces the profile in the water column some 90 percent.
    In our continued work on working on whale protection, we've 
done a number of things that are worth noting, and they're in 
my testimony as well. One is, we've conducted a vertical line 
survey because that's important, baseline numbers, for seasonal 
changes in the density and location of lobster gear throughout 
the state.
    We worked with people on a sightings network so that in 
fact we know when and where whales are observed. We have worked 
with the industry, NMFS, and conservation interests on a 
disentanglement network, and we have worked, again, with the 
industry and NMFS on the large whale foraging research so that 
in fact we can tell if and where whales forage over rocky 
bottom, because that's so important for our state.
    When the rule was published in August our comments included 
a number of things we supported which are important to mention. 
We supported the exemption line because it was an exemption 
line we proposed because it exempted 71 percent of state 
waters; we supported the elimination of the Dynamic Area 
Management, the dams, and the Seasonal Area of Management, the 
SAMs, because of the impact those had had on our fisherman; we 
supported the elimination for all sinking line requirements for 
in-lines; we supported the required weak link for flotation and 
sinking devices; surface rule marking requirements; and 
provision for no expanded gear marking.
    I mention these because they do show that we have made some 
progress. We also had some concerns: One was concern for the 
availability of sufficient sinking groundline to comply with 
the regulation; concern over the implementation date; and 
importantly, concern that a process wasn't identified for the 
timely implementation of emerging reduction technologies.
    One of the things that we worked on is trying to continue 
to tinker with new technologies to try to make this as workable 
as possible, and that's got to continue through the future.
    One of the other things, in terms of our comments, there's 
been much discussion about the availability of sinking 
groundline to meet the October deadline, and those discussions 
continue to this date.
    There was some early information that showed that the 
demand for sinking groundline could be met, but the issues of 
timing and availability remain. It will be, as the months go 
on, the opportunity, rather, for people to place orders in time 
to have them in place for October will wind down, and I suspect 
we may get jammed up toward the end of the period going toward 
October because the orders won't be placed in time for people 
to switch over. Manufacturers have told me personally that they 
cannot afford to hold a lot of inventory, so they will not 
produce rope without orders, and as I mentioned before, the 
consequence of this is we may get jammed up on this issue as 
the year progresses.
    One thing that has helped some portions of Maine in getting 
fishermen to switch their groundline is the rope buy back 
program that had been established.
    Another issue that will make it hard to switch over by 5 
October is that late summer and fall are the best part of our 
fishing year. To ask fishermen to switch their groundline at 
the busiest time of the year will be problematic as you have 
already heard.
    Following the publication of the rules and a lot of 
discussions, there are a couple things worth mentioning. First 
is, our industry held a number of meetings to tell people what 
was in the rules and what the impact on people would be.
    Again, to show Maine's commitment to moving forward, the 
idea was broached about increasing lobster trap tag fees, 
specifically to fund research in the lobster/whale interaction 
area; and while not universally supported, people begrudgingly 
support it because they said, if we don't have our oar in this 
water, we are going to be in trouble. I think that is really 
important.
    This is money that is coming from the pocket of all the 
lobstermen in this room, and it will help us to add to the 
research that is needed as this issue moves forward. So I think 
that is important to mention.
    We also, in the course of these meetings, one of the things 
that came to me and came to others was separating the 
groundline and the endline issue frankly didn't make sense to 
me, and as we had discussions, it didn't make sense to other 
people as well.
    One of the issues in talking to industry and working with 
my staff was realizing that the requirement for sinking 
groundline may actually result in a very significant increase 
in the vertical lines, up to 63 percent in the area proposed 
for low profile groundline, and this counteracts the very 
purpose of the sink line regulation.
    So with my staff, with people in industry, we developed the 
alternative proposal, which has been submitted to NMFS. There 
is a chart at the back of the testimony we provided, which I 
would like to refer to.
    The broad outlines of the plan is a universal requirement 
to maintain the current technology listed in Maine exempted 
waters. That is the weak links, et cetera, that are currently 
in place, and the decision was made that we should keep those 
in place as well.
    And in Maine, the state waters, I had a chart, a big one so 
people could see, somewhere between January and now it is no 
longer with me. The yellow area, which is the state waters, 
sliver areas we call it, we would obviously maintain the 
current exemption line. There would be implementation of low 
profile groundlines, and that has a specific gravity of 1.02 
and a maximum 5 fathom tailer length on groundlines. It would 
require a unique mark for low profile groundlines. It would 
contain sinking groundline exemptions in the Mount Desert Rock 
state waters area. That is identified in the chart because 
there is a bucket full of whale sightings around there.
    It would contain a requirement for no single traps, no more 
than one buoy for five traps or less, and adopting these 
regulations in state rulemaking.
    In Federal waters, the proposal is for implementation the 
low profile groundlines in specific rocky tidal habitat areas 
be analyzed for low risk of interaction with large whales and a 
maximum of 25 fathom length.
    We shared this concept, actually, this was written in 
January, so I apologize. We shared this concept with Down East 
Lobstermen's Association and Maine Lobstermen's Association and 
through our lobster zones, and both boards of the associations 
and people have approved moving forward with the plan, although 
the support certainly hasn't been unanimous.
    To be completely honest, they see the groundline plan as 
bad, and this is less bad; but it gives us an alternative to 
work with, and so that is where the support has come from.
    But what it does give is Maine lobstermen an opportunity to 
use low profile groundline in the colored areas, yellow for 
state waters and pink for Federal areas in the charts. In 
exchange for this, it prevents a huge buildup, potential 
buildup, of vertical lines in those areas and provides for a 
real reduction in vertical lines from current levels.
    It would do this in a timely way as compared to the slower 
pace that is involved in the Take Reduction Team process 
because, as I mentioned earlier, we would implement through 
state regulations, and we have recently submitted this proposal 
to the National Marine Fisheries Service for peer review and 
for submission to the Take Reduction Team meeting this spring.
    We believe the proposed amendment credibly and more 
holistically addresses this reduction to large whales, while 
concurrently allowing lobstermen the opportunity to 
operationally fish the rocky and tidal habitats that are low 
risk to large whales.
    We intend to work this proposal through the team, the Take 
Reduction Team process for adoption and implementation, and we 
appreciate the help and support for these efforts.
    That concludes my comments. At the right time I'd be happy 
to answer questions.
    [The prepared statement of Mr. Lapointe follows:]

        Prepared Statement of George D. Lapointe, Commissioner, 
             Department of Marine Resources, State of Maine

    My name is George Lapointe; I am Commissioner of Marine Resources 
for the State of Maine. I very much appreciate the opportunity to 
testify before you this morning on an issue that is of great importance 
to Maine, the development of lobster/whale rules that protect 
endangered and protected large whales while at the same time allowing 
the lobster industry to survive and thrive. As you know, this issue is 
of vital importance to Maine's coastal communities, and Maine's lobster 
industry. I also want to express Maine's appreciation of your continued 
support of Maine's fishing industry.
    The issue of lobster gear/whale interactions has been with us for a 
long time, and will remain an issue into the foreseeable future. The 
Marine Mammal Protection Act and Endangered Species Act are powerful 
laws written to make sure that we protect vulnerable species from human 
impacts. Maine supports the cooperative implementation of these laws 
that will both protect large whales and allow the lobster industry to 
continue to thrive. Governor Baldacci has stated with respect to salmon 
``extinction is not an option'' and I know that he feels the same way 
about the lobster/whale issue. The Department has had a decade long 
effort to work on the Atlantic Large Whale Take Reduction Team to 
provide for real, logical protection for whales in a way that makes 
sense in terms of impacts on the lobster industry. In this effort, the 
Department has worked with NOAA Fisheries, the lobster industry, and 
conservation groups because we know that this is the only way that we 
will all move forward with meaningful whale protection. Within this 
decade of work, the Department has concentrated on the development and 
implementation of new technologies that work for whale protection and 
the lobster industry. With the help that you have given us in securing 
funding, support of the lobster industry and NOAA Fisheries, we have 
experimented with a number of groundline configurations to reduce the 
profile of rope in the water column. After much work, these efforts 
have focused in on low profile groundline. This rope has a specific 
gravity just above that of seawater, allowing the groundline to float 
less than a meter (about 3ft.) off the ocean floor. By comparison, the 
currently used floating groundline can float up to 8 meters (about 25 
ft.) off the bottom. Floating groundline has historically been safer 
and more efficient to use around Maine's rocky coast because it 
provides the lift needed to avoid rocks and hard bottom in tidal 
currents. However, the arc in the water column created by this 
floatation poses risk of entanglement to large whales in the region. 
Alternatively, sinking groundline, which will be required by the 
current rules on 5 October 2008, is harder to use and less durable 
because it rests on the hard bottom and is subject to excessive chafing 
and getting hung down. This is an issue that is unique to Maine due to 
the rocky and tidal habitats that exist along our coastline. In terms 
of whale protection, sinking groundlines provide a reduced entanglement 
risk because of the complete removal of rope from the water column. The 
low profile line currently being proposed is, in the Department's 
opinion, a great compromise because it reduces the height to which 
groundlines will float in the water column by about 92 percent. The 
floatation this provides allows the groundline to float slightly off 
the bottom in some portions of the tidal cycle, making the wear and 
hang down issues much more manageable. Unfortunately, the use of low 
profile rope is not part of the current regulations because of the 
timing with getting this new technology of rope tested. The reason for 
mentioning this information is to demonstrate that the State of Maine 
and lobster industry have been working diligently and cooperatively to 
come up with workable solutions to the lobster/whale issue.
    In addition to the testing of alternative groundline, the 
Department has done the following things for whale protection:

  <bullet> Vertical line survey--provided baseline numbers for seasonal 
        changes in the densities and location of lobster gear 
        throughout the state.

  <bullet> Sightings network--maintain a web-based application for 
        locations of large whales in the region that is contributed to 
        by whale watch boats, scientific surveys, industry and the 
        public.

  <bullet> Disentanglement network--provide 24 hour, 7 days a week 
        coverage for response to entangled whales in Maine waters. 
        Trained Marine Patrol officers and industry members respond to, 
        assist in or perform disentanglements with authorization 
        through NOAA.

  <bullet> Large whale foraging research--to understand the behavior of 
        large whales and their prey in an effort to make informed 
        decisions for the management of these species and the fishing 
        industries affected.

    <ctr-circle> State-wide survey and right whale tagging effort that 
            occurred in 2007.

    <ctr-circle> Set-up monitoring stations in known right whale 
            habitat in 2007 and will continue through 2008.

    <ctr-circle> Conducted state-wide CTD/plankton survey to assess 
            availability of prey.

    <ctr-circle> Moving ahead with modeling whale and gear overlaps 
            spatially and temporally using sightings, gear densities, 
            and other variables such as prey, depth and temperature.

    <ctr-circle> Additional grants have been submitted to conduct 
            statewide aerial surveys, tagging right, fin and humpback 
            whales, and a collaborative grant for gear testing with the 
            New England Aquarium, the State of Massachusetts, Gulf of 
            Maine Lobster Foundation, the Maine Lobstermen's 
            Association, Woods Hole Oceanographic Institute, University 
            of New Hampshire and others.

    The FEIS was published on 10 August 2007. A brief summary of 
Maine's comments includes:

  <bullet> Support for the exemption line that exempts 71 percent of 
        Maine state waters;

  <bullet> Support for elimination of Dynamic Area Management (DAM) and 
        Seasonal Area Management (SAM) areas;

  <bullet> Support for the elimination of the all sinking line 
        requirement for endlines;

  <bullet> Support for the required weak link on all flotation and 
        sinking devices;

  <bullet> Support the surface buoy marking requirement;

  <bullet> Support the provision for no expanded gear marking;

  <bullet> Concern for the availability of sufficient sinking 
        groundline to comply with the regulation;

  <bullet> Concern that the 1 October implementation date is in the 
        middle of the fall lobster season;

  <bullet> Concern that a process wasn't identified for the timely 
        implementation of emerging risk reduction technologies.

    I think it's important to make a few comments on this list. First, 
the number of issues that the Department supported demonstrates the 
progress that has been made on working cooperatively. It shows that we 
listen to one another, as it should be. This cooperation is critical to 
the future work on lobster/whales rules.
    Our comments expressed a concern about the availability of sinking 
groundline to meet the October 5 deadline. Since these comments were 
written, we've learned that the demand for sinking groundline can be 
met but issues of timing and availability remain. My understanding is 
that the need for rope can be met if orders for rope are placed early 
enough to allow an orderly production and delivery process. If people 
wait until the end of summer to place their orders, there will not be 
sufficient time to switch over. Another issue that is worth mentioning 
is the concern of rope manufacturers that they can't afford to hold a 
lot of inventory without orders for sinking groundline. The consequence 
of all of this is that we may get jammed up on this issue as the year 
progresses. One thing that has helped in getting lobstermen to switch 
their groundline is the rope buy back programs that have been 
established, including that of the Gulf of Maine Lobster Foundation, 
with the help of Maine's Congressional delegation.
    Another issue that will make it hard to switch over by 5 October is 
that the late summer and fall is the best part of the year for Maine's 
lobstermen. To ask them to take the time to switch out their groundline 
in the busiest part of the year will be problematic.
    Since the draft rules were published, various interests in Maine 
have been involved in a number of efforts that are worth mentioning. 
Industry meetings let folks know what was in the rule and what options 
there were to move forward. The idea of increasing the Maine lobster 
trap tag fee was broached at these meetings to add significantly to the 
funding available for lobster/whale research.
    The Department has increased the trap tag fee from $0.30 to $0.40 
to provide additional funding for research needed to help Maine 
continue the work on developing the information and technologies that 
are needed to balance whale protection with lobster fishery operations. 
Maine currently sells about 3 million tags a year so this $0.10 
increase will generate something in the vicinity of $300,000 annually 
to help answer important research questions and position Maine to 
better address the upcoming endline risk reduction component of the 
Take Reduction Plan.
    Following the publication of the final rule, a meeting was arranged 
between the Department, lobster industry, and conservation industry to 
discuss opportunities to connect the groundline/vertical line issue. I 
met first with some of the leaders from The Ocean Conservancy to 
reiterate Maine's commitment to finding workable solutions to the 
lobster/whale issue and to see if there was any interest in further 
discussions on combining the groundline and vertical line issues. My 
sense is that this was a positive meeting with a commitment to further 
discussions. It was also a realistic meeting in that all participants 
knew that possible solutions would be difficult to put together and 
would require discussion and understanding by all parties. A follow up 
meeting was held in October with some lobster representatives and some 
folks from The Ocean Conservancy where we discussed the idea of 
combining the groundline and vertical line issues. Again, it was a 
frank but good discussion.
    We followed up with conversations with NMFS to see if there was any 
opportunity for the concept we were discussing. They said that is was 
possible but that it would be very difficult which I believe is an 
honest assessment.
    So, we went ahead in developing what the Department believes is a 
viable alternative that gives some flexibility on the groundline issue 
but makes real and timely progress with vertical lines. Although there 
are many aspects of the Final Rule that amend the Atlantic Large Whale 
Take Reduction Plan that the Department supports including Maine's 
exemption line, the removal of the requirement to fish all sink 
endlines and the removal of Dynamic Area Management. The requirement 
for mandatory sinking groundlines is both problematic for logistical 
and risk reduction reasons. One very important unintended consequence 
of the mandatory sinkrope requirement is that many fishermen will 
switch from multiple traps connected to one groundline to singles or 
pairs resulting in a significant increase in vertical lines in the 
water column. Preliminary analyses done by the Department suggest there 
could be up to a 63 percent increase in vertical lines within the area 
proposed for use of low profile groundline. Obviously, this counteracts 
the very purpose of the sink line regulation; getting rope out of the 
water.
    The outline of the plan is:

    Universal Requirement:

  <bullet> Maintain current technology list in Maine exempted waters.

    Maine State Waters Sliver--Outside the Exemption Area (See attached 
chart):

  <bullet> Maintain current exemption line.

  <bullet> Implementation of low-profile groundlines (specific gravity 
        of 1.02)--maximum 10 fathom length.

  <bullet> Uniquely mark low-profile groundlines.

  <bullet> Sinkrope groundlines in Mt. Desert Rock state waters area.

  <bullet> No singles.

  <bullet> No more than 1 buoy for 5 traps or less.

  <bullet> Adopt sliver waters measures in Maine state rulemaking.

    Maine Federal Waters:

  <bullet> Implementation of low-profile groundlines in specific rocky/
        tidal habitat areas within (LZs A-D) analyzed to be of lower 
        risk to ALWs--maximum 25 fathom length.

    We have recently shared this concept with the Maine Lobstermen's 
and Down East Lobstermen's Associations to get their reaction on the 
idea. Both Boards approved moving forward with this plan but support 
wasn't unanimous. Their comments reflect the fact that it's an 
alternative that has significant impacts on how lobster fishing is 
conducted in Maine, it's a tough proposal.
    What it gives to Maine lobstermen is the opportunity to use low 
profile groundline in colored areas (yellow in state waters and pink in 
Federal waters) identified on the attached chart. In exchange for this, 
it first prevents a huge buildup in vertical lines and provides for a 
real reduction (21 percent statewide) from current levels. It would do 
this in a timely way as compared with the slow pace that has occurred 
with the groundline discussions. Additionally, the current conservation 
measures to protect whales will remain intact in state waters.
    Later this week the Department will be submitting the full low-
profile proposal and all supporting data to NOAA Fisheries for 
distribution to the Large Whale Take Reduction Team and for external 
peer review prior to this spring's Take Reduction Team meeting. We 
believe that the proposed amendment credibly and more holistically 
addresses risk reduction to large whales while concurrently allowing 
Maine lobstermen to operationally fish in rocky and tidal habitats that 
are of low risk to large whales. We intend to work this proposal 
through the Team process for adoption and implementation by October 5, 
2008. I appreciate your help and support with these efforts.
    Again, thank you for the opportunity to provide testimony on these 
important issues today.

    Senator Snowe. Thank you very much, Commissioner Lapointe.
    Ms. McCarron?

   STATEMENT OF PATRICE McCARRON, EXECUTIVE DIRECTOR, MAINE 
                    LOBSTERMEN'S ASSOCIATION

    Ms. McCarron. Senator Snowe, good morning. My name is 
Patrice McCarron, and I am the Executive Director of the Maine 
Lobstermen's Association, which is the largest commercial 
fishing industry group on the East Coast representing the 
interests of about 1,200 lobstermen.
    Lobster fishing is vital to the Maine economy, and Maine 
lobstermen have for generations been leaders in conserving our 
marine resources, including large whales. On behalf of the MLA, 
I would like to thank you for providing this opportunity to 
speak for our members about our common objective of protecting 
large whales and maintaining the viability of the Maine lobster 
fishing industry. I will be sharing our thoughts on how the new 
Federal regulations implementing the Atlantic Large Whale Take 
Reduction Plan can better serve those goals.
    I want to emphasize at the start that MLA and its members 
fully support conservation and protection of large whales, 
including the endangered northern right whale. Although 
encounters between endangered whales and lobster fishing gear 
in Maine are extremely rare, we believe it is important to 
minimize these rare incidents and eliminate mortality while 
doing so in a practical way that recognizes the operational 
realities faced by Maine lobstermen, and it does not threaten 
the viability of the Maine lobster industry.
    However, the MLA believes that the new regulations will 
have serious and unwarranted impacts on Maine lobstermen. NMFS 
has established an exemption line that does not reflect a 
thorough scientific analysis of large whale behavior and their 
interactions with lobster fishing. As a result, the sinking 
groundline requirement will apply more broadly than is 
necessary to protect large whales both geographically and 
temporally, and will impose substantially greater costs on 
Maine lobstermen than are necessary to protect whales.
    In addition, we continue to have serious doubts concerning 
the ability of Maine lobstermen to fish safely and efficiently 
using sinking groundline because the rocky bottom conditions 
and the strong currents that prevail off the Maine coast.
    We believe that NMFS is going forward with implementation 
of the sinking groundline requirement without adequately 
analyzing the costs associated with compliance or the 
potentially catastrophic impact that the new regulations on 
Maine lobstermen, their communities, and the lobster fishing 
industry in general.
    The MLA is particularly concerned that the sinking 
groundline requirements are scheduled to be implemented in 
October of 2008 during the peak fishing season. Maine 
lobstermen are now preparing their gear for the upcoming 
season, and it is imperative that they be able to gear up for 
the entire season rather than be forced to bear the additional 
expense and burden of switching gear in October.
    Right now Maine lobstermen face a serious dilemma. Because 
the new NMFS regulations place Maine lobstermen in an untenable 
position regarding the deployment of compliant groundline, 
because NMFS has not yet developed adequate specifications that 
can be used in the fishery. It is specified in a practical 
implementation date that would not allow Maine lobstermen to 
come into compliance for the upcoming season even assuming that 
a workable standard for compliant groundline were immediately 
specified.
    They lack procedures for certified compliant rope and for 
identifying laboratories that are qualified to provide an 
independent certification, and they place lobstermen in 
jeopardy of unspecified enforcement consequences for failure to 
comply with vague and unenforceable standards.
    The new rules are proposed to be implemented without 
adequate coordination between Federal and state enforcement 
authorities.
    To address these concerns, the MLA intends to request that 
NMFS exercise its discretion to defer enforcement of the 
sinking groundline requirement with respect to Maine lobstermen 
until after the 2008 lobster fishing season.
    Taking this step would ensure that Maine lobstermen are 
able to order gear without facing the compliance dilemma that I 
have outlined. It would also provide NMFS with an opportunity 
to develop groundline specifications and enforcement guidelines 
and procedure that will be clearer and more easily enforced.
    In connection with the development of such specifications 
and guidelines, we call on NMFS to develop a test procedure to 
be used by rope manufacturers so that lobstermen can actually 
purchase groundline that is certified to meet the NMFS 
standards and that would be recognized by NMFS as meeting those 
standards, that would require the rope manufacturers to 
actually mark compliant rope similar to what was proposed with 
the DMR plan, and to work with the industry to put in place 
third-party certification procedures that will facilitate the 
availability of compliant groundline.
    We further believe that this deferral would give NMFS and 
interested parties time to conduct the necessary further 
analyses to determine where the sinking groundline requirement 
is truly appropriate based on the most up-to-date research and 
how to ensure that Maine lobstermen and those who depend on 
them are not left to bear the lion's share of the burden 
associated with protecting large whales.
    I would now like to take a few moments to comment on the 
Maine DMR Low-Profile Groundline Area Proposal which was 
submitted to the TRT at the end of January of this year.
    In many respects the new proposal does represent a 
substantial improvement. It recognizes that the rocky coastal 
terrain and strong currents present off the Maine coast require 
some degree of groundline flotation to permit Maine lobstermen 
to fish both safely and efficiently.
    The proposal provides for compliant rope to be uniquely 
marked for use in Maine and in Federal waters by Maine 
lobstermen, which would result in many of the enforcement 
difficulties that are present under the NMFS procedures.
    However, the proposal also contemplates implementation in 
October of 2008, which is just unrealistic. In addition to the 
numerous political and administrative hurdles that we feel 
would need to be overcome, I have already noted that lobstermen 
should not be required to switch gear during the peak fishing 
season. Moreover, the rope proposed by Maine DMR is not 
currently available commercially and thus cannot be purchased 
in time for the upcoming season.
    The MLA appreciates Maine DMR's work in developing the low-
profile proposal and believes that it does warrant further 
review and analysis; however, we also believe that these 
efforts should go forward hand in hand with the continued 
efforts of the MLA that we're supporting in order to refine the 
scientific analysis of large whale behavior and their 
interactions with lobster fishing.
    If enforcement of the sinking groundline requirement is 
deferred, this would provide a window of opportunity for 
further study of the low-profile groundline proposal, as well 
as additional scientific and economic analysis that we believe 
are needed.
    Thank you.
    [The prepared statement of Ms. McCarron follows:]

      Prepared Statement of Patrice McCarron, Executive Director, 
               Maine Lobstermen's Association<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ Exhibits referred to in footnotes can be found at 
www.maine.gov/dmr/rm/whale/lowprofileproposal2008figs.pdf.
---------------------------------------------------------------------------
    Good morning. My name is Patrice McCarron. I am the Executive 
Director of the Maine Lobstermen's Association (MLA). MLA is the 
largest commercial fishing industry group on the East Coast, 
representing the interests of 1,200 lobstermen. Lobster fishing is 
vital to the Maine economy, and Maine lobstermen have for generations 
been leaders in conserving our marine resources, including large 
whales. On behalf of MLA, I would like to thank you for providing this 
opportunity to speak for our members about the impacts on the Maine 
lobster fishing industry of the new Federal regulations implementing 
the Atlantic Large Whale Take Reduction Plan (ALWTRP).

I. Introduction
    On October 5, 2007, the National Marine Fisheries Service (NMFS) 
\1\ issued a Final Rule amending the regulations that implement the 
ALWTRP.\2\ The Final Rule revises existing measures for the protection 
of certain large whale species in Atlantic commercial fisheries to meet 
the goals of the Marine Mammal Protection Act and the Endangered 
Species Act (ESA). Among other requirements, the Final Rule establishes 
an exemption line off the coast of Maine and requires that lobstermen 
fishing outside of the exemption line use sinking and/or neutrally 
buoyant groundline,\3\ in order to reduce the risk of entanglement with 
large whales. These requirements are to become effective on October 6, 
2008, during an important part of the Maine lobster fishing season.
---------------------------------------------------------------------------
    \1\ NMFS is a line office of the National Oceanic and Atmospheric 
Administration.
    \2\ Taking of Marine Mammals Incidental to Commercial Fishing 
Operations; Atlantic Large Whale Take Reduction Plan Regulations, 72 
Fed. Reg. 57,104 (Oct. 5, 2007) (Final Rule).
    \3\ Subsequent references in this testimony to sinking groundline 
are intended to encompass neutrally buoyant groundline, as well.
---------------------------------------------------------------------------
    I want to emphasize at the start that MLA and its members fully 
support conservation and protection of large whales, including the 
endangered Northern right whale. To that end, MLA has been an active 
member of the Atlantic Large Whale Take Reduction Team (ALWTRT) since 
1997, and has collaborated with NMFS, the New England Aquarium, and the 
Maine Department of Marine Resources (Maine DMR) in the development and 
testing of new gear designed to reduce the potential for large whale 
entanglement. Many Maine lobstermen have participated in workshops to 
assist in reporting whale sightings and disentangling whales, and 
strategically located lobstermen are equipped with disentanglement 
tools and have successfully intervened in the instances where minke 
whales have become entangled.\4\ MLA also has urged that further study 
be given to large whale foraging activities, to determine the extent to 
which Northern right whales are at risk in Maine waters. MLA and its 
members are proud of our record of compliance with existing 
conservation standards, and are committed to maintaining that record in 
the future.
---------------------------------------------------------------------------
    \4\ Minke whales are not listed as endangered or threatened under 
the ESA. A summary of the Maine lobster industry's efforts to protect 
large whales is included as Exhibit 1.
---------------------------------------------------------------------------
    However, MLA is deeply concerned about several aspects of the Final 
Rule as it applies to Maine lobstermen. We continue to have serious 
doubts concerning the ability of Maine lobstermen to fish using sinking 
groundline, because of the rocky bottom conditions that prevail off the 
coast of Maine. MLA is concerned that NMFS is going forward with 
implementation of the sinking groundline requirement without adequately 
considering the operational and economic burdens associated with 
increased gear loss and the shorter lifespan of sinking groundline. Nor 
has NMFS adequately addressed the serious safety hazards to lobstermen 
associated with the use of sinking groundline in rocky bottom areas.
    We are particularly concerned about the current schedule for 
implementation of the sinking groundline requirements, because the 
Final Rule:

        1. Lacks adequate enforcement guidelines that will enable Maine 
        lobstermen to procure and deploy compliant gear in time for the 
        upcoming 2008 lobster fishing season;

        2. Specifies an impractical implementation date that would not 
        allow Maine lobstermen to come into compliance for the upcoming 
        season, even assuming that adequate standards for compliant 
        gear were immediately specified;

        3. Places Maine lobstermen in an untenable position regarding 
        the deployment of compliant gear, because without further 
        specifications from NMFS concerning compliant groundline, 
        lobstermen do not know how they should proceed in ordering rope 
        for the coming season, which for many lobstermen begins in 
        April;

        4. Lacks procedures for certifying compliant rope and for 
        identifying laboratories that are qualified to provide 
        independent certification;

        5. Places Maine lobstermen in jeopardy of unspecified 
        enforcement consequences under Federal fishing permits for 
        failure to comply with vague and unenforceable standards; and

        6. Is proposed to be implemented without adequate coordination 
        between Federal and state enforcement authorities.

    Maine lobstermen need to place orders for gear for the upcoming 
fishing season in the very near future, and it is imperative that they 
be able to purchase appropriate gear to last the entire season, rather 
than be forced to bear the expense and burden of switching gear in 
October, during the peak fishing season. Right now, however, lobstermen 
have no assurance that the gear they purchase will be compliant, 
because clear standards have not been developed and communicated by 
NMFS.
    In addition to those immediate concerns regarding enforcement of 
the Final Rule, MLA has more general concerns regarding the scientific 
and economic analyses that led to the determination of where the 
exemption line was drawn and where the sinking groundline requirement 
will be imposed. First, the Final Rule is not based on scientific 
evidence demonstrating that the geographic restrictions on fishing 
activities will protect large whales. The exemption line is not 
optimally located to maximize protection of large whales while 
minimizing the impact on lobstermen, and the restrictions are imposed 
year-round, failing to address both the seasonality of the large whale 
presence off the Maine coast and the seasonal nature of the lobster 
fishery. Second, the Final Rule will have potentially catastrophic 
impacts on the livelihoods of Maine lobstermen, affecting families and 
communities by imposing greatly underestimated costs and burdens--costs 
and burdens that, in many instances, may prove unnecessary for the 
protection of large whales because the scope of the restrictions are 
overly broad. It is unfair to impose nearly all of the economic burden 
of protecting large whales--approximately 90 percent of the costs 
identified in the FEIS--on Maine lobstermen, and it is unjust to do so 
without evidence to demonstrate that the affected lobstermen are 
fishing when large whales are present.
    MLA raised many of these concerns in comments on the Final 
Environmental Impact Statement (FEIS) that it filed with NMFS on 
September 17, 2007. Similar comments were submitted to the agency by 
Maine officials, including Senators Snowe and Collins, Congressmen 
Allen and Michaud, Governor Baldacci, and Commissioner Lapointe of 
Maine DMR. These comments requested that NMFS delay implementation of 
the Final Rule as it affects Maine lobstermen until at least June 2010. 
However, NMFS has not adequately responded to these comments on the 
FEIS.\5\ Furthermore, NMFS did not respond substantively to the June 
2007 report prepared by the Government Accountability Office (GAO) at 
Senator Snowe's request,\6\ which identified deficiencies in the 
scientific and economic analyses in the Draft Environmental Impact 
Statement (DEIS) and recommended further study.\7\
---------------------------------------------------------------------------
    \5\ NMFS' responses to these comments were contained in the Record 
of Decision (ROD), which was issued on September 21, 2007--four days 
after MLA and others submitted their comments on the FEIS.
    \6\ Government Accountability Office, Improved Economic Analysis 
and Evaluation Strategies Needed for Proposed Changes to Atlantic Large 
Whale Reduction Plan (June 2007) (GAO Report).
    \7\ NMFS merely added a ``sensitivity analysis'' to the FEIS to 
reflect ranges of possible costs associated with compliance with the 
sinking groundline requirement.
---------------------------------------------------------------------------
    MLA is interested in any efforts to identify known areas of 
Northern right whale aggregations, and fully supports affirmative steps 
to protect them. MLA believes that data are being developed that will 
provide a better understanding of the interaction between Northern 
right whales and lobster fishing activities, and these data will 
provide a better scientific basis for drawing the exemption line. We 
are not asking that the exemption line be redrawn in its entirety, but 
do believe that there is a need to refine the line based on a more 
thorough analysis of the data. MLA is aware that there are ongoing 
whale surveillance efforts, new research on oceanography and whale 
foraging, and planned scientific studies to better understand lobster 
fishing efforts, and we look forward to seeing the results that are 
being prepared for the Spring 2008 ALTWRT meeting. We wish to point out 
that MLA was responsible for working with the State of Maine to raise 
new revenue directly from lobstermen to continue this type of research 
via an increase in trap tag fees. In addition, MLA is aware that recent 
collaboration among a number of groups in the United States and Canada 
resulted in moving shipping lanes by four nautical miles to reduce 
encounters between Northern right whales and surface ships in routes 
into Canadian seaports, to avoid areas that were clearly known for 
aggregations of Northern right whales. This effort resulted from a 
probability analysis using Northern right whale sightings and mortality 
data, including evidence that five were killed by ship strike in 2006. 
We hope to see a similar tool developed to further reduce the rare 
encounters of large whales with Maine lobster gear and eliminate 
mortality from these encounters.
    Given the substantial interests that are at stake, MLA believes 
that it is critical that NMFS take four steps to ensure that Maine 
lobstermen are not subjected to the risk of arbitrary enforcement 
action during the upcoming lobster fishing season and that the 
exemption line is properly located. NMFS should:

        1. Exercise discretion to defer enforcement of the sinking 
        groundline requirement of the Final Rule with respect to Maine 
        lobstermen until after the upcoming lobster fishing season;

        2. Develop enforcement guidelines that provide certainty as to 
        the gear standards to be implemented to enable lobstermen to 
        comply in a manner consistent with the operational realities of 
        the fishing season;

        3. Refine and expand scientific analysis to determine the 
        optimal location for, and possible seasonal implementation of, 
        the exemption line; and

        4. Conduct a rigorous analysis of the operational, economic, 
        and safety consequences for Maine lobstermen if the sinking 
        groundline requirement is maintained.

    Discretionary deferral of enforcement of the sinking groundline 
requirement would give NMFS and interested parties time to conduct 
necessary further analyses to determine where the sinking groundline 
requirement is truly appropriate, and how to ensure that Maine 
lobstermen and those who depend upon them are not left to bear the 
lion's share of the burdens associated with protecting an endangered 
species.

II. NMFS Should Exercise Discretion to Defer Enforcement of the Final 
        Rule until after the Upcoming 2008 Lobster Fishing Season
    Under the Final Rule, the sinking groundline requirement is 
scheduled to be implemented on October 6, 2008. Unfortunately, this 
date falls during peak landings of the Maine lobster fishing season. It 
would be more realistic, less burdensome, and more economical for 
implementation of the sinking groundline requirement to coincide with 
the start of the lobster fishing season and the time when trap tags are 
renewed. If the sinking groundline requirement is to be enforced during 
any portion of the upcoming lobster fishing season, Maine lobstermen 
should be able to purchase and deploy the gear necessary to be 
compliant during the entire season, rather than being forced to incur 
the unnecessary burden of switching gear over during a key portion of 
the season. However, neither NMFS nor Maine DMR has provided adequate 
guidelines to enable lobstermen to purchase compliant gear at this 
time. For this reason, MLA intends in the near future to request that 
enforcement of the sinking groundline requirement for Maine lobstermen 
be deferred, as an exercise of agency discretion, until after the 
upcoming lobster fishing season.
    In Maine, many lobstermen set gear as early as April and fish 
through December.\8\ Within the next few weeks, lobstermen need to 
place orders for rope and other gear for the upcoming season. 
Lobstermen who want to receive economic assistance by exchanging rope 
under the Gulf of Maine Lobster Foundation's (GOMLF) federally funded 
Bottom Line Project must register now for one of the three rope 
exchanges scheduled over the next few months. MLA is confident that, 
given sufficient lead time, rope manufacturers can manufacture ample 
quantities of compliant sinking groundline to serve the needs of the 
Maine lobster industry, once orders are placed for line that can be 
certified to conform to compliance protocols. However, lobstermen 
cannot make the necessary business decisions and place orders until 
they know the specifications for compliant groundline, and these 
specifications have not been developed in sufficient detail and 
clarity, or agreed to by NMFS and Maine DMR. If lobstermen are to 
comply with the sinking groundline requirement, and to make the 
decision to take advantage of the rope exchange program, they need to 
be able to have assurance that the rope they purchase will be 
compliant, and to have that assurance soon.
---------------------------------------------------------------------------
    \8\ Exhibit 2 contains seasonal landing data demonstrating the 
duration of the lobster fishing season. These data are for the calendar 
year 2005, and reflect landings for each calendar quarter of that year. 
They were compiled for the Gulf of Maine Research Institute by the 
Market Research, LLC research firm.
---------------------------------------------------------------------------
    NMFS has defined ``sinking and/or neutrally buoyant groundline'' as 
having a specific gravity of 1.03 or greater, and has developed a 
complicated procedure for determining the specific gravity of a sample 
of line.\9\ The NMFS standard is based on density data taken from 384 
locations from the Gulf of Maine to Key West, Florida, and thus does 
not reflect local water conditions. It is possible that seawater 
density data compiled from waters in the Gulf of Maine would indicate 
that rope with a specific gravity of less than 1.03 would sink in Maine 
waters.
---------------------------------------------------------------------------
    \9\ The NMFS density standard and procedure for determining the 
specific gravity of line is included as Exhibit 3.
---------------------------------------------------------------------------
    The procedure for determining the specific gravity of a sample of 
line is of greater concern, however, since this is what enforcement 
agents \10\ will be using to determine whether lobstermen are fishing 
with non-compliant line. There is no accurate way for an enforcement 
agent or lobsterman to verify compliance in the field; the procedure 
would require that a sample of line be confiscated and sent to NMFS, 
which would test it. The NMFS test procedure requires the line sample 
to be submerged for 7 days and weighed each day. The weight from the 
seventh day would then be used for the final specific gravity 
calculation, which involves dividing the submerged weight of the sample 
by the difference between the sample's submerged weight and its dry 
weight.\11\ The NMFS test procedure is not the only (or best) means for 
determining the specific gravity of rope; MLA has been made aware of 
another procedure involving far less time, but which nevertheless is 
complex, would require a trained technician to perform, and is not 
suitable for testing in the field.\12\
---------------------------------------------------------------------------
    \10\ NMFS has its own Office of Law Enforcement, and also partners 
with the United States Coast Guard, other Federal agencies, and state 
agencies, including Maine DMR through a Joint Enforcement Agreement.
    \11\ The NMFS protocol does not provide a procedure for determining 
the submerged weight of a sample. Nor does it explain the purpose of 
weighing on a daily basis, if the final calculation depends only on the 
sample's weight on the seventh day. MLA has a number of technical 
questions concerning the test procedure, which are included in Exhibit 
4.
    \12\ A description of this procedure is included in Exhibit 5.
---------------------------------------------------------------------------
    Moreover, the NMFS procedure appears to be applicable to line that 
has been fished, and on its face does not appear to provide any means 
for lobstermen to determine in advance that line they have purchased 
will meet the NMFS specific gravity standard. NMFS has not specified a 
procedure to be used for fresh, dry line after it has been manufactured 
but before it has been fished. Nor is it clear whether the specific 
gravity of line is subject to change after a period of use, so that 
groundline that may be compliant initially could become non-compliant 
over time. Again, there is no evident way for a lobsterman to determine 
whether line that may have been compliant initially has become non-
compliant over a period of use.
    We do not believe that NMFS is trying to subject lobstermen to a 
``gotcha'' enforcement mechanism, but right now our members are at a 
complete loss as to how to be sure that they are complying with the 
requirements of the Final Rule. Clearly, if lobstermen are to be 
subject to sanctions for fishing with noncompliant groundline, it is 
imperative that there be a procedure to determine that their rope is 
compliant with the NMFS standard before they purchase and use it. To 
this end, MLA believes that NMFS should develop a test procedure to be 
used by rope manufacturers so that lobstermen could purchase groundline 
certified to meet the NMFS standards and that would be recognized by 
NMFS as meeting those standards. We also believe that NMFS should 
require rope manufacturers to mark the rope with a tracer to indicate 
that it meets the NMFS standard. This would enable Maine lobstermen to 
be confident that the groundline they are deploying is compliant with 
NMFS guidelines. At present, lobstermen must rely on the manufacturer's 
claim that rope is ``sinking groundline'' or ``neutrally buoyant 
groundline,'' claims which have been shown by experience to sometimes 
be inaccurate.
    MLA also supports development of a list of independent laboratories 
that would be able to certify the specific gravity of groundline prior 
to deployment, and to conduct tests if questions are raised regarding 
compliance after the groundline has been fished. NMFS should develop a 
process to certify the results of tests conducted by manufacturers or 
independent laboratories, to ensure that those entities are not subject 
to liability because their test results may vary from results produced 
by tests conducted by NMFS. Because of our questions regarding the 
testing procedures specified by NMFS, we also would support and 
participate in a study using the NMFS procedures to test groundline 
that has been fished, to analyze how line is performing in relation to 
the NMFS sinking groundline standard.
    Given the concerns that I have discussed, MLA believes that NMFS 
should exercise its discretion to defer enforcement of the sinking 
groundline requirement with respect to Maine lobstermen until after the 
2008 lobster fishing season. This would provide time for NMFS and Maine 
DMR to address enforcement issues, and to provide clear specifications 
that will enable Maine lobstermen to order compliant gear for the 2009 
lobster fishing season. The alternative is to subject lobstermen to a 
set of unacceptable options: (1) Tie up and forego their livelihoods 
until they can be assured of purchasing compliant groundline; (2) limit 
their fishing activities to areas within the exemption zone; (3) break 
gear down into singles, with increased use of vertical line resulting 
in increased risk to whales; or (4) fish with rope that may or may not 
be compliant, and thereby subject themselves to possible penalties and 
license sanctions for non-compliance under enforcement rules that have 
not yet been determined.
    Finally, we would suggest that if enforcement is to be undertaken 
at all beginning in October 2008, as contemplated by the Final Rule, it 
should be done without penalty to lobstermen. Under this approach, 
enforcement agents would conduct tests, identify non-compliant 
groundline, and notify lobstermen of any deficiencies, but no sanctions 
would be imposed against those found non-compliant during a transition 
period long enough to ensure that the scope of the Final Rule, and 
procedures for its implementation, have been resolved. Given the 
current dilemma confronting lobstermen due to the need to purchase gear 
in the absence of clear enforcement guidelines, lobstermen should not 
be subject to sanctions for failure to comply with the current vague 
and unspecific guidelines.

III. NMFS Should Refine the Exemption Line Based on a Thorough 
        Analysis of Large Whale Interactions with Lobster Fishing 
        Activities
    Discretionary deferral of enforcement of the sinking groundline 
requirement would also provide a window of opportunity to refine the 
exemption line for Maine based on a thorough scientific analysis of 
large whale interactions with lobstermen. NMFS has stated that the 
information it used to develop the state exemption areas ``was the best 
scientific information available.'' \13\ NMFS relied upon a number of 
sources, including large whale sightings data compiled over several 
decades and satellite tracking information reported in published 
papers. MLA has reviewed the data relied upon by NMFS, as well as the 
analysis presented in the FEIS and the Final Rule, and one thing is 
clear: The exemption line drawn by NMFS was not based on a thorough 
analysis of large whale interactions with lobstermen, and thus has not 
been drawn--as it should be--to minimize compliance costs that will be 
incurred by lobstermen by imposing gear restrictions in areas where 
their fishing effort is known to coincide with the presence of large 
whales.
---------------------------------------------------------------------------
    \13\ Final Rule, 72 Fed. Reg. at 57,126.
---------------------------------------------------------------------------
    The exemption line drawn by NMFS is based on an analysis of large 
whale sightings and tracking data compiled over a number of decades. 
The NMFS analysis does not take into consideration when the sightings 
took place--what year, what month, what season--or their interaction 
with lobster fishing activity. MLA engaged a team of researchers at the 
University of Buffalo to analyze the large whale sightings database, 
which is maintained by Maine DMR and other institutions and which 
compiles sightings data for Northern right, humpback, and finback 
whales. The researchers prepared a series of maps for each large whale 
species that breaks down the number of large whales sighted by decade 
of sighting, number of whales per sighting, and season of sighting.\14\ 
They also prepared a series of maps showing whale sightings over the 
period 1990-2005, focusing on the number of large whales sighted within 
the three-mile line and the 50-fathom curve along the Maine coast.\15\ 
The data show that protected large whales very rarely appear inside the 
50-fathom curve: There were only seven sightings of Northern right 
whales, seven sightings of humpback whales, and 33 sightings of finback 
whales--with 27 of the finback sightings occurring in a concentrated 
area known as The Kettles. This strongly suggests that depth should be 
a factor in drawing the exemption line, whether at the 50-fathom curve 
or elsewhere.
---------------------------------------------------------------------------
    \14\ These maps are included as Exhibit 6.
    \15\ These maps are included as Exhibit 7.
---------------------------------------------------------------------------
    The researchers also analyzed the data to identify areas where 
Northern right whales have been known to aggregate for feeding, with a 
cluster of three or more whales considered an ``aggregation.'' Using 
the methodology developed by NMFS,\16\ they prepared a map that shows 
that almost all aggregations of Northern right whales during the period 
1972-2000 occurred beyond the 50-fathom curve, and were concentrated in 
certain areas.\17\ Finally, the researchers analyzed the relationship 
between whale sightings data and lobster fishing activities. For the 
period 2000-2005, they estimated trap density by month for the period 
April-November, the months in which the majority of lobster fishing in 
Maine takes place. They developed maps that show no Northern right 
whales were sighted in state waters during any of Maine's prime lobster 
fishing months, and only three were sighted in Federal waters inside 
the 50-fathom curve--two in April, when fishing activity is still 
comparatively light, and one in September, when activity is more 
intense.\18\ This suggests that there is virtually no interaction 
between Northern right whales and Maine lobstermen within the 50-fathom 
curve, and thus there is a negligible risk of entanglement.
---------------------------------------------------------------------------
    \16\ This methodology is described in Phillip J. Clapham and 
Richard M. Pace III, ``Defining Triggers for Temporary Area Closures to 
Protect Right Whales from Entanglements: Issues and Options'' (April 
2001), available at http://www.nefsc.noaa.gov/nefsc/publications/crd/
crd0106/crd0106.htm (last accessed Feb. 13, 2008).
    \17\ This map is included as Exhibit 8.
    \18\ These maps are included in Exhibit 9.
---------------------------------------------------------------------------
    MLA recognizes that the results of this research are not 
definitive, but does believe that it represents an approach that is 
superior to the analysis presented by NMFS. At various points in the 
Final Rule, NMFS acknowledges that it may be appropriate to revisit the 
exemption line in the future, based on information that becomes 
available. Our concern is that the Final Rule exemption line does not 
accurately reflect the potential for interaction between large whales 
and lobster fishing activities, and is not based on the same level of 
analysis that NMFS has employed in identifying critical habits and 
determining appropriate changes to key shipping lanes for the 
protection of large whales. Maine lobstermen will bear significant 
costs and be subjected to increased safety risks in complying with the 
sinking groundline requirement, and it is important that the line be 
drawn in such a way as to impose the fewest costs while still 
protecting large whales from potential harm.
    We agree that in areas where whales have been known to aggregate, 
such as Jeffreys Ledge and Mount Desert Rock, it is appropriate to set 
sinking groundline requirements. In addition, where there is evidence 
indicating that whales may be present in particular areas where lobster 
fishing takes place, and at particular times during the lobster fishing 
season, MLA would support imposition of sinking groundline requirements 
in those places at those times. MLA supports a risk analysis approach, 
but does not support the methodology that has been employed in the past 
to determine Dynamic Area Management (DAM) zones, which has resulted in 
gear modifications being required in vast areas where whales are not 
present. We are aware that the methodology for identifying DAM zones 
has also been questioned by other bodies.
    MLA fully supports further scientific analysis to determine other 
ways to protect large whales without imposing undue burdens on 
lobstermen and the economy of Maine. In the meantime, however, NMFS 
should immediately begin analyzing the interaction between large whales 
and lobster fishing, both geographically and temporally, to determine 
where new gear requirements are warranted for the protection of large 
whales off the coast of Maine, and during what portions of the lobster 
fishing season. NMFS should work in collaboration with Maine DMR, and 
with the benefit of the funds supplied by the industry through 
increased trap tag fees, to conduct this analysis. This will enable the 
agency to refine the exemption line, to ensure that it permits 
lobstermen to fish with floating groundline in those areas where there 
is no reasonable risk of large whale entanglement.

IV. NMFS Should Conduct a Full Analysis of the Operational, Economic 
        and Safety Impacts of the Final Rule on Maine Lobstermen
    MLA believes that, as it currently stands, the Final Rule will have 
significant, and potentially catastrophic, effects on the livelihoods 
of Maine lobstermen, with cascading effects on their families and the 
communities that support their work. NMFS attempted to analyze the 
economic and social impacts of the ALWTRP amendments on those affected 
by it, but its analysis was far from rigorous, and although the 
deficiencies in the analysis were identified, both in the GAO Report 
and comments on the FEIS, the agency failed to provide a substantive 
response to these concerns in the Final Rule or in the ROD. NMFS 
largely brushed aside evidence concerning operational and safety 
impacts of the sinking groundline requirement. The unacknowledged 
impacts of the Final Rule on Maine lobstermen highlight the need to 
draw the exemption line scientifically, based on the latest data and 
most sophisticated analysis.
    The sinking groundline requirement imposed by the Final Rule 
represents a ``one-size-fits-all'' approach to large whale protection 
that is ill-suited to the operational realities faced by Maine 
lobstermen. The bottom areas along Maine's coast are very rocky, and 
are subject to extreme tidal currents.\19\ These conditions are 
different from those faced by fishermen operating in other lobster 
fishing states. The use of sinking groundline in these areas is highly 
impractical, as gear will chafe along the rocks and barnacles and break 
off, causing loss of ropes and traps. Where sinking groundline is 
required, Maine lobstermen will incur significantly higher costs 
associated with the increased cost of rope and with gear loss, and also 
will incur additional expenditures of time in attempting to fish so as 
to avoid gear loss.
---------------------------------------------------------------------------
    \19\ Included as Exhibit 10 are maps prepared by Maine DMR, showing 
the prevalence of rocky bottom terrain off the coast of Maine. GOMLF is 
currently conducting research to document the severity of tidal 
currents Down East.
---------------------------------------------------------------------------
    More troubling is the very real danger associated with gear 
becoming hung down beneath rocks. When this happens, and the gear is 
hauled, the rope may snap, or it may cause serious damage to the boat. 
Either way, there is a serious threat to the safety of the persons 
aboard. An incident of this type occurred in 2007, in an area off the 
coast of Massachusetts where the conditions are far less rocky than 
those found off the Maine coast.\20\ NMFS has indicated that it will 
continue to monitor safety concerns related to sinking groundline, but 
its generic response to operational and safety issues related to the 
use of sinking groundline off the Maine coast is to simply state that 
sinking groundline is currently being used by some fishermen in Maine, 
even in rocky bottom areas.
---------------------------------------------------------------------------
    \20\ A published report concerning this incident is included as 
Exhibit 11.
---------------------------------------------------------------------------
    As I will explain later in my testimony, Maine DMR has tested a 
low-profile groundline that it believes will protect whales while 
permitting lobster fishing in rocky bottom areas. However, time will be 
needed to assess whether this will work. Maine DMR has proposed an 
amendment to the ALWTRP based on its proposal, and this will need to be 
evaluated through the ALWTRT process. MLA hopes that this will help 
alleviate some of the operational and safety concerns presented by the 
Final Rule, but if that does occur, it will be at some point in the 
future. That process will not assist Maine lobstermen in dealing with 
the immediate operational impacts and safety hazards occasioned by the 
Final Rule.
    In addition, the Final Rule imposes a significant level of 
additional costs on the Maine lobster fishing industry. The Final Rule 
estimates that the additional costs associated with compliance with the 
sinking groundline requirement will be approximately $13.4 million per 
year. The Final Rule attributes 91 percent of these costs to the United 
States lobster industry, the majority of which is located in Maine. 
However, the cost estimate is based on an incorrect understanding of 
the seasonal inshore/offshore nature of the lobster fishery, and of the 
number of individual lobstermen who fish outside the exemption line.
    The GAO report highlighted the numerous uncertainties and defects 
in the NMFS cost estimate as reflected in the DEIS. Among other 
matters, GAO determined that NMFS lacked documentation for its estimate 
of the lifespan of sinking groundline, and did not make the estimate 
based on field tests.\21\ Thus, NMFS could not adequately estimate 
added costs associated with the need to replace groundline more 
frequently. NMFS did not use a range of prices for its estimate of the 
costs of purchasing sinking groundline; GAO noted that it contacted 
suppliers and dealers and found that costs could be as much as 34 
percent higher than the price relied upon by NMFS in its analysis.\22\ 
The federally funded rope exchange program, which I noted earlier in my 
testimony, will assist in ameliorating these costs to a degree, but the 
initial funding level of approximately $2 million remains relatively 
small compared to the overall purchase costs that we anticipate. 
Furthermore, those funds currently are available only through 2009, so 
that unless guidelines for compliant rope are specified prior to the 
2009 fishing season, even that amelioration of the costs of compliance 
may disappear.
---------------------------------------------------------------------------
    \21\ GAO Report at 26.
    \22\ Id. at 26-27.
---------------------------------------------------------------------------
    GAO also noted that NMFS essentially guessed at the cost of gear 
loss by Maine lobstermen,\23\ and that the NMFS estimates of affected 
Maine lobstermen were based on unsupported assumptions regarding the 
nature of lobster fishing in Maine, and particularly the assumption 
that lobstermen operate in only one area throughout the year.\24\ 
Although NMFS added a ``sensitivity analysis'' to the FEIS in response 
to the GAO critique, this analysis is extremely superficial, consisting 
of a series of calculations for moderate increases (or decreases) 
associated with each variable in isolation. It does not consider a wide 
range of scenarios involving substantial increases over the NMFS cost 
estimates and the NMFS estimates of the number of lobstermen affected 
by the Final Rule.
---------------------------------------------------------------------------
    \23\ Id. at 27.
    \24\ Id. at 28.
---------------------------------------------------------------------------
    In addition, GAO noted that NMFS lacked data to support an analysis 
of the ability of Maine lobstermen to absorb additional costs imposed 
by the Final Rule and remain in business, and thus could not adequately 
gauge the impact of the Final Rule on lobstermen and lobster fishing 
communities.\25\ NMFS estimated lobstermen's annual revenues based on a 
limited sample of lobstermen, because comprehensive revenue data do not 
exist. NMFS then arbitrarily assumed that if gear modification costs 
were greater than 15 percent of a lobsterman's estimated annual 
revenue, the lobsterman would go out of business. NMFS could not 
provide a basis for this assumption, and so its estimate is without 
foundation.
---------------------------------------------------------------------------
    \25\ Id. at 29-31.
---------------------------------------------------------------------------
    MLA conducted its own analysis of the effect of compliance with the 
sinking groundline requirement, including cost and lifespan of sinking 
groundline, trap costs, gear loss costs, and the overall number of 
Maine lobstermen affected, which our evidence shows to be a 
substantially larger segment of the Maine lobster fishing community 
than assumed by NMFS. Our analysis, which was included in our comments 
on the FEIS, indicates that the cost of compliance with the sinking 
groundline requirement could amount to approximately $134 million 
annually, or approximately ten times the NMFS estimate.\26\ By 
comparison, the value of the Maine lobster industry in 2006 was 
approximately $300 million. We have also estimated that, contrary to 
NMFS estimates that there will be a total of 173 vessels for which 
compliance costs amount to 15 percent or more of mean annual revenues, 
there will be more than 4,400 vessels that will be ``heavily affected'' 
in this manner. Given the importance of the lobster fishing industry to 
Maine's coastal communities, this impact could be catastrophic to 
employment, associated businesses, and the regional economy.
---------------------------------------------------------------------------
    \26\ A summary of the MLA analysis is included as Exhibit 12.
---------------------------------------------------------------------------
    In the ROD, NMFS brushed aside the MLA analysis in the same manner 
that it responded to other criticisms of its compliance cost estimates, 
by claiming that its own assumptions were reasonable and referring to 
its cursory sensitivity analysis. Whether or not our analysis is 
correct, there is no basis for placing confidence in the NMFS analysis, 
in light of the methodological flaws identified by GAO. There is no 
reason why NMFS cannot conduct a more rigorous analysis, given the 
importance of these issues to the Maine lobster industry, and NMFS 
should take the time to determine a better estimate of the operational, 
safety, and economic impacts upon Maine lobstermen of imposing the 
sinking groundline requirement.

V. Maine DMR'S Low-profile Groundline Proposal, While an Improvement, 
        Fails to Address Important Concerns
    On January 28, 2008, Maine DMR submitted to ALWTRT a proposal for 
use of low-profile groundline in certain areas in the Northern Gulf of 
Maine.\27\ Maine DMR recognizes that the rocky coastal terrain and the 
strong currents present in the Northern Gulf of Maine require that 
there be some degree of groundline flotation, to permit Maine 
lobstermen to fish safely and efficiently. In addition, Maine DMR is 
concerned that lobstermen seeking to comply with the sinking groundline 
requirement will break down their gear and use more vertical line, 
which may cause additional danger to whales. Maine DMR believes that 
rope manufacturers can now produce groundline that will float near the 
bottom, but that is also resistant to abrasion resulting from scraping 
along the rocky bottoms of Maine coastal waters.
---------------------------------------------------------------------------
    \27\ A copy of this proposal is included as Exhibit 13.
---------------------------------------------------------------------------
    MLA has reviewed the Maine DMR low-profile groundline proposal, and 
appreciates the work that Maine DMR has done in developing this 
alternative to the Final Rule. While MLA has not yet taken a final 
position regarding the proposal, we have some initial observations to 
present at this time. First, the Maine DMR proposal represents an 
improvement for lobstermen by allowing a more operationally feasible 
rope to be fished outside the exemption line contained in the Final 
Rule, in the so-called ``sliver waters'' that are within the three-mile 
limit, and in some portions of Federal waters. This should reduce the 
amount of vertical line used in lobster fishing off of the Maine coast. 
The proposal includes Geographical Information System plots showing the 
distribution of substrate type along the Maine coast, clearly 
demonstrating the high percentage of rock and hard bottom substrates. 
However, the proposal does not suggest consideration of establishing 
seasonally-based exemption lines based on the data MLA has presented 
concerning large whale interactions with lobster fishing activities. 
Moreover, the large whale sightings data presented in the proposal do 
not show seasonal patterns and are not corrected for level of effort 
required to obtain sighting.
    The low-profile groundline proposal provides for compliant rope to 
be uniquely marked for use in Maine and Federal waters by Maine 
lobstermen. Assuming that manufacturers can produce rope to the 
proposed specifications, this should enable enforcement agents to 
distinguish between compliant and noncompliant groundline. This is a 
significant improvement on the approach NMFS has taken under the Final 
Rule, where line would have to be confiscated and subjected to a 
convoluted and questionable testing procedure before a determination 
could be made.
    Finally, the Maine DMR proposal calls for implementation in October 
2008. This date is unrealistic. Before the Maine DMR proposal could be 
implemented, NMFS would need to approve low-profile groundline for use 
in the proposed areas and establish physical standards for low-profile 
groundline. The state rulemaking process also will need to be 
completed. As I have already discussed, Maine lobstermen must know as 
soon as possible what line they can use and what rules they are to 
follow so they can order gear and be ready for the upcoming fishing 
season, which begins in April for many. The rope proposed by Maine DMR 
is not currently available commercially, and thus cannot be purchased 
in time for the upcoming season.
    Again, MLA appreciates the work Maine DMR has done in preparing the 
low-profile groundline proposal, and we look forward to continuing to 
work with Maine DMR and others in improving gear technology to further 
decrease the risk to large whales. This effort should go forward hand-
in-hand with the continued efforts MLA is supporting to refine the 
scientific analysis of large whale behavior and their interactions with 
lobster fishing in Maine.

VI. Conclusion
    To sum up, I want to again emphasize that MLA and its members fully 
support whale conservation efforts, and are anxious to work to achieve 
a plan to protect the Northern right whale that is scientifically sound 
and that will not impose disproportionate and unjustified costs and 
burdens on Maine lobstermen. We believe that the Final Rule does not 
meet these criteria. It is unsound in its scientific and economic 
analyses and imposes severe safety hazards, and NMFS has not shown that 
the heavy burdens the Final Rule will impose on Maine lobstermen are 
necessary to protect the whales it seeks to protect.
    Right now, MLA and its members are most concerned about purchasing 
gear for the upcoming lobster fishing season. Maine lobstermen are 
committed to complying with clear enforcement guidelines, when those 
guidelines are developed. As I have explained, however, the procedures 
that NMFS has outlined for determining compliance with the sinking 
groundline requirement are far from sufficient to enable lobstermen to 
fish with confidence that they are complying with the Final Rule. For 
that reason, we intend to request that NMFS exercise its discretion to 
defer enforcement of the sinking groundline requirement of the Final 
Rule with respect to Maine lobstermen until after the 2008 lobster 
fishing season. We hope that this will enable NMFS and Maine DMR to 
develop the necessary guidelines, and will also provide time for 
further analysis of the scientific and economic issues I have 
described, so that the exemption line can be refined and the sinking 
groundline requirement will be imposed in those areas where it is truly 
necessary to protect large whales.
    Thank you.

    Senator Snowe. Thank you. Ms. Cornish?

  STATEMENT OF VICKI CORNISH, VICE PRESIDENT, MARINE WILDLIFE 
              CONSERVATION, THE OCEAN CONSERVANCY

    Ms. Cornish. Thank you, Senator Snowe, for inviting me to 
speak today. My name is Vicky Cornish, and I'm the Vice 
President for Marine Wildlife Conservation for Ocean 
Conservancy.
    The Ocean Conservancy is a science-based advocacy research 
and public educational organization that informs, empowers 
people to speak on behalf of the world's oceans. I work in our 
Washington, D.C. office. We also have offices around the 
country.
    With me today are Susan Farady, the Director of our New 
England office in Portland, Maine; and John Williamson, the 
Manager of Fish Conservation for New England, also from our 
Portland office.
    Ocean Conservancy greatly appreciates the invitation to 
testify before the Subcommittee on an issue of great importance 
to the conservation of endangered large whales, as well as to 
the Maine lobster industry. We are here because we care about 
whales, healthy oceans, and sustainable fisheries; and we 
believe Maine fishermen share this strong conservation ethic.
    None of us wants to see whales entangled in lobster gear. 
We are actively engaged in working with the Federal Government, 
the State of Maine, and lobster fishermen from Maine to help 
solve the problem of whale entanglement for the long term.
    Those are collective responsibilities to find solutions 
that protect whales while maintaining a strong lobster fishery 
in Maine.
    Whales are a symbol of New England's unique natural and 
cultural heritage. Driven to near extinction by whalers, they 
have yet to recover after decades of protection. North Atlantic 
right whales, in particular, are extremely vulnerable to 
entanglements in fishing gear and ship strikes.
    I commend the Senator and several Maine lobstermen for 
their leadership in calling for the immediate implementation of 
measures to protect right whales from the threat of ship 
strikes, and thank you for the letters that have been written 
urging the government to move quickly on a comprehensive ship 
strike rule.
    Ship strike regulations have yet to be finalized, and it is 
now coming up on the 1-year anniversary that those regulations 
have been stalled at the Office of Management and Budget. But 
when they are issued, they will help to address this major 
source of mortality of right whales. Thank you, Senator Snowe, 
for your recognition of this delay.
    However, with only 350 North Atlantic right whales 
remaining, we must ensure that we reduce all known sources of 
mortality. Scientists at the New England Aquarium estimate that 
nearly 3 out of 4 right whales show signs of entanglement in 
fishing gear.
    The Marine Mammal Protection Act directs the National 
Marine Fisheries Service to reduce fishery-related mortalities 
and serious injuries of any of the large whales, including 
right whales, humpback whales, and fin whales, to levels that 
will allow them to recover to their optimal sustainable 
population size.
    The Act has established a process to bring together 
fishermen, scientists, fishery managers, and conservation 
groups to form Take Reduction teams to develop consensus-based 
Take Reduction plans to guide the government's rulemaking 
process.
    Ocean Conservancy has been a member of the Atlantic Large 
Whale Take Reduction Team since it was first convened in 1996. 
We believe that the collaborative problem-solving approach 
outlined in the Marine Mammal Protection Act represents the 
best opportunity for protecting large whales from entanglement 
in fishing gear, while minimizing economic impacts on affected 
fishermen.
    The Take Reduction Team is charged with finding solutions 
for whales throughout their range, from Maine to Florida. 
Lobstermen, gillnetters, crab fishermen have all been involved 
in developing these recommendations, and they affect all of 
these fisheries.
    Unfortunately, the regulations implemented to date have not 
reduced entanglements, and we have seen mortalities continue to 
rise.
    The National Marine Fisheries Service was mandated by law 
to amend the regulations when a right whale was first found 
dead in compliant gear in 2002, and that means gear that had 
the weak links that were required by the plan, and the weak 
links were intact, signifying that those weak links were not 
effective in reducing mortality levels.
    We believe the agency's recent rule represents a positive 
step forward in addressing one of the biggest threats to large 
whales: Entanglements from floating groundlines.
    Research shows that sinking lines greatly reduce the 
probability of whales becoming entangled in groundlines. 
Behavioral studies have shown that right whales routinely dive 
to the ocean bottom, and a high percentage of right whale 
mortalities are caused by fishing line that pulls through the 
mouth and wraps around the body.
    We recognize that transition to sinking line may be 
difficult for lobster fishermen and represents a significant 
financial investment; we also understand concerns over whether 
such investment is justified when Maine lobstermen rarely see 
right whales.
    Nonetheless, recognizing the probability of individual 
fishermen seeing a right whale in Maine may not be as high as 
for other areas of New England, encounters with fishing gear 
are a daily occurrence for whales in New England waters and in 
Maine.
    While additional survey effort and better data on fishing 
effort are critical to accurately characterizing risks to 
whales in fishing gear, even limited survey efforts in Maine 
has shown that the threat of fishing lines to whales that 
traverse these waters is real.
    Are there solutions we haven't explored that can reduce 
risks to whales while minimizing economic impacts on fishermen? 
Therein lies our greatest challenge and our greatest 
opportunity. We believe that Maine lobstermen are up to the 
challenge.
    Maine has a long history of adopting fishing practices that 
sustain a healthy lobster population. These measures were 
adopted by the lobstermen because the people of Maine realize 
that a healthy lobster fishery is vital to the cultural and 
economic well-being of all who live here.
    We are confident that Maine lobstermen can build on this 
reputation for innovation and conservation by applying the same 
mind-set to the challenge of protecting whales.
    We believe that lobstermen have not only the ability but 
the responsibility to find long-term solutions to the threat of 
whale entanglement. Such innovation and leadership can make 
this generation of lobstermen save the right whale from 
extinction.
    There is no time for further delay. We must work together 
proactively to find solutions. If there is a better way to save 
whales, let's put it out for consideration.
    As we consider alternatives, we must ensure that the 
process and statutory deadlines outlined in the Marine Mammal 
Protection Act are followed. We must also ensure that any 
solutions put forward are based on good science, are 
quantifiable and measurable, incorporate the best available 
information about whales and fishing practices and 
environmental conditions, and are implemented as soon as 
possible. We cannot waste another day or lose another whale 
because we dawdled.
    The Take Reduction Team process has not always been timely 
or effective in developing viable solutions for whales, but its 
future effectiveness depends on the active and consistent 
engagement of all interests, ourselves and you included, 
combined with a firm commitment by the National Marine 
Fisheries Service to improve the process.
    Our success will require adequate funding for gear 
research, whale surveys, and behavioral studies, plus 
additional funding for planned development, implementation, 
monitoring, and enforcement.
    We would appreciate the Senator's leadership in helping to 
identify adequate funding for this process. We challenge the 
National Marine Fisheries Service to work with the Take 
Reduction Team to streamline this process and find better ways 
to address regional differences in fishing practices and gear 
use.
    We are encouraged by what we have seen in the state's 
proposal as a first step, as it goes beyond identifying what 
can't be done, to focus instead on ways to turn this problem 
around.
    We encourage the further development of ideas to address 
the greater challenge of entanglements and lines. One example 
of a promising solution stems from experiments conducted by the 
state at Monhegan Island. These experiments have shown that 
reducing the number of lobster traps fished in an area has 
little or no impact on lobster catch rates. Fewer traps result 
in less gear in the water, which is definitely a step in the 
right direction for right whales.
    Lobsters and right whales are both an integral part of 
Maine's coastal heritage and a critical part of a balanced 
ecosystem in the Gulf of Maine. Ensuring adequate protections 
for all ocean species is vital to ensuring sustainable 
fisheries for future generations.
    We have heard Maine lobstermen call their fishery 
sustainable, but true sustainability is about more than just 
conserving lobsters. True sustainability cannot be achieved 
unless we figure out how to catch lobsters without harming 
whales. Ocean Conservancy is committed to working at all levels 
to make that happen.
    Thank you for the opportunity to provide our testimony.
    [The prepared statement of Ms. Cornish follows:]

         Prepared Statement of Vicki Cornish, Vice President, 
          Marine Wildlife Conservation, The Ocean Conservancy

    Thank you, Senator Snowe, for inviting me to speak today. My name 
is Vicki Cornish, and I am the Vice President for Marine Wildlife 
Conservation for Ocean Conservancy. Ocean Conservancy is a science-
based advocacy, research, and public education organization that 
informs and empowers people to conserve our oceans. I work in our 
Washington, D.C. office, and we also have offices in New England, 
Florida, Texas, the Pacific, and the Caribbean. With me today are Susan 
Farady, Director of our New England office in Portland, Maine, and John 
Williamson, Manager of Fish Conservation for New England, also from our 
Portland office.
    Ocean Conservancy greatly appreciates the invitation to testify 
before the Subcommittee on an issue of great importance to the 
conservation of endangered large whales, as well as to the Maine 
lobster industry. We are here because we care about whales, healthy 
oceans, and sustainable fisheries, and we believe Maine fishermen share 
this strong conservation ethic. None of us wants to see whales 
entangled in lobster gear. We are actively engaged in working with the 
Federal Government, the State of Maine, and Maine lobstermen to help 
solve the problem of whale entanglements for the long term. It is our 
collective responsibility to find solutions that protect whales while 
maintaining a strong lobster fishery in Maine.
    Whales are a symbol of New England's natural and cultural heritage. 
Hunted to near extinction by whalers, they have yet to recover after 
decades of protection. North Atlantic right whales, in particular, are 
extremely vulnerable to entanglements in fishing gear and ship strikes. 
I commend the Senator and several Maine lobstermen for their leadership 
in calling for the immediate implementation of measures to protect 
right whales from the threat of ship strikes, and thank you for the 
letters that have been written urging the government to move quickly on 
a comprehensive ship strike rule. Ship strike regulations have yet to 
be finalized, but when they are they will help address this major 
source of mortality of right whales.
    However, with only about 350 North Atlantic right whales remaining, 
we must ensure that we reduce all known sources of mortality. 
Scientists at the New England Aquarium estimate that nearly 3 out of 4 
right whales show signs of entanglement in fishing gear. The Marine 
Mammal Protection Act directs the National Marine Fisheries Service to 
reduce fishery-related mortalities and serious injuries of endangered 
large whales, including right whales, humpbacks, and fin whales, to 
levels that will allow them to recover to their optimum sustainable 
population size. The Act has established a process that brings together 
fishermen, scientists, fishery managers, and conservation groups to 
form Take Reduction Teams to develop consensus-based Take Reduction 
Plans to guide the government's rulemaking process.
    Ocean Conservancy has been a member of the Atlantic Large Whale 
Take Reduction Team since it was first convened in 1996. We believe 
that the collaborative, problem-solving approach outlined in the Marine 
Mammal Protection Act represents the best opportunity for protecting 
large whales from entanglement in fishing gear while minimizing 
economic impacts on affected fishermen. The Take Reduction Team is 
charged with finding solutions for whales throughout their range, from 
Maine to Florida. Lobstermen, gillnetters, and crab trap fishermen have 
all been involved in developing recommendations. Unfortunately, the 
regulations implemented to date have not reduced entanglements, and we 
have seen mortalities continue to rise.
    The National Marine Fisheries Service was mandated by law to amend 
the regulations when a right whale was first found dead in compliant 
gear in 2002. We believe the agency's recent rule represents a positive 
step forward in addressing one of the biggest threats to large whales--
entanglements in floating groundlines. Research shows that sinking 
lines greatly reduce the probability of whales becoming entangled in 
groundlines. Behavioral studies have shown that right whales routinely 
dive to the ocean bottom, and a high percentage of right whale 
mortalities are caused by fishing line that pulls through the mouth 
and/or wraps around the body.
    We recognize that transition to sinking line may be difficult for 
lobster fishermen and represents a significant financial investment. We 
also understand concerns over whether such investment is justified when 
Maine lobstermen rarely see right whales. Nonetheless, recognizing the 
probability of individual lobstermen seeing a right whale in Maine may 
not be as high as for other areas of New England, encounters with 
fishing gear are a daily occurrence for whales in Maine waters. While 
additional survey effort and better data on fishing effort are critical 
to accurately characterizing risks to whales from fishing gear, even 
limited survey effort in Maine has shown that the threat of fishing 
lines to whales that traverse these waters is real.
    Are there solutions we haven't explored that can reduce risks to 
whales while minimizing economic impacts on fishermen? Therein lies our 
greatest challenge and our greatest opportunity. We believe that Maine 
lobstermen are up to the challenge. Maine has a long history of 
adopting fishing practices that sustain a healthy lobster population. 
Maine has implemented minimum-maximum size requirements for harvested 
lobsters and banned the harvest of reproductive age female lobsters--
both are forward looking initiatives. Maine has put in place a region-
based lobster management zone system that gives individual lobstermen a 
voice in regulations that address local needs. Maine has even adopted 
statewide maximum trap limits. These measures were adopted by the state 
because the people of Maine realize that a healthy lobster fishery is 
vital to the cultural and economic well-being of all who live here.
    We are confident that Maine lobstermen can build on this reputation 
for innovation and conservation by applying the same mindset to the 
challenge of protecting whales. We believe that lobstermen have not 
only the ability, but the responsibility to find long-term solutions to 
the threat of whale entanglement. Such innovation and leadership can 
make this the generation of lobstermen who saved the right whale from 
extinction. There is no time for further delay, we must work together 
proactively to find solutions. If there is a better way to save whales, 
let's put it out there for consideration.
    As we consider alternatives, we must ensure that the process and 
statutory deadlines outlined in the Marine Mammal Protection Act are 
followed. We must also ensure that any solutions put forward are based 
on good science; are quantifiable and measurable; incorporate the best 
available information about whales and fishing practices; and are 
implemented as soon as possible. We cannot waste another day, or 
another whale, because we dawdled.
    The Take Reduction Team process has not always been timely or 
effective in developing viable solutions for whales. But its future 
effectiveness depends on the active and consistent engagement of all 
interests, ourselves and Maine lobstermen included, combined with a 
firm commitment by the National Marine Fisheries Service to improve the 
process. Our success will require adequate funding for gear research, 
whale surveys, and behavioral studies, plus additional funding for plan 
development, implementation, monitoring, and enforcement. We would 
appreciate the Senator's leadership in helping to identify adequate 
funding for this process. We challenge the National Marine Fisheries 
Service to work with the Take Reduction Team to streamline the process 
and find ways to better address regional differences in fishing 
practices and gear use.
    We are encouraged by what we have seen of the state's proposal as a 
first step, as it goes beyond identifying what can't be done to focus 
instead on ways to turn this problem around. We encourage the further 
development of ideas to address the greater challenge of entanglements 
in endlines. One example of a promising solution stems from experiments 
conducted by the state at Monhegan Island. These experiments have shown 
that reducing the number of lobster traps fished in an area has little 
or no impact on lobster catch rates. Fewer traps result in less gear in 
the water, which is definitely a step in the right direction for 
whales.
    Lobsters and right whales are both an integral part of Maine's 
coastal heritage and a critical part of a balanced ecosystem in the 
Gulf of Maine. Ensuring adequate protections for all ocean species is 
vital to ensuring sustainable fisheries for future generations. We have 
heard Maine lobstermen call their fishery sustainable, but true 
sustainability is about more than just conserving lobsters. True 
sustainability cannot be achieved unless we figure out how to catch 
lobster without harming whales. And Ocean Conservancy is committed to 
working at all levels to make that happen.
    Thank you for the opportunity to provide testimony today on this 
important issue.

    Senator Snowe. Thank you, Ms. Cornish. I just want to 
question the panelists, and you can all jump in on some of 
these questions.
    I think, Mr. Lecky, in analyzing this situation, obviously 
it does have a profound impact on the industry, certainly 
economically, and as I said in my testimony the Government 
Accountability Office underscored that. There were several 
issues that they raised that have a significant effect on the 
industry. One is that NMFS didn't adequately represent 
uncertainties, and I'll put it up here on the chart, associated 
with proposed gear modifications and could not fully asses 
impacts on fishing communities. NMFS could not estimate the 
extent to which risks to whales would be reduced by these 
regulations, and third, NMFS had not developed strategies for 
evaluating the effectiveness of this proposed gear 
modification.
    There are huge discrepancies in the estimates of what the 
impact will be on the industry, and I know that your agency has 
significantly underestimated the costs compared to what the 
Maine's Lobstermen Association has indicated.
    By all estimates, according to the Maine Lobstermen's 
Association, it would be $10,000 to $15,000 per lobsterman, and 
that does not include the annual replacement costs. Even in 
your own economic impact statement, I was reviewing it last 
night, Maine further underscored that fact, that there are 
going to be very high replacement costs on an annual basis, so 
that also represents a serious threat to those who are in the 
industry.
    So let's start with these questions because I think that 
they weave the picture here as to whether or not we can come up 
with a viable solution that works to protect the whales as is 
required by law and at the same time protects the industry.
    Given the fact that there are some serious issues with the 
economic impact, I don't think you can ignore it. That's the 
point here.
    What can we do to solve these issues to try to achieve the 
overall goal without decimating the industry? The GAO has 
underscored, I think some of those issues, and I don't know if 
you developed the economic analysis in terms of the impacts.
    I'd like to hear from you, what was the background, where 
was the information, what data did you use to determine the 
economic impact to Maine's lobster industry?
    Mr. Lecky. Well, we utilized all the information that we 
did gain access to. There are areas where information is 
lacking, we don't have good information on distribution and 
effort in state waters, for example, so we had to make some 
assumptions.
    We don't have information available on individual fishermen 
practices or successes, and so we had to develop some models 
and analytical frameworks that we formed by collecting 
information from the known sources, the fisheries statistics, 
through interviews with experienced fishermen, through our own 
expertise in gear development, modification, and research, our 
expert gear panel, for example, and we think we did a credible 
job of estimating what the economic impacts of this rule are 
going to be.
    The GAO did not criticize any of our methodologies or the 
models that we constructed or the way that we went about doing 
the analysis. They were mostly critical of the fact that given 
the uncertainty and the available data that we represented our 
findings as single-point estimates rather than ranges of 
estimates. We addressed that concern by doing a hind cast to 
look at where the variability and that uncertainly might 
actually influence the outcome of the analysis.
    Senator Snowe. So what's your estimate of the net impact on 
the industry here? Is it $13 million?
    Mr. Lecky. $13 million for the total impact, and I think as 
you mentioned in your statement, most of that does land in this 
area.
    Senator Snowe. And yet the estimate by the industry may be 
ten times that?
    Mr. Lecky. Right. I think the estimate in the industry in 
our view is at every point in their analysis they chose the 
worse-case example and multiply quite rapidly to produce a dire 
condition.
    Senator Snowe. Did you submit any information, Commissioner 
Lapointe, on this issue?
    Mr. Lapointe. We didn't submit any specific information, 
although we thought the NMFS number was low and actually just 
got the lobster landings from last year, and they were 55 
million pounds down considerably from the year before.
    If you look at an average cost of $4.50 a pound, that 
results in about $250 million in landings for the lobster 
industry.
    If you use the $10,000 estimate per fisherman, and we've 
got 6,800 lobstermen, and if you think only 4,000 of them have 
to convert, that results in $40 million cost, that is about 16 
percent of last year's growth.
    So just rather than arguing about the specific number, that 
is a huge impact on the net revenue from the industry.
    Senator Snowe. Again, it gets back to the issue of 
uncertainty, Mr. Lecky, and Ms. Cornish, I invite your comments 
on this as well, because the final analysis is going to try to 
bridge this divide with respect to these issues.
    The uncertainty in terms of the gear even working, as we 
all know and what the documentation provided by the industry; 
second, the tremendous impact, whether or not the gear will 
actually even work, whether or not it is even sustainable. The 
production of it through the manufacturers, the timing of all 
of this.
    And so in all combinations it seems to me extremely 
unrealistic to proceed within this year given that the season 
is upon us. They're going to begin their lobstering in May, 
getting ready for it now, and the rule takes effect in October.
    So just all of the realties of what they're grappling with 
and having to make an investment a $10,000 or $15,000 is very 
tough to make. To put that step forward, make an investment in 
something you don't even know has been determined to be 
certified by NMFS, is compliant by that standard, or would even 
work, let alone all of the other issues.
    So it gets to really, the fundamental issue here: is there 
ability to defer this implementation process in any way given 
so many outstanding questions?
    Mr. Lecky. Let me start off with an a little bit of 
background that goes back to 1994 when Congress passed the 
Marine Mammal Protection Act amendments to put in place this 
new provision to reduce mortality.
    We're over a decade late in achieving the goals laid out in 
the 1994 amendments to the Marine Mammal Protection Act. It 
required us within 10 years, or within 5 years of that plan, to 
reduce mortality, to raise approaching a zero serious injury 
mortality rate.
    The Atlantic Large Whale Take Reduction Team is one of the 
examples of a process put in place by that statute to engage 
the public in ways to find solutions to serious injury and 
mortality, and it relied on that team to come up with these 
procedures.
    We started in 1997 with the plan that under which we 
thought would work, but whales continued to be entangled in 
2001. We modified that with the Seasonal Area Management. We 
still are finding whales entangled in compliant gear, so we're 
onto the next step, this is the next step.
    We had hoped to have a longer lead-in time. We published 
our proposal in 2005. We had expected to have it finalized by 
2006, a longer lead-in time; but we had to wait on some initial 
analyses between the proposed and final rules that delayed that 
until October of 2007.
    The rule is published, it is final as of October 2007; and 
I heard Mr. Lapointe indicate concerns about dealers and 
distributors not buying gear for distribution because they need 
orders in order to help them maintain inventory.
    I think those are serious concerns that we need to take 
into account, and so I don't want to create any expectations 
that we will defer implementation or enforcement of this today. 
I think we are planning to proceed with implementation of this 
provision on schedule.
    Senator Snowe. Well, a couple of things on that point.
    First of all, getting back to the ship strikes, because 
that rule has been pending for a year now, as I mentioned, at 
the Office of Management and Budget, and we know the 
preponderance of the threat in killing right whales has been 
ship strikes, and that rule has been pending for more than a 
year, so we're dealing with one issue in the lobster industry 
now, and they're bearing and shouldering the disproportionate 
burden in addressing this question, when in fact the 
outstanding issue is the question of ship strikes.
    So I think that the totality of the problem should have 
been addressed with a complete solution by all of the 
stakeholders, not just this industry bearing the burden, and 
going forward with the less than viable proposal that obviously 
is, I think, everybody all acknowledges is going to have a 
tremendous impact and represent economic consequences for those 
who are in the industry.
    So I think the question is whether or not the Take 
Reduction Team will have the ability to address these issues 
and when. Is that next month? When is there a meeting?
    Mr. Lecky. I don't believe the date or the location of that 
meeting has been set. It's spring of this year, so probably 
April or May.
    Senator Snowe. So how would that process unfold? I guess 
the question is, we're facing these wide ranging problems with 
this particular set of rules with a great deal of uncertainty, 
unanswered questions, and the season begins in May. How is that 
process going to unfold with the Take Reduction Team? Do the 
lobstermen begin the season without being compliant?
    Mr. Lecky. Again, I would encourage the industry----
    Senator Snowe. Do they wait and hope that we resolve this 
question I would gather?
    Mr. Lecky.--the issue of low-profile gear has been 
discussed at the Atlantic Large Whale Take Reduction Team in 
the past.
    We have cooperated with the state to continue to 
investigate the development of that gear; but in the past the 
team has not been enthusiastic about it because, as Jay Oakes 
pointed out, it's very difficult to discern and quantify the 
biological benefit to the whales and its strategies.
    We do know that whales get tangled in floating groundline. 
We don't know where or how high or how low is enough to protect 
whales. We know the lowest you can get them is on the bottom, 
so that's the groundline proposal.
    We have research under way that the team will consider and 
look forward to additional results on foraging behavior of 
whales. Also, prey distribution of their primary resources and 
how that's distributed throughout the water column, form our 
understanding of the biology of that predator/prey 
relationship.
    All of that is information that will be discussed and 
considered as a team, and, again, I cannot project how they 
will come out on this proposal, but my guess is they will 
probably want more information.
    If they do find it favorable, then we would have to go 
through the same kind of rulemaking process we went through to 
put this rule into place, which is not quick, it requires 
compliance with NEPA and other statues, it requires public 
review and comment, and so it's not something to could be done 
by October of 2008.
    Senator Snowe. Why was October chosen given the fact that 
it is the peak of the season for the industry?
    Mr. Lecky. We provided a year for fishermen to come in 
compliance with the provisions of the statutes from final 
actual publication of the final rule and actual implementation 
of the measures.
    Senator Snowe. Let me just add to that. I understand that, 
but knowing the obvious concerns that there would be with this 
rule and the direct impact it would have on the industry, it 
certainly could have been planned so that it had gone beyond 
the season so we would have an opportunity to respond, to make 
their comments to the rulemaking process, and then of course 
have time for implementation, manufacturing of the gear, and 
all the problems that are associated with adjusting to this 
major modification that's going to be very costly to the 
individual lobstermen.
    I think it's all of those issues that raise the spectrum of 
serious issues here with being compliant during this season, 
this upcoming season, given the enormity of the challenge that 
is facing the industry. I don't think it can be ignored or 
overlooked.
    It is nice to put out a rule, but it is also very difficult 
to those who are on the ground having to comply, and I think we 
all want to achieve the same goal in protecting the whales.
    I think it can be a win/win situation in the final analysis 
if we are working together with a realistic timetable. Yes, it 
has been long overdue, but even the proposed strategy of the 
ship strikes was due back in 2004 and we are now in 2008 and 
nothing has happened with that rule as well. That is also 
languishing in the Office of Management and Budget.
    I think we have a number of issues here that need to be 
resolved, and hopefully that process can take place.
    Ms. Cornish, would your organization, I know you are a 
member of the Take Reduction Team, be open to being flexible on 
the question of implementation and deferring implementation if 
they have to work through some of these issues so they can be 
more adaptable and workable to the lobster industry?
    Ms. Cornish. Well, certainly we don't want to come out 
publicly and say that we would like to defer any rule from 
being enforced because we believe the intention of that rule, 
is to protect whales. It is a long overdue rule and, 
unfortunately, it took a long time to be put in place.
    But the effective date, a year from the issuance of the 
rule, hopefully was designed to give folks plenty of notice 
that they would need in order to convert their gear over.
    Now, recognizing that the state is the primary enforcement 
body behind any enforcement of National Marine Fisheries 
Service regulations, we would like to encourage the state to 
continue to work with lobstermen to ease the transition over to 
sinking line.
    The state has been very forthcoming in the information and 
very collaborative in its approach with lobstermen to try and 
identify ways to work within the sinking line requirement.
    We certainly recognize, also, the importance of the buy 
back and gear exchange programs for helping to ease some of the 
financial burden.
    We understand what this financial burden is doing to 
lobster fishermen, and we would like to find ways to help 
transition. Certainly the state's ability to enforce that rule 
is going to take into account where some of the difficulties 
are.
    Senator Snowe. Commissioner Lapointe, to your plan, as you 
mentioned, is it your goal would be to implement to state 
regulation? And how would that dovetail with the current 
implementation process?
    Mr. Lapointe. Our plan is for 1 October deadline. We put 
that in because that is what the NMFS deadline is. We tried to 
be flexible in those sorts of dates, but we don't have a stake 
to put in the ground, so that is why we picked 1 October.
    The reason we said we would, first of all, our plan moving 
forward does require approval by NMFS and the TRT, otherwise we 
are not going to do it on our own. And moving through the state 
regulatory process, I think shows the commitment on the part of 
Maine to do things quickly.
    One of the things that I think drives everybody crazy is 
the glacial speed with which the Take Reduction Team process 
works. If people have questions, they go back to more 
discussion.
    So we said, if this plan is approved, if it gives people a 
viable option, again, a less worse option than the current 
plan, that we would put a state regulatory process in place. 
That takes at best 60 days and maybe a little bit more as 
compared to a much longer date.
    So that is what our intention was.
    Senator Snowe. Ms. Cornish, have you had an opportunity to 
review this plan?
    Ms. Cornish. Yes, we have. We have read the state's 
proposal, and there are definitely some encouraging aspects of 
the proposal, for example, the prohibition against single 
traps.
    We are concerned that the sinking line requirement will 
cause some lobstermen to rig their gear such that they're 
single traps, and obviously that defeats the whole purpose of 
the rule.
    We need less gear in the water, not more, and so even 
independently going forward with the prohibition against single 
traps would help to alleviate any concerns about moving to 
single traps, stringing up.
    Another way the proposal, in terms of addressing gear 
concerns, is minimizing or shortening the length of the 
groundlines. That is certainly a step in the right direction. 
If we can get less gear in the water, shortened groundlines, 
less gear is good for whales.
    We have some concerns about the low-profile line being put 
on fast track without being vetted through the process. Our 
scientific experts have raised concerns about the use of low-
profile line.
    The behavior of whales in the water is such that they are 
divers. They come up with mud on their heads. We know that they 
dive down deep, and we do not have a lot of information about 
what they do in Maine, but we certainly see them very close to 
shore down in Florida when they are giving birth to their 
calves. We know that they are a very coastal species.
    It is not unlikely that they would be coming inshore, that 
they would be diving down into the water, and any line that is 
up above the water column in any kind of a floating way is 
likely to get entangled when whales are diving and using the 
waters in New England.
    So the low-profile line also constitutes a challenge just 
in terms of rope manufacturing. We have all seen that the rope 
manufacturers are having difficulty supplying lines or making 
the transition to providing enough lines for the sinking line 
requirement; and to provide a very fast track alternative line 
that now folks have to go out and get when it has not been 
fully vetted or tested is probably not the right approach.
    So that aspect of the proposal needs some more work. But 
there are certainly elements of the proposal that go a long way 
toward addressing the problem of entanglement, and I encourage 
the state to bring their proposal forward to the Take Reduction 
Team, allow them to vet it.
    If need be, have some regional meetings here in Maine that 
really focus on the problems so that we can understand how 
these impacts are affecting lobstermen but also how they are 
addressing what whales do here in Maine. We do not have a lot 
of information about that. We certainly would love to see some 
more surveys and more research that is specific to what whales 
are doing in Maine State waters.
    Senator Snowe. I appreciate that, and I think that speaks 
to the point, is the lack of scientific data to buttress this 
regulation.
    Ms. McCarron referred to it in her testimony, but the lack 
of information about whale behavior and interaction with the 
lobstermen. That is a huge issue, and that it is tailored to 
this industry, to this area, to our waters, which, of course, 
it is not.
    It is all of that and more that raises serious concerns, 
understandably, because of the impact it is going to have on 
the industry and communities involved in the lobster industry. 
That is the point. There is a lack of scientific data to 
buttress these issues.
    The thing you mentioned about low-profile lines, I have to 
think about the sink line issue. If you have sinking 
groundlines and we really do not have any certification for any 
specific line, then the question is whether or not it is going 
to be sustainable, the question is how do you enforce it.
    I do not know that there is even an ability of the part of 
NMFS to even force this. I do not think you have done it in any 
other areas, the Seasonal or Dynamic Area Management, so there 
has been no enforcement there.
    How are you going to enforce it in this instance, and it 
raises all of those issue again as to whether or not it is 
really practical, realistic, and reasonable to go forward with 
this regulation given all of that.
    So you raise the question about the low profile. The same 
is true with the sinking groundline. It is the same issue. We 
do not have any certification. Would NMFS certify a line at 
this point?
    Mr. Lecky. We do have a process that is available on our 
web page that describes what Ms. McCarron referred to in her 
statement. It describes how we test line for compliance.
    We do not have a mechanism to pre-certify line, but there 
have been regulations for several years to use sinking 
groundline, particularly off Massachusetts, and some folks, and 
I believe in southern Maine, as a result of the more frequent 
occurrence of Dynamic Management Areas, have also employed that 
gear.
    We have enforced the Seasonal Area Management requirements 
for sinking groundline. We have made several cases. We have 
investigated five cases: One was resolved with a warning, three 
were resolved with prosecution and fines, and one is still 
being processed.
    Senator Snowe. Commissioner Lapointe, how have you 
conducted your research on low-profile rope?
    Mr. Lapointe. There are other people who are better 
qualified, Senator, but through the course of the last number 
of years there has been a collaborative effort to try different 
rope configurations, different densities, and I am way out of 
my league here.
    Just different types of rope, and they have given it out to 
fisherman, and they have looked at durability and how it floats 
in the water column, and the like with a lot of processes 
trying to move forward, we found out a lot of stuff that does 
not work.
    And so this summer, and the reason it was not included in 
the discussions on the rule is, it was just finished up this 
summer and analyzed this fall. They ended up with what we call 
low-profile line, which has a density of 1.02. The idea is that 
the low-density line in conjunction with a maximum groundline 
link between traps would reduce the profile.
    Again, we do not have the exact numbers, but our staff 
estimates that it would reduce the profile in the water column 
by some 90 percent.
    If I may, when we talk about how people will react to the 
rules as they move forward and the potential for a lot of extra 
groundlines, I believe my staff has estimated that if at the 
worse-case scenario we would have some 24,000 miles, I see 
their heads shaking yes, which is good, in vertical lines. 
That's enough rope to circle the world.
    Again, if you are paying attention to doing the best things 
we can for getting rope out of the water.
    Senator Snowe. Ms. McCarron, I know you have mentioned the 
concerns about this plan and so on.
    How would the Lobstermen's Association view this going 
forward?
    Ms. McCarron. Well, we are fully intending to approach 
National Marine Fisheries Service and make a formal request 
that this rule be deferred.
    In preparing some educational seminars for the Maine 
Fishermen's Forum, we really started looking into the 
enforcement issues.
    We were not flying the white flag on this rule, but we were 
feeling that it looks like this thing is moving forward, it 
looks like we are out of options, how can we as an association 
help our lobstermen comply in the best way possible.
    Many, many lobstermen have said, we cannot fish it, and we 
are going to switch to singles. There are some folks in the 
audience who probably will be testifying they fish at some of 
the islands, they do not have either singles or sinking 
groundlines, they will go out of business, their 51 communities 
will go out of business.
    It was not until we really started looking into the 
enforcement of the rule and reading the standards that NMFS put 
out, which are based on specific gravity of 1.03, a very 
complicated laboratory procedure that involves coiling rope and 
getting it wet and drying it and weighing it that we really 
started to scratch our heads to say, does a lobsterman even 
know if he goes into a rope distributor that he is purchasing 
compliant rope?
    No, specific gravity is not really a term that we are 
familiar with. It is not something that lobstermen would know 
about. Because National Marine Fisheries Services has the 
ability to regulate lobstermen who are of course fishing for 
the public resource, the onus is on us; but truly the power 
lies with the rope manufacturers.
    We have had a few negative experiences along the way. The 
lobstermen have been heavily invested in a lot of testing of 
the experimental lines, and we had an experience with rope that 
we received through a project, actually federally funded, 
Consortium for Wildlife Fly Catch Reduction, in cooperation 
with the New England Aquarium where we tested sinking line that 
actually floated.
    So from where we sit we have got some serious concerns and 
issues about the manufacturer's ability to provide a consistent 
product, especially when we are the ones that are going to get 
fined or potentially have a license sanctioned, and they can go 
about their business.
    I know when DMR had some of the low-profile ropes filled 
for specified for this year, they had asked for specific 
gravity of X, and it was off not by a lot but with the standard 
of 1.03, if it is off by a little bit in the wrong direction, 
does our lobsterman lose his license? Does he lose his ability 
to earn a living?
    These are very serious concerns, and I called around, the 
state was not really sure how they were going to enforce it. I 
was only informed by both NMFS and Maine DMR enforcement 
officials that no one has been trained to do the specific 
gravities in the field, which made me laugh because we are a 
day-trip fishery and it is a 7-day test. So there is just 
really so much up in the air.
    The other concern is, what if we do get compliant 
groundline, is there any knowledge of how the rope changes over 
time once it has been saturated with water, once it has been 
fished? Is the specific gravity of the rope going to change?
    There is a lot on the line, and it was in lieu of these 
questions coming up that we felt that, OK, we really have to 
recircle and go back to NMFS and say we cannot reasonably be 
encouraging our guys to go out and purchase this good when they 
may do so in good faith and turn out to be in violation of the 
rule. It just does not make sense.
    I did want to address something that Ms. Cornish mentioned, 
which was that the right whale species is known to be, and I 
think she said, a very coastal species, and it just strikes me 
every time I hear that, we are a very coastal fishery. I am 
sure a show of hands in this room, every lobsterman would raise 
their hand and say, I've seen a minke whale, also a very 
coastal species, but nobody would raise their hand that they 
have seen a right whale because they transit offshore between 
critical habitats in Cape Cod Bay and in the Bay of Fundy, and 
I think everybody in their heart of hearts does not believe 
that this species is swimming inshore or interacting with our 
gear. That is what makes us all so incredibly frustrated.
    Senator Snowe. Mr. Lecky, so how do you respond to those 
issues regarding compliant gear? How does NMFS address those 
questions in examining those issues?
    How would somebody in the industry be certain that they 
were purchasing compliant gear? That is a significant 
investment on their part, obviously, but, second, the question 
is, enforcing. Enforcement and sanctions and penalties, if they 
fail to purchase gear that's not compliant with the law.
    Mr. Lecky. Well, I think manufacturers have experience in 
manufacturing groundline because it's been required off 
Massachusetts and it is being purchased by fishermen in other 
areas, so we are comfortable that there is a capability to 
manufacture that line and that fishermen can find sources of 
compliant lines and incorporate in their gear.
    I think that enforcement of this provision is it is not 
going to be can we go out and find groundline that is \1/10\ of 
a percent over the standard; it is going to be practical 
enforcement.
    Unfortunately, we are out there looking for folks who are 
not complying with the law in relatively substantial ways. So 
if someone has not put groundlines or not purchased groundline 
with their gear, then I am sure they would follow up with 
something like that.
    That is about all I can say at this point.
    Senator Snowe. Considering the Take Reduction Team process, 
you have to elaborate on that for the audience, as well, 
exactly how that will happen and the consideration of the 
state's plan with changes possibly, deferral, implementation, 
and so on.
    Will all of these issues come to the forefront with respect 
to the concerns of the industry, and obviously the inability of 
the industry to conform to this implementation process given 
the fact that it is going to be in the midst of the peak season 
and the final analysis by the time October 1st comes.
    Mr. Lecky. I would look to the industry to bring these 
issues to the Take Reduction Team. I think they participate on 
the team.
    The Take Reduction Team process was set up to be a public 
process. There is actually a formula in the statute for how you 
can convene a Take Reduction Team.
    It is designed to have strong science background, so we 
include scientists from not only within our agency but 
academics and state experts. Scientists that are familiar with 
the marine mammal species oftentimes, prey species that are 
involved in the target fishery, as well as fishermen.
    We include members of the state and include environmental 
organizations. So the Take Reduction Team is designed to be a 
very balanced team to present, consider all of the variable 
viewpoints on a particular issue.
    Ideally, they would come to consensus on a recommendation. 
Some of our teams across the country have been able to do that. 
This team has not been able to come to consensus on a 
recommendation, but it does thoroughly debate the issues so 
that we understand what the concerns and weaknesses are.
    Irrespective of whether the team comes to consensus on a 
recommendation, the Service has an obligation to proceed with 
the Take Reduction Program.
    Senator Snowe. So how long would that process take?
    Mr. Lecky. Well, it is an ongoing process, and we rely on 
the team to look at it. The next meeting, as we mentioned, is 
in April or May.
    They conceivably could look at this proposal and decide 
that it is great stuff and they want to proceed with it. My 
guess is that it will be more complicated than that and that 
they probably will identify additional concerns and issues that 
will need further analysis and research and follow up with 
subsequent meetings. So I cannot predict how long that process 
will take.
    Senator Snowe. Well, hopefully they will recognize the 
sense of urgency given the anxiety that everybody in the 
industry is feeling, and rightfully so and understandably so, 
and recognize that they are going to be in the middle of the 
season. It is going to be very difficult to shift gears, 
literally and figuratively with respect to modifications in the 
middle of the season and to prepare for October 1st.
    I hope they can reach some consensus on this very question 
as industry comes forward with more data and facts and also 
whether or not it really is realistic to address the central 
question, is it going to be effective in protecting the whales?
    I think that we have a responsibility obviously to come up 
with a solution to protect the whales, but we also have a 
responsibility to come up with a solution to protect the 
industry.
    I think that we can do that simultaneously. It does not 
have to be all or nothing. Frankly, they are not mutually 
exclusive. I think that in combination we can come up with a 
program that is not a one-size-fits-all, which some have 
suggested, and I think it is very difficult given the industry, 
given all of the issues and the fact of where these right 
whales are sighted, given the sea bed and how rocky it is, and 
suggest using the sinking groundlines is going to be very 
costly and whether or not it is really workable in the final 
analysis.
    There has to be some combination that we have to work 
through, and I think it is going to have to require a different 
timetable. I do not think there is anybody here that is 
suggesting we should not try to work this out. It is a question 
of how we work it out and when we work it out in the final 
analysis. That is why I appreciate you all being here today 
because I do think it is so critical for us to have this 
conversation to see if we can move it forward more than 
anything else.
    We are all bound by laws and understand that, but how can 
we do it in the confines of the law and recognize the 
livelihoods that are at stake and an industry that is so 
central to our state for centuries.
    Commissioner Lapointe?
    Mr. Lapointe. A couple of things, Senator, thank you, on 
the Take Reduction Team process. I think Vicki mentioned 
earlier, if I think about the timing and with our proposal, and 
Jim mentioned the difficulty in trying to reach consensus, if 
you do not reach consensus at that April/May meeting, it will 
not happen before the 1st of October, so people will have the 
dilemma of the October 1 rule.
    So it is kind of an on or an off switch in terms of that 
April/May meeting. We understood that when we came into the 
process of submitting this, but that is important for people to 
recognize.
    The other thing that I think has been discussed, and I 
think there is tension on the Take Reduction Team process with 
the idea of splitting up the team into dealing with more 
regional issues, because of my understanding from those 
fishermen and staff members who have gone to the Take Reduction 
Team process. The people in Florida say, how come you all are 
bringing this to us? You do what you need to do, and we will do 
what we need to do.
    So there is some merit. And I am completely ignoring Jim's 
staff time and his budget, but in breaking those meetings up 
into smaller components so that in fact we can do it in a Gulf 
of Maine or in a New England way as opposed to the entire 
coast.
    Senator Snowe. Excellent suggestion. I know there are a 
number of speakers, so I would like to open it up. We have at 
least 28 people, and I ask you to please keep it to 3 minutes 
apiece. Coming from a Senator I know that is hard.
    I would like to begin this process, and I would ask the 
panelists if they would comment or ask questions, answer. I 
think the more conversation we can have about all of this and 
hearing our respective thoughts, I think the more helpful it 
would be to moving the goal post here on the ultimate solution.
    So, I guess I am supposed to call people by numbers.
    We will start with 1 and 2.

 STATEMENT OF SHEILA H. DASSATT, EXECUTIVE DIRECTOR, DOWNEAST 
                    LOBSTERMEN'S ASSOCIATION

    Ms. Dassatt. Good morning, Senator Snowe. Thank you for the 
opportunity to allow us to speak this morning. I appreciate it.
    My name is Sheila Dassatt. I am the Executive Director for 
the Downeast Lobstermen's Association. I have a statement here. 
I tried to condense it as best that I could in one page.
    Senator Snowe. Your full statement will go into the record.
    Ms. Dassatt. OK, thank you.
    Thank you for the opportunity to express concerns to you 
about the future of the lobstering industry with the present 
situation of preserving whales and the banning of float rope 
outside the exemption line that has been established by the 
National Marine Fisheries Service.
    At this point I am sure that you have heard all of the 
arguments and statistics. A few weeks ago we were pleased to 
share our concerns with your assistant, Mike Conathan. One of 
the first things that we told him is that the fisherman is one 
of the whale's best friends. When a whale is discovered 
entangled in line or in any form of danger, it is quickly 
reported. This is the first and most important step to helping 
save the endangered whales.
    The lobstermen have been experimenting with low-profile 
rope as replacement for float rope for several years. Each type 
of experimental rope that has been tried has failed to the 
standards that are required for fishing along Maine's rocky 
coast.
    These failures have raised many concerns about the safety 
for the fishermen and the amount of catastrophic gear lost that 
would result in ghost gear on the bottom. The fishermen have a 
rope that does not endanger themselves, they must have a rope 
that does not endanger themselves and the environment in which 
they fish. They must have a rope that is capable of lasting at 
least 8 years, which is approximately the amount of time that 
they get now out of their rope.
    At this point in time we cannot seem to get one season out 
of the rope. Some of the rope failures include excessive wear, 
chafing at many deep places in the line.
    The biggest concern that many fishermen have is feeding 
habits of the whales. There is very little scientific proof 
that shows copepods on rocky or hard bottom, which is primarily 
the food for the right whales.
    We would like to have research done to see if copepods are 
on hard bottom areas inside the 50-fathom curve. We would also 
like to see more physical proof, such as pictures with latitude 
and longitude, date and time of the whale sightings.
    With the logistics involved with manufacturing this new 
rope, the rope manufacturers do not have the physical or 
capital resources to make enough rope before October 2008 to 
fulfill the demand.
    With the situation and the law as it stands, the lobster 
fishery will be devastated. Who is going to be responsible for 
a lost life and the legal ramifications involving it? Please 
help us save our fishery, lobstermen, and their families, which 
are also considered the endangered species. Thank you very 
much.
    Senator Snowe. Thank you. Would anyone like to comment on 
the safety of the gear? That's an important issue as well 
that's been raised by a number of those in the industry about 
the safety of the gear.
    Mr. Lecky. I understand the issue is with gear hanging up. 
On the West Coast we call them hang-ups, not hang-downs, sorry.
    We are aware that that happens. We are aware that, again, 
there is experience with this gear in other areas, not as rocky 
as Down East, but nevertheless there are fishermen that have 
fished this gear in rocky areas, and we think that fisherman 
can figure out how to fish this gear.
    But we are sensitive to this issue.
    Senator Snowe. On the economic impact statement it raised a 
number of issues about--you mentioned 8 years, you expect it to 
last 8 years, correct? And may I ask, in talking about these 
gear modifications, it talks about the fact that a shorter 
useful life will result in fishermen having to replace more 
fishing line each year can be expected with the sinking 
groundline that there would be an expected useful life of 6 
years and the replacement rate would be accelerated to 17 
percent a year, which is substantial.
    That is in the economic impact statement.
    Mr. Lecky. Yes, ma'am.
    Senator Snowe. So, it obviously would have a serious 
economic effect with the type of line that they would be 
required to use.
    Commissioner Lapointe?
    Mr. Lapointe. I think it is important to give some 
perspective on this.
    When we were testing some groundline, it was early in my 
tenure as Commissioner, there was a Stonington fisherman who 
put some of the line up, I don't remember which version it was, 
it did not last 6 years, it did not last 8 years, it lasted 4 
weeks I think.
    So I mention that, and we have moved beyond that rope, but 
it shows people's concerns about how this is going to fish.
    When we put new rope together, we hope we know how long it 
is going to last, and people are working on it for durability; 
but I think certainly my operating assumption has been that the 
useful life of whatever rope we come up with will be much less 
than currently with floating groundline.
    Senator Snowe. Thank you. Speaker No. 2?

   STATEMENT OF MIKE DASSATT, SECRETARY/TREASURER AND BOARD 
           MEMBER, DOWNEAST LOBSTERMEN'S ASSOCIATION

    Mr. Dassatt. Thank you, Olympia Snowe, for allowing us to 
speak.
    Senator Snowe. Thank you.
    Mr. Dassatt. My name is Mike Dassatt. I am on the Board of 
Directors for the Downeast Lobstermen's Association. I am also 
the Secretary/Treasurer for that association.
    Some of the information I'm going to give basically comes 
from my point of view as a fisherman. Some of the concerns that 
my wife just brought up are the scientific proof of where the 
whales are feeding.
    There have been some reports already brought out that 
coastal Maine is not in a direct route of where they feed as 
reported out by Patrice McCarron.
    Another issue with the low-profile ropes, I, myself, have 
participated in the experiments. The first year that I used 
this rope, within 3 weeks I had lost 70 traps. I only fish 400 
total. Now, the fellows that are fishing 800, I would say you 
can double that immediately.
    I spend between $3,000 to $5,000 a year now replacing traps 
and ropes as an every-year maintenance. If I have to switch 
over, I am done. That is the bought line there.
    The other thing, too, with this rope one of the biggest 
safety factors is not the hang-downs. It's the rope itself on 
the vessels.
    I fish three-trap trawls, which is all I am allowed to fish 
in my area. What I do if my rope goes into a box and I separate 
when the traps go out on the rail, but all my rope stay coiled 
in the box, the low-profile rope that I was using, I would get 
10 to 15 parts of increment of rope coming out in one big heap.
    I have heard other reports of fishermen who have had to 
throw their rope overboard because of this issue. It is not a 
very easy handling rope.
    What I have had to do is actually lay the rope out on the 
platform, which now becomes a tangle issue if you step into the 
rope. So you take adverse conditions with sea, wind, rain, and 
all this. It is more than just a hang-down issue.
    We already know that sea currents, tide currents, full moon 
tides, and all of this already plays a fact with our float 
ropes, which can get hung up on the bottoms as it is. This 
particular rope will just compound those probably 10, 15 times 
over automatically.
    When the rope buyback issue was brought forth a couple of 
years ago, the Down East Lobstermen's Association did not 
support this issue. The number one reason why we did not 
support the issue was there was not a rope, and there still is 
not a rope, that will work to replace the float ropes.
    We felt that by supporting the rope exchange was saying 
that we would support giving up our float rope, which at this 
time we do not. It is kind of like say you are willing to do 
something whether there is no cure.
    My addressing with NMFS and The Ocean Conservancy, number 
one, sustainability was brought up from the lobster industry. 
Yes, we do believe in sustainability for our fishery. Using a 
rope that is going to put thousands upon thousands of traps on 
the bottom that we are trying to retrieve over here to clean up 
the ocean environment, now you are asking us to basically 
litter up our environment again.
    I do not see the reasoning there. When it comes down to 
picking on, I am going to say picking on the fisherman, which 
in this case is what it is, NMFS, Humane Society, Ocean 
Conservancy, the whale activists are all the bullies on the 
block here.
    The are not going after the tankers, because the tankers 
have revenue to fight them. The lobstermen here in this room do 
not have the revenue to fight these situations.
    So I am going call them the bullies on the block picking on 
the little guys. We are 1 percent of the problem for the right 
whales. 1 percent. The other 99 percent goes somewhere else.
    So do not come at us in this situation with an absurd 
proposal that puts everybody's lives on the boat in jeopardy 
along with the economy for the State of Maine.
    If the lobster industry goes out in the State of Maine, 
especially Down East Maine or a lot of the island areas like 
Vinalhaven, Matinicus, Monhegan, Jonesport-Beals, Cutler, that 
is their whole industry, the fishing community.
    The economy in Down East Maine is already so bad that many 
of the boat builders have gone out of business or are going out 
of business because the revenue is getting stressed out now as 
far as it can go.
    You add on of cost of living for the families, heating, the 
cost of fishing, the bait, the fuel, the boats, it is just 
adding another compounded fracture to the situation.
    The environmental impacts, like I just said, a lot of areas 
like Casco Bay, the bay that I fish in, we have been trying to 
retrieve the ghost gear to get it off the bottom to clean up.
    I have spent days out there grappling, bringing in 50, 60, 
80 traps a day that have been out there for years. Most traps 
now will last many years. If you have got fishermen that are 
putting out traps that are two, 3 years old, unless they can 
get them back, those traps will be there for a very, very long 
time.
    I guess that's pretty much all I've got here. My only 
really concern here is that NMFS really take a look, and if 
they really want to know how the ropes are actually working, 
get out on the boats. Testing in a tank is one thing; going out 
in a real environment is what counts here. Get out on a boat. I 
would be glad to take them out.
    Senator Snowe. Thank you very much for those comments. 
Thank you. Anyone care to comment on that?
    I think you illustrated the point very well about the 
underlying concerns that are real, and so hopefully that can be 
considered in this whole process as well. Thank you very much.
    Ms. Cornish. I would like to just comment on a couple of 
things. There were some comments raised about the behavior of 
whales and the occurrence of whales in Maine waters.
    We certainly do not know everything that we would like to 
know about what whales do in Maine State waters or in the Gulf 
of Maine. We do not have enough survey effort. It is just 
trying to figure out what is going on in an area that we do not 
have enough eyes on the water.
    We certainly appreciate the observations that are made by 
Maine lobstermen, but we do not have enough scientists on the 
water to help validate what is going on in the water with 
respect to whales. So we would like to see some additional work 
in that area. But the bottom line is that we know whales get 
entangled.
    Like I said in my testimony, 75 percent of the whales out 
there have signs of entanglement. Did that entanglement occur 
in Maine? We do not know. We do not know where the 
entanglements are occurring.
    There is a severely entangled whale right now off of 
Florida with really horrendous marks all along its body, 
obviously from entanglement. Where did that entanglement occur? 
We do not know. We cannot narrow down the point of origin of a 
lot of these entanglement events, but we know it occurs.
    So we need to make lobster fishing, fishing with gillnets, 
tankers, we go after the tankers, they are pretty well funded, 
but we are equal opportunity when it comes to going after all 
of the various threats to whales.
    What we would like to be able to promote with you, I see a 
vision in the future, it is not something that we may be able 
to reach in the next year or two, it certainly has not occurred 
in the 10 years since we have been working on this issue, but I 
do see a future where we can fish sustainably. When I say 
sustainably I think about all species, and I think it really 
comes down to engagement in the process.
    You guys know what gear works, what does not; you need to 
be fully engaged in how we formulate these proposals, because 
we need to figure this problem out.
    We, at Ocean Conservancy, our main business is sustainable 
fishing, and we work to promote fisheries that are sustainable. 
In D.C., actually, where I live, seafood that comes with an 
environmentally friendly certification is much coveted by 
folks. They recognize the value and are willing to pay more for 
seafood that has been caught sustainably. That equates to more 
money for the lobsters that you catch. We would like to promote 
the lobster fishery as a sustainable fishery and help you gain 
that advantage in the marketplace. That's our specialty, not my 
specialty, but the fish program that works for Ocean 
Conservancy, and John Williamson can speak to that as well. It 
is about promoting sustainable seafood.
    And so I hope that we can work toward that goal. I think we 
can reach it.

            STATEMENT OF JIM HENDERSON, PRESIDENT, 
            SOUTHERN MAINE LOBSTERMEN'S ASSOCIATION

    Mr. Henderson. My name is Jim Henderson. I am the President 
of Southern Maine Lobstermen's Association. We are opposed to 
where the exemption line is.
    We believe it should be brought out to 3 miles due to the 
sightings of whales. I don't think it has an impact. Where you 
drew the line, goes from whistle buoy to another whistle buoy. 
The Coast Guard took whistle buoys away, they are no longer 
there so it is kind of hard to look up and find out if you are 
on the right side of the line or not.
    They do not get to the area around Boone Island and Isle of 
Shoales, they are going to go to singles. With the new state 
proposal, they will not be able to do that and there is going 
to be a lot less gear in the water.
    Senator Snowe. I appreciate that. Does your proposal 
address that about going further on the exemption line?
    Mr. Lapointe. Our proposal uses the exemption line that was 
proposed in the Federal rules because it was our line.
    Senator Snowe. Originally?
    Mr. Lapointe. Yes.
    Senator Snowe. If there are now some concerns and want to 
extend it out to the 50 fathom?
    Ms. McCarron. The Maine Lobstermen's Association, we are 
not necessarily suggesting that we know where the line should 
be. What we really, really want to see are the government 
agencies looking at the best available data, and the data is 
kind of set in stone, it is not our data, it is the whale 
sighting database, but there are far more sophisticated 
analyses that could be taking place.
    Nobody has looked at it in terms of seasons or broken it 
down by decades. We get punished for a sighting that is 35 
years old. The last 5 years the surveillance has greatly 
increased.
    So we think that there needs to be some perspective to that 
data and then let the line be where it should be. The other 
piece that has not been looked at all is nobody has looked at 
where the whales are in relation to where fishing is taking 
place.
    MLA's effort was the first to be put forward, and that 
precedent is there. That is how the ship strike rules and 
moving the shipping lanes were done. It is a basic probability 
analysis.
    We only ask that we get the fair treatment and a full look 
at all of the data.
    Senator Snowe. The bottom line is you have to have good 
information, reliable scientific data, to reinforce whatever 
rules that are brought forward to give confidence and credence 
and trust in the implementation.
    Who is next? I hope you are all keeping count.

            STATEMENT OF NORBERT LEMIEUX, LOBSTERMAN

    Mr. Lemieux. I am Norbert Lemieux. I am from Cutler, Maine. 
We are pleased to have you here, Senator Snowe, to fight for us 
hopefully.
    Some of the comments that I have got, deal with the safety 
issue for the fisherman. The thing is whether they call it 
hang-ups or hang-downs, you can get a fairly rough sea going, 
and fishing with groundline, any of the sinks or caught on any 
obstruction on the bottom, this will become tight really fast, 
and the lines could either pop out or flop, hurt the operators 
or the crew, as well as damaging some of the gear on the boat.
    Of course, in the experience I have had, quite often you 
end up parting off the line and losing the gear altogether. Of 
course, replacing line is one thing, but you are going to lose 
a lot of gear.
    I have been involved in this low-profile since they started 
testing it and have not found anything that I would trust more 
than a year, and some of it, the first haul back, you are 
parting it off and losing gear, so you have to replace it after 
that first haul.
    They have not come up with a suitable solution to replace 
the line that we are presently using right now. The expense is 
like everyone has said, is way out of reach for a lot of the 
fishermen. There is a lot of fishing bottom that through the 
spring, early summer, is the only time we can catch lobsters 
and survive.
    We have just gone through quite a tough winter. If you take 
all the hard bottom away from the fishermen on the coast of 
Maine, you are really going to put them in hard shape as far as 
work. You cannot catch lobsters on a smooth bottom, enough to 
actually pay the bills, let us put it that way, in the early 
part of the season.
    So if you take that hard bottom away, you are crippling 
them. With all the other expenses that we are having to endure, 
this right here will drive the final nails in. The expense of 
the rope and not being able to land lobsters, plus you are 
losing a lot of gear that you have to pay so much for.
    Lobster fishermen are whale friendly. They are the eyes and 
ears for the fisheries. They are the ones that spot an 
endangered whale, and many of the lobster fishermen on the 
coast of Maine have gone through whale training, 
disentanglement training.
    I do not think there is any emphasis being put on how 
friendly the fishermen are toward these whales, and I know that 
a lot of them that are entangled, it is quite possible they 
could have been hit by a ship and are weakened, and in the 
process of rolling, and whatever happened to them, when they 
are weakened, may have entangled with a whale where normally 
they would have never had any interaction with lines.
    Also the boundary line that they have set up for the 
implementation where you can fish as far out, the 50-fathom 
curve that MLA has proposed, I think was a pretty good idea.
    You know, find out where these whales are feeding. Where 
are they going to react?
    I've only fished for 32 years but I have never seen a right 
whale yet. I know if you go up in the Bay of Fundy in the 
summer you will probably see them, or if you go down off the 
Cape this time of year you would probably see them, but we are 
talking about Maine waters and especially hard bottom.
    I am quite sure from speaking to some of the biologists 
that these right whales feed on copepods. Whether or not they 
actually feed on hard bottom, I have heard that a right whale 
has to flip upside-down and thump on the bottom to get these 
copepods to come up into the water column so that they can feed 
on them.
    Well, they are not going to be thumping on hard bottom. And 
if you see mud on their head, that is further proof they are 
not feeding on hard bottom.
    We want to fight the battle for Maine right here. We do not 
want to put the lobster fishermen out of business.
    Thank you.
    Senator Snowe. I appreciate your comments. Thank you very 
much. Next speaker. I think we will have them lined up on both 
microphones.

 STATEMENT OF JOHN DROUIN, CHAIRMAN, ZONE A LOBSTER MANAGEMENT 
                      COUNCIL; LOBSTERMAN

    Mr. Drouin. Thank you, Senator Snowe. Thank you for the 
opportunity to speak today.
    My name is John Drouin. I am a lobster fisherman from 
Cutler, and I am Chairman of the Zone A Lobster Management 
Council. Maine has seven lobster management zones, and Zone A 
extends from Schoodic peninsula to east of the Canadian border. 
This will be the entire coastline of Washington County, Maine, 
the true Down East Maine. Zone A has over 1,200 licensed 
lobster fishermen.
    NMFS's decision to ban floating rope from most coastal 
waters will have a severe financial impact to the fishermen, 
the coastal communities of Washington County, and have a major 
impact to all businesses in the state.
    Besides financial impacts, there are safety issues, 
compliance problems, and equipment confusion. Hopefully I can 
explain some of these issues.
    NMFS has grossly underestimated the average cost to 
fishermen to switch from floating groundlines to sinking ones 
and the yearly costs associated to maintain those groundlines.
    In my situation I will need a minimum of 95 coils of rope 
for the initial switch. At today's price, that is about 
$14,000. In a year when my catch decreased 39 percent and my 
expenses increased by a third, diesel fuel started the season 
at $2.14 and finished at $3.24. Six years ago fuel was only 
$1.00 a gallon, bait was $6 a bushel, now it is $22 a bushel. 
But the price of a lobster has not increased at that same pace.
    That is not mentioning that overall living expenses have 
increased. There just are not any funds left to switch over all 
my gear in 1 year. It is my belief that I should not have to 
borrow money, go into debt, to comply with a regulation that 
arguably will not provide a noticeable benefit to the whale 
population.
    How many businesses can afford to buy equipment 1 year just 
to throw it away the next and replace it with a more expensive 
type of equipment?
    By requiring us to switch over our ropes in only a 1-year 
timeframe, any extra money that some may have would be spent on 
rope. That means that Maine business, especially coastal 
communities, will see less spending in their stores and less 
money available for fishermen. That cycle will continue and 
possibly get worse and trickle down the entire economy of the 
state.
    Also at issue are hopes that the Department of Marine 
Resources' proposed amendment to NMFS ruling. Fishermen are 
waiting to see if the proposed low-profile rope will be an 
acceptable alternative to NMFS; however, we probably will not 
have an answer on that until very late summer/early fall 
timeframe.
    This brings me to the issue of fishermen going out with 
sink rope today. We all know that some products work better 
than others and the same is true with rope.
    We know that current sink ropes available do not hold up 
well for use as groundlines. What may work in a critical 
habitat area, Cape Cod Bay, does not mean it will work on the 
rocky gravelly bottom of Down East Maine.
    Fishermen have spent years working to find and develop gear 
that worked for them, and it cannot be expected that fishermen 
start over from square one.
    This takes me to the safety issue. Sinking groundlines get 
caught on bottom. We have already had a lobster boat have the 
hauling side torn off the boat while hauling gear with sinking 
groundlines. Put a smaller size boat in that situation, add 
some rough seas, and you have just spelled disaster.
    Even though I commend the DMR for putting together an 
alternative plan, there are safety concerns with that plan 
also. Calling for a 10-fathom limit on spacers for the 
groundline in some proposed areas will put boats off Cutler and 
many other areas in danger. In the Cutler area, water depth of 
the DMR's proposed alternative plan averages 45 fathoms.
    A small-type boat trying to fish a five- or six-trap trawl 
in this depth with only 10 fathoms separating the traps would 
mean that at a minimum four of those traps would be off the 
bottom and hanging from a boat. That is a lot of string for a 
small boat to deal with.
    If I had the time I would tell you the story of how a 
lobster fisherman had his thumb literally ripped off his hand 
this past fall due to the unbelievable strain of trawl he was 
dealing with. Although the DMR alternative is helpful to 
fisherman, that plan, along with the NMFS ruling, shows that 
one-size-fits-all rule just does not work.
    Also along with that thought is the fact that I fish 100 
percent of my gear in what is known as the ``gray zone.'' The 
gray zone is an area of disputed waters between the United 
States and Canada off Cutler. My gear is alongside, or more 
like their gear is on top of ours, and I have to fish with gear 
that is not a requirement to the Canadians. As a matter of 
fact, the Canadian fishermen fish with float rope to the 
surface along with floating groundlines. What benefit is that 
to the whale population?
    So what would I like to see? First, I would like to see the 
exemption line moved farther from shore. A 50-fathom curve has 
been discussed, but even using a distance line such as we use 
the 3-mile line, we could push the exemption out 10, 15, 20 
miles. To my knowledge there is data to help support the move.
    If that is not in the offing, then without a question, we 
need the implementation date pushed back, and we also need a 
phase-in period for time to make the switch over.
    I really need to express my concerns that the funds just 
aren't there for the fishermen to make a switch in just 1 year. 
There are many types of sink ropes available, but we need 
testing done that will show which ropes work best for what we 
are now asking them to do.
    Thank you for coming here today and listening to us.
    We are in hopes that there will be some relief.
    I do have one more comment, which, if I may, on either end 
of the panel here earlier when it was discussed how NMFS was 
looking for data as far as what the costs were going to be to 
the fishermen and industry, and also on the other end as far as 
how the whales behave, we as an industry have been participants 
throughout this whole process, and it seems like every time 
that we give this information to NMFS, to whoever, we are not 
believed.
    So we feel that any input that we have been trying to give 
is just a waste of time because there is information and data 
out there.
    It is not theirs, it is ours. They do not believe us.
    Senator Snowe. I appreciate that. I want to make sure that 
your voices are heard. Thank you.

             STATEMENT OF LEWIS BISHOP, LOBSTERMAN

    Mr. Bishop. My name is Lewis Bishop. I fish out of 
Frenchboro. My question today, actually, I have a couple 
questions, but the first one, would be to Jim.
    I know in last month's commercial paper I was reading an 
article in there on the sinking groundlines, and right at the 
very end of it Max Strahan stepped in and said, NMFS's mission 
is missing the point. He said, it's not the groundlines that 
are the problem. It is the vertical lines.
    OK, so today we are sitting here fighting over groundlines. 
What is the point? Is it our vertical lines or is it our 
groundlines? I guess that would be the main question I have 
today.
    Another one to Mrs. Cornish, on the singles versus the 
pairs and the trawls, if we can have something poly on our 
groundlines, that would get rid of the vertical lines that you 
are talking about and that is going to increase.
    You have got to work with the fisherman. Shorter 
groundlines, something that we can work with. What is on the 
board right now, we cannot work with it at all. I guess that is 
about it.
    Senator Snowe. I appreciate that. Ms. Cornish, were you 
prepared to respond, or Mr. Lecky?
    Ms. Cornish. I can only say that the research shows that 
the sinking line keeps the line out of the water column, and 
basically that is the point of trying to avoid whale 
entanglements, is keeping line away from whales.
    So if there are other solutions out there to do that, to 
reduce the amount of gear in the water, we would love to be 
able to entertain them in a way that we can actually implement 
them and that works.
    There has certainly been a lot of research around, for 
instance, traps without endlines or slow release endlines or 
other things.
    You guys need to test that out and figure what is going to 
work and what isn't. The whole idea is to get lines out of the 
water, and sinking lines do that.
    Sinking lines get the lines down to the ground so that they 
are out of harm's way. Endlines are definitely a problem, just 
as Max Strahan said. Endlines are a big problem, and that is 
going to be the focus of Take Reduction Team as they move 
forward.
    So we have to be prepared for that. It is a major problem, 
and Maine has a lot of endlines. So, again, the scrutiny is 
going to come here to figure out and to tap you guys in terms 
of how can we reduce the threat of endlines.
    Mr. Bishop. One other thing. On your little comment there 
on the whale that is entangled down in Florida, we do not know 
where the gear came from. I know the fishermen sitting in this 
room, guess what, our gear is marked. Red tracers in it, we are 
all marked.
    I believe last year there was a guy down in Massachusetts, 
his gear was all marked, met the requirements. It was entangled 
in a whale. Guess what, he got sued.
    Are you going to tell these guys that there is no guarantee 
that they're not going to get sued if they are putting the 
sinking groundlines in and all these specifications that are 
being thrown at them?
    Senator Snowe. Mr. Lecky?
    Mr. Lecky. A comment on the endline issue. I think the 
endline issue is one that folks are concerned about. We have 
heard it brought up a couple of times today.
    The TRT decided that it was a pretty complicated issue and 
that they would tackle groundlines first before proceeding on 
ways to work with endlines.
    So it is an issue that is out there, we are aware of it; it 
is not an either/or choice.
    I am not quite sure what lawsuit you are talking about. If 
you are talking about an enforcement action from the National 
Marine Fisheries Service.
    Ms. McCarron. The suit was brought forward by Max Strahan 
against an individual lobsterman, Daniel Holmes, for $4 
million.
    Mr. Bishop. That's what I mean.
    Mr. Lecky. I understand that. The law does provide for 
third party lawsuits, and I cannot guarantee you how some third 
party is going to behave. All I can do is talk about our 
experience with enforcement and how we approach enforcement.
    Senator Snowe. I think that is why it is so important to 
have certification by NMFS with respect to the gear based on 
what I'm hearing, is determined to be suitable. I think that is 
the key here.
    We are dealing with a lot of unknowns. That has been sort 
of obvious to us today, we lack the data. So we lack the data 
and the unknowns, are they at risk?
    If there is something that goes wrong, are fishermen liable 
because they had to comply with the law, but yet you could not 
certify that that would work?
    I think those are the issues. Hopefully the Take Reduction 
Team is going to be looking at very carefully here. I think 
some of the issues you are bringing are practical because they 
are out there each and every day.
    Thank you.
    Ms. McCarron. Senator, if I could.
    Senator Snowe. Yes, Ms. McCarron.
    Ms. McCarron. Just briefly to Lewis's statement, I think 
another strong argument to be deferring the enforcement is that 
a lot of the research is ongoing right now.
    Currently there is a bottom current study being conducted 
east of Schoodic Point, which is basically showing that 
floating rope does not really float Down East. The tides of the 
current are so strong that it lays over at most points except 
for slack tides, so you really have to wonder for the 
investment that folks in that area are going to make, is there 
an actual conservation benefit.
    With regard to sinking the lines altogether, DMR has 
preliminary data that was gathered not at the actual research 
point but through pressure sensors that shows the height of the 
line in the water, and issued an ROV study that shows that 
shorter strings of rope between groundlines greatly reduces the 
profile.
    So from where the industry sits, there are some other more 
creative, more operationally feasible alternatives; but because 
we are the industry, we do not have the big bucks, we have not 
been able to go out and do the controlled experiments. See 
these sorts of things tend to fall on deaf ears.
    But it is within reach, and it is so much more workable, 
and I think would provide true benefit to the whales.
    Senator Snowe. Thank you. Again, it is about collaboration. 
Even in industry they do that today. They bring people together 
with the best ideas because it is the people on the front lines 
each and every day that have great ideas but they have to be 
out there.
    I think that is an interesting point even for government. 
The Take Reduction Team, it is an internal process, but it is 
interesting. It seems like sometimes you put the cart before 
the horse, and not working with people to get the ideas and 
blending it and figuring out, ``OK, here is the goal, how do we 
get there,'' that is workable.

              STATEMENT OF BRIAN CATES, LOBSTERMAN

    Mr. Cates. Senator Snowe, distinguished panel members, and 
fellow fishermen, my name is Brian Cates from Cutler. I have 
fished for lobsters for 44 years.
    For this many years in the industry, you can well imagine 
that I have seen many changes in the way we do business, some 
for better, some for worse. In my opinion the reason we are 
here today is yet another example of change that we have seen 
in the recent years that signals an end to a time-honored 
tradition and a very valuable industry that has served so many 
so well.
    That change is quite frankly government intrusion and 
overregulation forced on fishermen that is totally unwarranted 
and completely unnecessary.
    Because of pressure from a very few special interests, the 
NMFS is attempting to pass on rules and regulations to the 
lobster industry that will have absolutely no positive benefits 
in trying to resolve any conflicts involving whales and fishing 
gear.
    The reason they will not work is because 99 percent of the 
area affected by the proposed rule change are areas where right 
whales are never seen. Why target areas and large numbers of 
fishermen with regs that will cost individuals thousands of 
dollars to comply with, and in many cases, such as mine, these 
rules will effectively put me out of business.
    The reason for this is that neutral or sinking rope cannot 
be used in areas where rough bottom exists or where the tide 
causes much chafing and tangling of endlines.
    Both of these conditions exist where I fish 100 percent of 
my gear. As a result, applying these rules will be devastating. 
In other words, the gear loss will be catastrophic and 
replacement expense too great to allow for a profit.
    If you add to these facts the fact that the right whale has 
never been seen in the 100- or 125-square-mile area where I 
fish, it makes one wonder why we are facing such ridiculous and 
downright scary threats to our cherished way of life and our 
ability to feed and care for our families.
    Perhaps our legislative branch could better serve its 
constituents by enacting legislation to prevent special 
interest groups from being able to tie up our court systems 
with groundless and erroneous lawsuits.
    Or perhaps our legislative branch could better serve its 
constituents by enacting legislation to dismantle and remove 
ineffective and over-burdensome governmental agencies, such as 
NMFS, ASMFC that do nothing more than provide jobs for 
thousands of workers at the expense of the people who truly 
have to work for a living, especially since the fishing 
industry would be much better served by an agency offering 
common sense and more localized control.
    Please make no mistake about it. Try to understand the very 
real danger this proposed rule change poses to our industry. It 
will cause me to change my fishing technique to the point where 
it will harm many people's income levels, from the two sternmen 
I employ to the people who supply my bait, traps, maintenance, 
fuels, et cetera, et cetera.
    I have no place else to go. I cannot just move my traps to 
another place that I can fish and be in compliance with the 
regs. I could possibly downsize my business to where it could 
be a semi-retirement job, but what about my sternmen who depend 
on their income?
    Also remember that I am just one of many who will also will 
be forced out of business. This is very serious. If these rules 
are enacted, I will be faced with a big decision. Do I continue 
to fish as always but with the threat of being out of 
compliance and facing criminal charges if caught, or do I 
downsize and tell my sternmen, good luck, ``see ya,'' or 
perhaps I will just retire.
    I do not like any of these options. Most of the fishermen I 
know do not have any other options, so please be very careful 
in consideration of these rules.
    That ends my written comments, but one area that I think 
might be worthwhile for this panel to look into, certainly 
define the goals of what you want to try to accomplish, but 
then put the responsibility on a more localized enforcement 
agency, one that can work with people in certain areas, as the 
State of Maine is already divided up into areas and zones that 
makes much more sense in my mind to work with these individual 
areas and zones to come up with way to reduce entanglement 
issues.
    Not a blanket policy. Blanket policies usually do not work 
for many people. Thank you.
    Senator Snowe. Thank you. It was very helpful. Thank you.

       STATEMENT OF RICHARD K. LARRABEE, SR., SELECTMAN, 
                   TOWN OF STONINGTON, MAINE

    Mr. Larrabee. Thank you, Senator Snowe, for letting us 
speak. My name is Richard Larrabee. I am a Selectman for the 
Town of Stonington.
    Stonington Harbor has approximately 300 boats moored that 
depend on lobstering and crabbing. In addition, the captains of 
these boats employ one or two sternmen.
    We have five lobster buying stations employing anywhere 
between two and ten people, and several crab picking stations. 
We have two marine supply stores, a boatyard that employs 
anywhere between 40 and 50 people. We have three fuel companies 
that supply fuel for the boats.
    As a selectman in the Town of Stonington, I have seen the 
increase of general assistance and the need for affordable 
housing and jobs. It is difficult to try to address the needs 
of our islanders, especially when fishing on the island is the 
main support. These changes will affect us very deeply.
    Thank you.
    Senator Snowe. Thank you.

            STATEMENT OF DAVID COUSENS, PRESIDENT, 
                 MAINE LOBSTERMEN'S ASSOCIATION

    Mr. Cousens. Senator Snowe, members of the panel, my name 
is David Cousens. I am President of Maine Lobstermen's 
Association. I have been fishing for over 40 years. It has been 
a while.
    I would like to just focus on one part of this plan, and I 
know everyone is upset about the whole plan, but I think the 
plan is here, and the only thing we can do now is effectively 
put out what needs to be addressed, the flaws in the plan, and 
try to take the plan, at least delay implementation of the 
plan, and point out areas that need to be addressed. My area 
here is enforcement.
    I really have concerns about the enforcement of this. For 
one thing, NMFS sinking rope guidelines are pretty much 
impossible to understand for fishermen. They are just not easy 
to work with.
    How will a lobsterman know if he is buying rope of a 
specific gravity of 1.03 or greater? Specific gravity has never 
been put on rope. We have a standard now, but the standard is 
not labeled on the rope.
    Will the rope maintain a consistent specific gravity over 
time? No one knows that. I mean, no one has an idea if rope, 6 
months after you have purchased it, is going to have the same 
specific gravity.
    Also, NMFS, in their economics, has given a four- to six-
year plan for the rope. That rope is not going to last a year. 
If it does last a year, we are going to consider that success.
    So their economic policy, you wonder why there is a $10 
million gap to $100 million gap. For one thing, they didn't 
take into account that rope has to be replaced every year, and 
for another thing, anyone that fished inside the line at any 
given time you excluded from the whole process.
    You only had about 979 fishermen from the State of Maine 
that were going to have to buy rope. That is why we have a 
little problem with the economics of this proposal. There is 
more like 4,000 people that are going to have to buy rope, 
because we move outside the line and inside the line.
    The other assumption that you made was, if we fish any time 
inside the line, we will choose to stay inside the line and not 
have to buy the rope. That is impossible for us. We cannot make 
money inside the line.
    I fish 95 percent of my traps outside the exemption line, 
so that is not going to work. That's just flawed thinking, and 
that is why we have such a disparity from $10 million to $100 
million, and I will bet, George, it is closer to $100 million. 
I know, that is good, you took $40,000 and that is fair. But it 
is more than $40,000. That does not take into account lost 
traps.
    Can manufacturers consistently make rope? No, they cannot. 
For the last 5 years, we have been testing rope. We have been 
asking for specific gravity rope to see that happens. If we are 
within .2, that is good. Well, .2 is too much for the 
enforcement. We are supposed to be at 1.03 or above.
    It can go to .2 on either side of this. You can be buying 
rope you think would be .4 and it can be .02. So that is a 
definite problem.
    DMR asked, for this year's low-profile rope, to be made to 
a certain specific gravity, and none of them were an exact 
value that were asked for. A few of them were illegal and would 
break the law. So in just the latest low-profile ground 
experiment, the rope was not what we asked for.
    So can rope manufacturers certify that the rope is legal? 
They can put a tracer in, but is it legal? That is a question 
that NMFS has not answered.
    This is the protocol for all you people that have not 
looked at it to test the rope. It is based on Archimedes' 
principle, which is a solid mathematical principle. It works.
    What it is, is specific gravity can be calculated by using 
the equation A, dry sample weight/dry sample weight and B, 
submerged sample weight.
    So in order to test this, this is the protocol that they 
are going to have to go through. To determine the specific 
gravity of a line, obtain a sample of a length approximately 18 
inches by cutting with a cold knife.
    A minimum sample weight of 30/30 grams is recommended. 
Steel wire of a known weight and density is used to bind the 
ends of the sample to keep them from fraying as necessary. It 
is also used to hold the sample in a coiled shape to provide 
weight to assure that the sample will be fully submerged when 
placed in water.
    The dry weight and submerged weight of the wire must be 
known in order to allow the effect to be removed from the 
calculation of specific gravity of the rope sample.
    Submerge a sample in water of known specific gravity to the 
fourth decimal place with a hydrometer. Water is maintained at 
65 degrees Fahrenheit and a final specific gravity calculation 
is corrected to 60 degrees Fahrenheit.
    The submerged sample is then agitated and weighed on a 
daily basis of 7 days. The submerged sample weight on the 
seventh day is used for the final calculation.
    The dry sample weight is then obtained after the sample is 
removed from the water and held at 135 degrees Fahrenheit for a 
36-hour period. Note that A and B must be corrected to exclude 
any material attached to the sample as described in the above 
purposes for binding, sinking, et cetera.
    Care must be exercised to ensure that no outside influences 
adversely affect these weights and measurements. Last, 
corrections for temperatures of water used in the above 
procedure need to be performed.
    Now, that is the mathematical part of it. Now, come on, 
guys, are we going to do that for every sample of rope?
    The DMR does not have the money to do that; the State of 
Maine definitely does not have the money to do it; I do not 
think you have the money to do it. I mean, that is 
unbelievable. I have another comment but we are in public.
    Implementation date. Maine lobster industry cannot comply 
by October. For one thing, we do not know what to buy. You go 
to any rope store on the coast of Maine, and I know you guys 
have not been there, or if you have sent a representative 
there, no one has got anything in stock right now.
    Times are tough. No one is buying anything. You could not 
get a truckload of sink rope in two stores probably right now 
unless you ordered it.
    No one knows what to order. We have tried sink rope. It 
does not work. It frays. So what we went looking for is sink 
rope that is the most durable. So what are we going to do? We 
are probably going to jump in diameter. We are going to go from 
3/8-inch rope to maybe 1/2-inch rope and try to get a year out 
of it. That is expensive. That is another thing that wasn't 
figured into the economic analysis, too.
    We need to do it in the spring time. Whatever operational 
procedures we need to do, we cannot do it in October. That is 
ludicrous. It is the height of the fishing season, the weather 
is getting bad. We cannot be out there switching out rope. It 
is just not feasible. Ignorant to be more precise.
    The rules should be phased in so that lobstermen can change 
a portion of their gear each year, as it normally would, to 
spread out the costs.
    As Mr. Drouin just said, he hit it right on the head. You 
know, some people last year put a hell of an outlay on new 
rope. Do they throw it all away and start over? We have the 
buyback program, which is a good thing, and I would encourage 
people to use that.
    But, there is only $2 million there. The state is going to 
be liable for $100 million. We have got to absorb that cost.
    So I would just caution everyone to try. There are ways 
that we can do this. The MLA has put together proposals that 
will definitely help. If we could use the floating line that we 
have got and go to 10-fathom trailers, we have solved the 
problem.
    If you could do that, we could eliminate singles. But no 
one is going to eliminate singles without the proposal of 
having workable gear, because 50 percent of the area that I 
fish, I cannot fish under your new proposals without singles. 
It is my only option.
    I am not one to give up my only option unless I have 
another option that works.
    So if we want to get real about saving whales, what we need 
to do is look at the whole picture, not piecemeal. And I know 
vertical lines, you guys are going to ask for 50 percent 
reduction in vertical lines starting in April. That is huge.
    Now, I have talked to Scott Kraus and a lot of other people 
around. Groundlines aren't the problem, they are not the major 
problem. Vertical lines are the real problem.
    Well, why did we not tackle this as one thing? Instead of 
having a 10-year protracted battle on groundlines, and now we 
are going to have in another year, a battle on vertical lines.
    So I would suggest that everyone try to get together and 
come up with a common sense approach or litigation is going to 
be coming very quickly.
    Senator Snowe. I appreciate it, Dave. Thank you.

            STATEMENT OF MEREDITH HOUGHTON, MEMBER, 
                THE CALVIN PROJECT, ADAMS SCHOOL

    Ms. Houghton. My name is Meredith Houghton and I am member 
of The CALVIN Project. I have been looking into the prices of 
rope and the costs to lobstermen.
    I must admit that I did not get very far with the issue, as 
it is very complex and most figures are not explained.
    So today I would like to tell you about the research two of 
my fellow student scientists have been doing.
    Tess Lameyer and Truman Forbes looked at the data of 
sightings of right whales in the inshore zone of Maine. The 
Maine Lobstermen's Association has a very good chart of the 
sightings.
    The sightings have been made by many organizations and 
people over the years. They indicate a low frequency of right 
whales inshore. Other places in the Gulf of Maine show a lot 
more sightings offshore than inshore, but those sightings were 
done a different way.
    The offshore sightings are from systematic surveys. It is a 
fact that the scientific community had no idea dozens of right 
whales visited the Bay of Fundy every year until Scott Kraus 
started doing systematic surveys in 1980.
    Tess and Truman could not find any systematic surveys of 
Maine's inshore waters for right whales. The data on the Maine 
Lobstermen's Association website is what scientists call 
opportunistic. It is a random sampling at random times.
    Their conclusion is that decisions should not depend too 
much on the current inshore sighting data. They recommend the 
government and scientists do a systematic inshore survey so 
better decisions can be made about inshore gear.
    Senator Snowe. Thank you. Thank you very much for your 
statement.

            STATEMENT OF MEREDITH OLIVARI, MEMBER, 
                THE CALVIN PROJECT, ADAMS SCHOOL

    Ms. Olivari. My name is Meredith Olivari, and I am also a 
member of The CALVIN Project.
    Senator Snowe. Where do you go to school?
    Ms. Olivari. The Adams School.
    I heard researcher Regina Campbell-Malone speak at the 
Consortium meeting about how whales can be injured by ship 
strikes.
    I was inspired by her talk and to think about models of 
whales and fishing gear. My simple model is about the risk of 
whale entanglement inshore and offshore along the Maine coast. 
I have collected my data from the Maine Lobstermen's 
Association, the Association website.
    In the newspapers it is often said that the risk of whales 
getting entangled inshore is much less than offshore because 
there are fewer whales sighted inshore.
    My model disagrees with this statement, because I added the 
factor of how many lobster pots there are per square nautical 
mile. Offshore there are five lobster traps per square mile, 
and inshore there are 100 lobster pots per square mile.
    In my model the risk factor is the number of whales times 
the number of pots per square nautical mile. If there are 20 
whales swimming offshore, their risk factor is 20 times 5 pots 
per square mile, or a risk factor of 100.
    For just one whale swimming inshore, its risk factor is 1 
times 100, or the same risk factor of 100. When density of 
lobster pots is used, whales might have just as much risk 
inshore as offshore, and we cannot afford any more deaths or 
even injuries to right whales. Thank you.
    Senator Snowe. Thank you. I appreciate your statement. 
Thank you.

  STATEMENT OF BILL McWEENY, MEMBER, THE CALVIN PROJECT; AND 
               TEACHER, GRADES 6-8, ADAMS SCHOOL

    Mr. McWeeny. Hi, my name is Bill McWeeny. I have been 
involved in the study of right whales since 1983. I am also the 
facilitator to The CALVIN Project.
    The CALVIN Project's motto is ``Endangered Species Recovery 
Through Education.'' I want to share a perspective from my role 
as this project facilitator. Teachers often learn as much as 
their students when engaged in research like this.
    Not only did we discuss and research just about everything 
there is to know about right whales, but we also discussed 
other endangered species and their recovery was or was not 
being met. Over time I began to see a larger picture of the 
endangered species problem in general. That picture exhibited 
some patterns that are alarming. Most endangered species 
situations include poor and/or incomplete press coverage, a 
lack of understanding of the problem facing the endangered 
species, a lack of understanding for the people being affected 
by the recovery efforts, too small, and sometimes too late 
funding of research necessary to make good decisions, and 
therefore, often poor decisions being made.
    In addition, sometimes the dialogue is just plain mean and 
off base. Political decisions based on squeaking wheels are 
substituted for sound decisions based on facts.
    Helping endangered species recover is as complex as the 
ecosystems they live in and the human social systems affecting 
them. There are a couple of patterns from a few stories of 
success. One is to act sooner rather than later. The longer 
actions that could help a species are put off, the more likely 
the species will disappear. From the passenger pigeon 
extinction to the latest marine mammal extinction of the Baiji 
Yangtze Dolphin in China, putting off decisions is a bad 
policy.
    Act now and adjust later is what one major scientist at the 
latest International Marine Mammal Conference loudly reported. 
There is no second chance; but another and perhaps more 
important pattern behind endangered species success stories is 
collaboration among groups involved in the process.
    It is never one group exerting power over another, but 
rather cooperation that saved the wolf from the lower 48 states 
and dolphin habitats in the South Pacific most recently.
    I know the groups represented here today have tried to work 
together, but it is my personal observation that they are hard 
pressed to call the current efforts collaboration.
    Requiring sinking groundline will bring us closer to that 
goal, but this plan in itself will not succeed in helping right 
whales recover because it does not include the collaboration 
factor.
    The various groups are working against each other rather 
than with each other, and I can see why. I compliment the 
Senator for insisting on looking at the bigger picture. I think 
that is part of the problem. Very little discussion centers on 
the big picture and relates to the actual goal of recovery, 
that again, the Senator has often referred to that today. Thank 
you.
    The process is bogged down in little corners of details, so 
the forest cannot be seen through the trees. Not only are we 
myopic when looking at whale recovery, but also when we are 
looking at fishermen. We are here today talking about a 
replacement issue and the economic burden on lobster fishermen, 
but we cannot see beyond the coils of rope.
    The lobster industry needs to collaborate with other 
groups, and other groups need to support the whole industry. 
What I am suggesting here is that this little step of going to 
sinking groundline is just one of many to come, for instance, 
the vertical lines are coming up next.
    If we step back and look at the lobster industry and see 
why they are having such a problem with the economics of 
sinking groundline, we can see that they have no control. They 
are pawns in a game. It is the middlemen and the marketers that 
need to be addressed. The fishermen should be able to pass 
their costs on to the marketplace directly just like air 
carriers do with fuel charges, but the system ties their hands. 
Not only that, the even bigger picture leaves the consumer out 
all together. The consumer should be paying for this recovery. 
After all the product is a luxury. No one runs down to the 
store for a lobster when they don't have anything for dinner.
    We tax alcohol and we tax cigarettes. We use taxes to 
support programs to help problems created by the use of those 
products. Why not do the same for whales and their injuries 
caused by the lobstermen? Let the consumer step up to the 
plate. I doubt there will be any lobsters left rotting on the 
docks.
    I think we need a big-picture approach and a bold plan. I 
suggest we put a surcharge on each lobster sold, say 25 cents 
or 50 cents, that way the consumers all over the world will be 
funding the research and the extra costs to fishermen divvied 
out all different ways, and the charge should be universal 
throughout the region from Block Island to Prince Edward Island 
so that no one locale has advantage over another. I kind of 
agree with what Ms. Cornish was saying earlier.
    Thank you very much.
    Senator Snowe. Thank you. Thank you very much for your 
comments. The key is collaboration. I think it is critically 
important.

             STATEMENT OF ZACH KLYVER, NATURALIST, 
                 BAR HARBOR WHALE WATCH COMPANY

    Mr. Klyver. Hi, Senator Snowe. Thank you for this 
opportunity to speak. My name is Zach Klyver and I work as a 
naturalist on a whale watch boat out of Bar Harbor for Bar 
Harbor Whale Watch Company. This will be my 18th year of 
guiding whale watching trips.
    I have led about 3,500 whale watching trips and taken about 
600,000 people whale watching here. I have also worked for 9 
years with the right whale observer program down off of Florida 
and Georgia. I attended the College of the Atlantic. I'm from 
Eastport.
    Senator Snowe. I think you've got all the credentials.
    Mr. Klyver. My family was a fishing family in Eastport, and 
we still have Ray's Mustard only in our house.
    Senator Snowe. Very good judgment.
    Mr. Klyver. I want to talk about the public comment that 
has been submitted. I have taken the time to read your comments 
and George's comments and all the comments and the new DMR 
alternative, and I really appreciate all the effort that went 
into it.
    It was really obvious to me, and I know you know this, but 
the whale sighting data is so insufficient, the information 
that we have, and it bothered me because there is information, 
for example, the whale watch, we have our information over all 
this period for 18 years, and I commend the DMR and George and 
others who have been working with Allied Whale to get our 
information into a database so that you can have it to help 
with this.
    I think that is going to help with the fine scale. We have 
thousands of sightings of finback whales and humpback whales, 
and we have 70 sightings of right whale over this about 20-year 
period. So there is an effort to get that done. It is close to 
being done.
    I did pull the right whale data and presented it to the 
right whale consortium this fall in New Bedford at the right 
whale meeting, and we had 70 sightings of right whale. We also 
looked at tower data from Mount Desert Rock that Allied Whale 
maintained in the period right before the whale watch data, so 
that was another 15-year data set, and there were 59 right 
whale sightings around Mount Desert Rock.
    So we had 129 right whale sightings. I will get that 
detailed information to you. There were 211 individual right 
whales seen on those days. That is over a 30-year time span, so 
it is a big time scale.
    I think this is really critical that we have more 
information, and I feel like there is information. Ours is not 
the only information from our whale watch. Allied Whale has a 
lot of information, there are other whale watch boats that run 
out of the coast of Maine.
    So I wondered why is it that more information has not 
entered this process sooner. One thing I did look at was the 
make-up of the Atlantic Large Whale Take Reduction Team, and 
there are roughly 60 members, and there is a broad sweep of 
stakeholders, I agree, but looking at the scientific make-up, 
there are seven scientists from Massachusetts that are part of 
that process. There are no Maine whale scientists that are part 
of that process.
    It is surprising to me also because we are world renown for 
whale research, especially at the College. You have the finback 
whale catalog that was founded there. The director of the 
finback whale research is there. The humpback whale catalog, 
the first humpback whales identified, that catalog is kept 
there.
    There are a lot of local scientists that can really, 
especially at Allied Whale, but at other institutions here that 
I think could really contribute to this. I know there is 
interest in this.
    I think there is really an opportunity for Maine whale 
scientists to work with Maine fishermen to try to address some 
of these issues in a smaller setting that is not as big as the 
Atlantic Large Whale Take Reduction Team.
    So if that is something that you are interested in, I think 
there is a great opportunity there that really reiterates what 
Bill's talking about, taking control of this on a local level 
and really coming up with a lot of solutions.
    I know we want to help and I think many do. I hope that 
that might be a consideration.
    Senator Snowe. Thank you. Care to respond on that, Mr. 
Lecky? How are those decisions made in terms of representation 
in the Take Reduction Team?
    Mr. Lecky. A good part of it is voluntary. We do not really 
have resources to pay for people to participate.
    But I would point out, there is one element of folks in 
this equation that collaborate, it is the scientists. And I 
wouldn't color a scientist just because he works at a 
university in Massachusetts as not interested in Maine.
    Our scientists collaborate or participate in and contribute 
to the databases that were referred to today. So I think we 
have got scientists that represent and understand the data that 
is available on whales and fisheries.
    Senator Snowe. Just given the fact that it has an enormous 
impact on the state, Maine, involved scientists from this 
state, people representative of this state given the direct 
impact it has?
    Mr. Lecky. If there are Maine scientists that would like to 
serve on the team.
    Senator Snowe. That's important. And also how do they 
gather data? That is another issue.
    Mr. Lecky. A number of scientists that are involved in this 
actually do original research and provide their information. 
They are mostly familiar with published literature, the 
information that is available in these various databases like 
the sighting records.
    There is a lot of outreach, a lot of collaboration among 
scientists to share data and to bring that to the table.
    I would point out a comment, I guess one comment we heard 
earlier, though, that we need to consider all of the available 
information. We are required to rely on the best available 
information, so we do weight information that we consider so 
something that is a well designed, peer-reviewed, published in 
a scientific journal study, gets more weight and consideration 
than an anecdotal observation does.
    But nevertheless, as some scientists will tell you, one 
anecdote is a story, a thousand anecdotes is data, and so we do 
consider that kind of information as well.
    Senator Snowe. So that information would be useful.

             STATEMENT OF SPENCER JOYCE, LOBSTERMAN

    Mr. Joyce. Senator Snowe, thank you for being here today. 
My name is Spencer Joyce. I fish out of Swan's Island.
    We have been at this, what, 12, 14 years now since it 
started way back with whatever. It is kind of discouraging for 
the fishermen of this state when really, I do not really feel 
there is a problem. I bought my first fishing license in 1961. 
Figure it up, 40 some years I have been fishing, and I have 
never seen a right whale. I certainly have never seen one 
tangled up.
    You take a show of hands here this morning or this 
afternoon, it is just not a problem. It is like telling the 
crew in Ft. Lauderdale to sand and salt the roads every day but 
there is no snowstorm.
    The problem I see is we keep coming to these meetings and 
we comply. We first started out with a whale break away, and 
then we went to the toggle float break away, and then we put 
the red tracer in the rope so they could identify what rope it 
was. It is on and on.
    I have gone from singles to pairs and triples just to get 
rid of vertical lines, and all the fishermen in this room have 
done the same thing.
    I used to fish 150 singles in the summertime, and now I am 
doubled up, tripled up. There are thousands and thousands of 
vertical lines that have already been taken out of the water 
along with the trap limits that we have had to endure, and all 
this stuff. It gets discouraging because you think, well, we 
will do this and maybe they will go away, but they do not.
    You start reading in the paper. This and that is taking 
place, we are going to have another meeting. You feel like the 
dog that stole the apple pie off the window sill. You come in 
here with your tail between your legs, hoping that you are 
going to be able to solve something.
    But this sinking rope on the groundlines is not going to 
work. Now floating rope has only been out 50 years, 50 years 
tops, floating rope.
    What did the old duffers do? I will tell you what they did, 
because I used to go with one. They had to have two toggles on 
your vertical line, one about 4 fathom off the trap another one 
about 8 fathoms from the buoy. They had to have two floats on 
the vertical line, and in the middle of the groundline they had 
to have, of course, they did not have Styrofoam back then, we 
had glass jugs or little cedar wooden buoys between the 
groundlines on the sinking rope.
    Now, that was before float rope ever came into existence, 
so it did not work for those guys back then. How is it going to 
work for us?
    Every boat represented in this room here today has got a 
$500 to $700 expense before he even takes the rope off the bow 
in the morning. Before that boat goes out around the head, you 
have got at least $500 to $700 in bait and fuel and a sternman 
before he even gaffs his first buoy.
    This is just way too expensive, and it is not going to 
work. You are going to have accidents, it is going to be a 
mess.
    Like I say, we get all psyched up thinking, ah, well, we 
have complied, and then here we are again, what has it been, 
since The Grand Auditorium, how many years? Before Governor 
Baldacci was the Governor he told the Feds that day, you are in 
the State of Maine now. You go home.
    Thanks.
    Senator Snowe. Thank you.

            STATEMENT OF TERRY BEAULIEU, LOBSTERMAN

    Mr. Beaulieu. Hello. Thank you for the opportunity to 
speak. I'm Terry Beaulieu. I fish over at Matinicus Island.
    I cite a lot of the things that you have already heard 
about the sinking rope. It is going to be a problem, a real 
problem out there. The further east you go, it is going to 
become more of a problem.
    I have been on draggers all up and down the coast, and the 
further you go to the east, the sharper the bottom gets.
    One of my big concerns is for our community. We are the 
furthest offshore community in the State of Maine. We are 
totally outside of that exemption line that is crossed off 
there. So no matter whether the state plan goes through, if the 
state plan goes through, I have got no more singles. If the 
neutral buoyant rope doesn't work, I cannot fish singles, I 
cannot fish neutral buoyant rope. Guess what? That is the only 
industry we have got on that island. It will cease to exist as 
it is. That's the death of our community right there. You are 
holding it your hands right now. So that is my number one 
reason for being here and speaking. A couple other.
    The other thing is expense-wise, this is going to be 
expensive for everybody. Anybody that is involved with an 
island knows that there is a lot more expense to living on an 
island, so this is just one more thing heaped on to us in an 
already bad time. I know you have already heard it, the fishing 
is down, the expenses are up. When it comes to the island, the 
expenses are really up. It costs us more for heating oil. Every 
facet of living out there costs. Now they are going to throw 
one more thing.
    Just everything you are doing with this is going in the 
wrong direction. I feel like the whole thing started right off 
with a knee-jerk reaction on the fishermen because that was the 
easiest place to start. Instead, they talk about a 
collaborative effort, it has never been a collaborative effort 
because they have never given any real weight to what we had to 
say. You want collaborative effort, you come in, you meet me 
partway. Partway isn't saying, well, I will never say vertical 
lines, that we want to eliminate vertical lines.
    There is an understanding there but that is not 
collaborative effort. That is not working with somebody. 
Working with somebody is meeting them partway and finding that 
place.
    I don't think that the effort has been made in that 
direction. I think that the fishermen have done things. I think 
the fishermen are willing to use common sense, but you are 
asking us to go fix something that is not broken to begin with, 
in the process it is going to cost us our livelihoods, our 
communities, our families. I do not know if I am going to go to 
work, if this goes through the way it is.
    Senator Snowe. How many on Matinicus are involved in the 
lobster industry?
    Mr. Beaulieu. There are probably about 35 full-time boats 
there, something like that.
    Senator Snowe. Thank you. Thank you. Next.

        STATEMENT OF ROBERT S. BAINES, PRESIDENT, SPRUCE

       HEAD CO-OP; CHAIRMAN, ADVISORY COUNCIL, DEPARTMENT

        OF MARINE RESOURCES, STATE OF MAINE; LOBSTERMAN

    Mr. Baines. Senator Snowe, good morning, good afternoon. I 
do not know where we are right now.
    My name is Bob Baines. I am a lobsterman from Spruce Head. 
I chair DMR's advisory council, as well as president of Spruce 
Head Co-Op.
    I have been a commercial fisherman for over 30 years, and 
I, like just about everyone, every fisherman in this room, has 
never seen a right whale.
    Earlier it was mentioned, I heard the word collaboration. 
Last year Ms. Cornish had the opportunity to go out and haul 
with me, and I believe it was a fairly nice summer day, and she 
had a glimpse of what the lobster fishery looks like, and it 
was only a glimpse, but I give her credit for wanting to come 
out.
    I think the environmental community really needs to do more 
of that to really understand the working realities involved in 
the lobster industry.
    Mr. Lecky said earlier that he seems to think that sinking 
rope will work on hard bottom. He might see that in his office, 
but from my office it will not work on hard bottom. That is 
understood.
    National Marine Fisheries Service did not use the most up-
to-date analysis to locate the exemption line. There is more 
information available to them; for whatever reason they chose 
not to use it.
    MLA presented maps, which look at where the whales are by 
year and by month and in relation to where lobster fishery 
takes place.
    There are very few whales inside the 50 fathom curve. The 
step curve marks a change in bottom along the coast of Maine. 
Vicky mentioned earlier that close to the shore of Florida they 
see right whales. We do not see right whales inshore on the 
coast of Maine. I think there is a disconnect there.
    They are seen down there. Why are they not seen here? I 
think the answer probably is because they do not come close to 
the shore in the State of Maine.
    The lobster industry feels so strongly about the exemption 
line and where it is located. We have asked DMR to raise the 
trap tag fees, which they have, 10 cents to further research, 
and hopefully that will help show where the line should be.
    The exemption line goes through the bottom that I fish, as 
well as probably a lot of the guys in this room. If you are a 
full-time lobsterman, you are probably fishing on both sides of 
that line. There is a lot of shoal, hard bottom outside the 
exemption line in mid-coast Maine.
    The only way you can fish that bottom if this rule goes 
into effect is with single traps, more vertical lines in the 
water. I do not think that is what anyone really wants to see.
    Bottom line project, the rope buyback. Only $2 million was 
funded. You heard earlier that we are going to need a whole lot 
more money than that.
    Lobstermen are nervous to participate in this program, let 
me tell you why. Many believe that participation is an 
endorsement of the whale rule and the exemption line. The first 
time they sent out a flyer, I did not sign up for that very 
reason. I still held out hope that we might be able to do 
something, and I did not want to support a program that went 
against my beliefs.
    Many do not know what rope to purchase and whether it will 
meet NMFS guidelines. You heard about that earlier. My choice 
would be, if I do get money from this project, I would like to 
buy some low-profile rope, not sink rope, but how are we going 
to do that?
    Where I fish, as most guys, I fish on both sides of the 
line. So I want to keep my float rope when I fish inside the 
line. So I will have no rope to trade in, so that means totally 
out of my pocket. I won't have the ability to trade in float 
rope because I am going to need it still.
    Many guys are missing out on the program because there is 
still too much up in the air, so they are not participating. 
The cost, you heard earlier, John Drouin spoke very well, it is 
big. We are talking thousands of tens of thousands of dollars 
per fisherman per year. Our bottom line is going down. To ask 
the lobster community to buy into this, it is a very tough pill 
to swallow.
    My overall frustration in complying with the rule is not 
only the huge costs, but it will have a negligible benefit to 
the right whale in the inshore area. The offshore area where 
the whales transit the Gulf of Maine, is gear out there? Things 
need to be done out there. But the inshore/near shore area, 
that is a different story, and I think more research needs to 
be done, more data has to be brought into the picture so we can 
really put the exemption line where it will do some good for 
both the fisherman and the whales both. Thank you.
    Senator Snowe. Thank you.

          STATEMENT OF NICK LEMIEUX, VICE PRESIDENT, 
               DOWNEAST LOBSTERMEN'S ASSOCIATION

    Mr. Lemieux. Senator Snowe, thank you. Nick Lemieux from 
Cutler, Maine. I am the Vice President of Downeast Lobstermen's 
Association.
    I issued you a statement, so it is in your folder.
    Just to touch on a few key points, in Down East Maine we 
deal with a great deal of tide. We need a rope that is the same 
as what we have right now, or has the same characteristics.
    Many people before me touched on a lot of the issues that 
are going to be brought up with the rope and such, but the 
fishermen and myself, we have made a lot of sacrifices up to 
this point, and we are willing to make more; but we need a 
usable product that is going work and is going to hold up.
    We are whale friendly. We want to be. That is our goal; but 
we also want to be able to maintain an industry which we have 
strived and really worked to uphold.
    John Drouin alluded to messes and entanglement that we deal 
with. I recovered that fisherman's thumb the next day. We have 
seen how things can happen, and we just want--we want to work 
together but it is not a two-sided street. It seems like it is 
awful one-sided, so, I just hope that you consider that. Thank 
you.
    [The prepared statement of Mr. Lemieux follows:]

          Prepared Statement of Nick Lemieux, Vice President, 
                   Downeast Lobstermen's Association

    I would like to introduce myself. I'm Nick Lemieux, Vice President 
of the Down East Lobstermen's Association. Thank you for taking the 
time out of your busy schedule to come and listen to the Maine lobster 
fisherman on this proposed sinking groundline rule.
    This proposed rule will devastate my ability to fish and support my 
family. Speaking for myself and my association, we fish along the most 
rugged bottom on the eastern seaboard, more specifically Down East 
Maine. Due to the strong tides and sharp rocky bottom that I fish, it 
is necessary to continue to use the float rope. I have participated in 
every type of rope testing projects in my area. All of the ropes used 
do not last, are unsafe, chafe, and get caught on the bottom. We need 
more time and better products to use before we are forced to use sink 
rope that was never designed to be on the bottom.
    The Maine lobster fishermen are the best protection for the 
whales--not the enemy. Think of the millions of hours we spend on the 
ocean. Fisherman from each harbor have taken disentanglement training 
to better protect these whales, yet I have never had to go use my 
training to assist in an entanglement.
    In closing, I want to touch on a few key points. Float rope should 
remain used inside the 50-fathom curve. I have fished for 26 years and 
have never seen a right whale. The sink rope won't work because it has 
not had enough time to be tested to achieve a good balance when 
compared to the current float rope. More time is needed before we are 
pushed into investing in a product that can not stand the harsh 
environment that exists Down East. The up front cost and annual rope 
replacement cost will put many of my fellow fisherman out of business. 
Lobstering for me has been a long standing tradition. I'm a fourth-
generation lobsterman with two boys who someday may choose to become 
lobstermen. Our small communities along the coast depend on lobstering 
and this needed support from yourself.

    Senator Snowe. Thank you. I appreciate it. Thank you.

           STATEMENT OF CLIFFORD JOHNSON, LOBSTERMAN

    Mr. Johnson. Clifford Johnson from Jonesport. I remember 
back in, I don't know, a year or two we went to Ellsworth at 
this same meeting about all the float rope and this and that. 
One point was brought up about the red tracer.
    We live in Maine; we don't live in Florida. We are bound by 
the same mark as Florida's got. She comments on whales diving 
off the shore. I have only been in this business for 15 years. 
I never want to do nothing else, but you are pushing all the 
young people into another, into something, what are we going to 
do?
    We go back to school for what? Sit on the board like this 
gentleman and take people's livelihoods away from them? What do 
we do?
    Have you got an answer for that? Because I don't. Or do you 
care? Because your paycheck is going to be the same no matter 
what you do, right?
    The only ones that are going to suffer are the fishermen, 
nobody else.
    These whales have not been hunted for a hundred years. They 
are not reproducing. Is that our fault? You talk about 
scientific, scientific this, that. You are not going to save 
Mother Nature. She is going to do what she wants to do.
    Thanks.

              STATEMENT OF HON. STEVE ROBBINS III,

               MANAGER, STONINGTON LOBSTER CO-OP;

              SELECTMAN, TOWN OF STONINGTON, MAINE

    Mr. Robbins. Senator Snowe, my name is Steve Robbins III. I 
am from Stonington, Maine, and I am presently Manager of the 
Stonington Lobster Co-Op and also a selectman for the Town of 
Stonington.
    I strongly concur with the comments you heard today from 
Mr. Cousens, Mr. Larrabee before. Stonington/Deer Isle and the 
island of Deer Isle houses probably roughly 300 fishermen. The 
economic impact which has been outlined in great detail here 
really is a death knell to a lot of people.
    It is the upfront costs, it is the initial cost of the 
gear, it is all the hidden costs, I think, that cannot really 
be estimated or put to paper. I'm a fifth-generation fisherman. 
Those types of things, those hidden costs, those things that 
cannot be accounted for, that is what really scares people to 
death.
    In my area, it is the geography of the bottom on which 
people fish, and it is highly dynamic. It varies so greatly 
from bay to bay up and down the coast. You really cannot alter 
the way people rig their gear, in which area they fish, without 
having some type of resource that is negative to them. That is 
just an operational feature.
    I have been involved with the process for a long, long 
time; oftentimes it is hard to find the words, but really the 
people rig their gear, fish the way they do, it is highly 
variable. They do it for a reason now because it works to the 
greatest extent possible. That should not be confused with the 
fact that it works all the time.
    Cost, if it was not a marine mammal issue, just the cost of 
doing business alone is really going to cripple people. It 
really is because you look at all these self-employed people 
that are involved along the coast, their operating expenses 
alone are up by more than a third.
    I think it is safe to assume probably in the next couple of 
years you are really not going to be able to see people along 
the coast being able to sustain it. And we, in Stonington and 
on Deer Isle, we don't have the alternative opportunities for 
employment. We really do not.
    I do have a couple pointed suggestions. I have attended 
several of the Atlantic Large Whale Take Reduction team 
meetings over the years. The ones that I have been to, probably 
the closest one was in Portsmouth at one time. I have also been 
to Baltimore, Virginia, on and on and on.
    It would seem to me, and I think these folks here in the 
audience would concur, for the spring meeting of the Take 
Reduction Team upcoming, my suggestion to you would be if we 
could make a formal request to the agency to have this spring's 
meeting here if you want to, or at least somewhere's along the 
coast of Maine where at least it is a somewhat reasonable 
chance for these people to attend.
    I would say the Take Reduction Team is dysfunctional at 
best. I do not want to point out the negatives involved, but 
you think of it, 60 individuals at a table and all varying 
interests. Over the years, I think a very large group of self-
employed individuals, it is hard to get them to agree on 
anything outside of this issue.
    So I just hope you take that into account. We look forward 
to participating the best we can.
    Senator Snowe. How are the decisions made with respect to 
where these meetings are located?
    That's an interesting point he makes.
    Mr. Lecky. He does, and I will definitely relay that. I 
think it is basically up to the team and coordinators to decide 
what is best. It is a huge team; we try to cover the range.
    Senator Snowe. Given the enormity of this issue to this 
industry and to this state, that might be very useful to make 
it more accessible to have a chance to see, to observe this 
process and to have the ability to speak or whatever to be part 
of it. That might be an interesting solution as well.
    Would you put it forward? I just think it is a very good 
idea.
    Mr. Robbins. Follow-up comment, if I could.
    I believe it was Ms. Cornish who said, made the statement 
earlier, that there are currently 350 North Atlantic right 
whales in existence today. My understanding is that figure is 
not correct.
    I have also attended the Consortium meetings down in New 
Bedford over the years from time to time, not the most recent 
one, but my understanding is the current population figures are 
closer to like 429 or something like that. Anybody can correct 
me. It has been a while since I paid attention.
    The only reason I bring it up is because in more recent 
years, in the past 10 years, you have seen calving rates in 
North Atlantic right whales, years go by, and 22, 17, 32. I 
understand that there is a 5-year waiting period for them to be 
re-sighted and reintroduced into the populations.
    My comments really do not apply too much in a sense because 
you work under a PBR of zero or a level approaching zero in 
terms of mortality. It would be helpful to me if somebody could 
clarify that, the population status.
    Senator Snowe. Ms. Cornish?
    Ms. Cornish. Thank you. I tried to nail down that number as 
well, but I think there is a lot of uncertainty around the 
population numbers and the population range. I probably should 
have said about 350 because that is what we talk about in our 
work. The range goes from 300, 290 or so I believe is the 
minimum estimate, up to 400 or more as you noted.
    If we step back from that for a moment, I think the basic 
issue is that there are not that many whales out there, whether 
it is 350 or 400. It is an abysmally low number when you think 
about a whale that needs much larger numbers in order to really 
recover.
    The models that have been prepared look at an extinction 
rate of about 200 years. So 200 years from now there is a 
pretty high likelihood that this whale species will go extinct 
unless we take some action to reverse the course of its demise.
    So whether it is 300 or 400, I think we need to look long 
term and say, what actions do we need to take now to prevent 
that extinction.
    Mr. Robbins. Could I follow up to that?
    Senator Snowe. Yes.
    Mr. Robbins. So earlier on in the testimony when it was 
stated that there is 75 percent of those in existence, that 
clarification is consistent with gear entanglement. Well, that 
would fluctuate quite a lot depending on whether there were 300 
animals or 429 animals. I am all done.
    Senator Snowe. Yes, Mr. Lecky, do you want to respond?
    Mr. Lecky. I believe it is 75 percent of the known animals, 
not 75 percent of all of the animals. If you look at the photo 
identification databases that were mentioned earlier, it is a 
high proportion.
    This is an area where we need to invest. I think the proof 
is in the pudding for all of conservation measures, whether 
they be ship-strike reduction strategies or fishery 
interaction, what is the population response?
    We really do not have good metrics on how fast the 
population grows. These are slow-growing animals. It takes a 
long time for the population to respond. I think to your 
question about 350 or 429, those aren't statistically different 
estimates; and so without better, more precise information on 
abundance and trends over time, it is hard to distinguish that. 
That is a priority research area.
    Senator Snowe. Thank you. Thank you very much.
    Anybody else?

               STATEMENT OF JAY SMITH, LOBSTERMAN

    Mr. Smith. Thank you, Senator Snowe, for being here. It is 
very informative. One thing that I would like to point out, my 
name is Jay Smith, and I fish in the mid-coast area.
    The study, I have never seen much on it, but from what I 
have observed and people have talked, a lot of these 
entanglements, it is not gear that is fished by people in this 
room; it is gear from either Canada or outside by the looks of 
the ropes and the buoys and the gear that is on there. I think 
that is something that really has to be taken into 
consideration.
    Thank you.
    Senator Snowe. Do they ever make any determinations in 
terms of when they find a whale entangled as to the source of 
that gear?
    Ms. Cornish. I can just say that a lot more effort needs to 
go into the area of really trying to bring some of that gear 
out and have folks to look at it and try to identify it.
    Senator Snowe. Exactly. I think that is very important.
    Yes.
    Mr. Lecky. We do try and identify gear when it is 
recovered. Oftentimes it is difficult to discern what fishery 
it is from. It is just a length of rope. It is hard to tell 
whether it was even from a pot fishery or a gillnet fishery.
    So we do make efforts. That is the rationale behind the 
marking requirement to give us better information. You have a 
chance to recover gear and hopefully find some distinguishing 
marks to help us with that.
    Senator Snowe. Commissioner Lapointe?
    Mr. Lapointe. Senator, we met with some folks in the 
lobster industry and with Vicki and Scott Kraus, and this came 
up as an issue, and as part of the department's effort, we 
volunteered to sponsor a meeting.
    Apparently a gear warehouse, is it in Rhode Island, so they 
get gear from entangled animals and they put it in a cardboard 
box and they label it.
    They have not gone down, my understanding is, gotten a 
bunch of people together and said, let's sit down and tease it 
apart as best you can. If it is a hunk of rope 4 feet long, 
they will not be able to, but that is one of the things we had 
intended to do just so we can get more specific information.
    Senator Snowe. I think it is a great idea. It is like Cold 
Case. Let's figure it out. At least it is a great start to get 
to the source of the problem and just see who you can identify 
and who may be responsible.
    It is very important. Can that take place sooner rather 
than later?
    Mr. Lecky. Well, we actually have a gear technology program 
at the National Marine Fisheries Service, and we have a fair 
number of folks that are familiar with all kinds of different 
fishing gear and jobs are developed, new fishing technologies 
to protect species. They look at this gear when it comes in. We 
try very hard to define what fishery it is from. There is an 
abundance of effort, if you will, to do that already.
    Mr. Robbins. I think they could do more by traveling up and 
down the coast and talking to people in different harbors in 
Maine, and you cannot tell us what is not our gear. Maine 
people can tell you. It would be pretty easy to do.
    Senator Snowe. You have distinguishing marks? Someone 
mentioned that earlier.
    Mr. Robbins. Well, distinguishing gear type compared to 
like Canadian gear or offshore gear. I do not know how much of 
that stuff, but what I have seen of pictures and people I have 
talked to and pictures I have seen, I would like to see what is 
on that whale in Florida. A lot of it you can determine that it 
is not our gear.
    Senator Snowe. So you would need a lot of it to determine?
    Mr. Robbins. No, you would not. You could go to Cutler. I 
know they use a bigger line down there than the rest of the 
state, but I am pretty familiar with a good part of the state, 
and it is a lot different than what is used outside or even 
outside Cape Cod and so forth.
    Thank you.
    Senator Snowe. Thank you. Anybody else before we adjourn 
this hearing? Yes, sir.
    I want to give people an opportunity. I know you have been 
very patient and I appreciate it, but this is so critical. The 
more participation out here, the better.

         STATEMENT OF ROBBIE GRAY, LOBSTER FISHERMAN, 
                        DEER ISLE, MAINE

    Mr. Gray. Thank you, Senator Snowe. I have given you three 
documents that I brought, one for myself as a lobster 
fisherman. I know these ropes will not work, I have tried them 
myself. You have heard a lot of the issues.
    One issue that I would like to have you think about, the 
Federal Government, I am also President of the Island Food 
Pantry in Stonington, Maine.
    A lot of our donations come from fishermen. If you wipe out 
the community, are you going to help us supply these 
communities with food? I think it needs to be looked into.
    The other one was from a business that my wife works for 
and somewhat same concerns. What is going to happen to the 
community? If these regulations go through, it is going to be 
devastating. What is it going to do, not just to the lobster 
fisheries, but a lot of people like the restaurants, the gas 
stations. We are all just little businesses, and we are all 
connected. I think that is what we need to do with this whale 
issue and the fishing community.
    They have not got the data. They say they have not. Not 
accurate data, but yet they are forcing it on to us.
    Thank you.
    [The prepared statement of Mr. Gray follows:]

 Prepared Statement of Robbie Gray, Lobster Fisherman, Deer Isle, Maine
    The whaling issue is going to be very hard on the State of Maine 
lobster fisheries. With the new Large Whale Take Reduction Plan ruling 
we will have to use rope that does not work on our rocky, jagged 
bottom. The tides will make the rope in such a way that it snags onto 
our rocky bottom which will result in a loss of gear. I have tried some 
of this proposed rope in years past and have lost several traps. And 
the reason this rope snags down is that the tide works it around the 
rocks.
    So, I have thought of a new idea on the issue. Put a new set of 
lines further out than the ruling does, (see Exhibit A). North of the 
red line will be exempt. South of the red line will be the federally 
mandated whale rules. Also, use the existing Dynamic Area Management 
(DAM) zones.
    This will give the state and Federal Government time to do the 
necessary research to find out that we may not need such hard 
regulations.
    Thank you.

                               Exhibit A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                             Island Pantry,
                                   Deer Isle, ME, February 16, 2008
Hon. Olympia Snowe,
U.S. Senate Committee on Commerce, Science, and Transportation,
Subcommittee on Oceans, Atmosphere, Fisheries and Coast Guard,
Washington, DC.

Dear Senator Snowe,

    I wish to write to you concerning the impact that the Large Whale 
Take Reduction Plan will have on our Island community and specifically 
how it will affect what we do here at the local food pantry. Because we 
serve those who need help feeding their families, we personally see 
every week people who have been affected by tough times. Due in part to 
the greatly increased fuel prices we all have seen, which affect more 
than just fuel, our local fishermen have had a very tough time making 
any kind of profit. This is reflected in the increase of people we 
serve each month over last year. This new Whale Take rule will cause an 
even greater hardship on the fishing industry and because it is the 
main driving force behind our whole Island economy, it will negatively 
affect virtually everyone who lives here. For us at the Pantry, it will 
mean more families to try to feed and that translates into having to 
buy more food, more often. We run strictly on donations from our 
neighbors and with difficult economic times those donations will 
dwindle. Can the Federal Government step up and fill that gap for us, 
in a time when it seems to be the norm to slash programs that help 
those truly in need? Our community is full of proud, hard working 
people who want nothing more than to work at an honest livelihood for 
an honest wage with a chance to make a living for their families. 
Please consider this as you deliberate on this new ruling and give us a 
chance to maintain our Island community.
                                               Robbie Gray,
                                                         President.
                                 ______
                                 
    Joint Prepared Statement of Travis Dennison, Arthur Pettegrow, 
                          and Norbert Lemieux

    Maine lobster fisherman have been whale friendly. They are the 
eyes, and ears for endangered whales. Many of the Maine lobstermen have 
taken whale disentanglement courses to assist in case of an entangled 
whale.
    Maine commercial lobster fishermen have been using the best types 
of floating lines for groundlines between their traps for over 35 
years. These floating lines help reduce catching on rocks or 
obstructions on hard bottom, and help reduce chafing on these 
groundlines.
    These are some of the reasons that we oppose ASMFC mandated change 
to low profile, or sink rope for groundlines in October of 2008.
    Safety is one of the main reasons that the proposed lines won't 
work in Down East Maine. These lines will catch under rocks, or 
obstructions, because they lie on the bottom instead of floating up 
when the tide slacks up. When the traps are hauled up to the boat, the 
lines that are caught will cause higher strains on the lines than 
usual, which can cause damage to the equipment, or injury to the 
operator.
    Another reason that these lines don't work is that they chafe while 
sliding along the hard bottom. There have been many different types of 
low profile groundlines, and sink rope tried by many lobstermen over 
the past few years, and there has not been any one of these that can 
replace the types of groundlines that we are using presently.
    The expense of changing to these new lines has been estimated from 
$8,000 to $12,000 per fisherman. These lines will probably have to be 
changed each year where the floating lines used in the past were good 
for 5 to 8 years.
    There are lots of good areas on hard bottom that have been fished 
for years which won't be able to be fished anymore if we are forced to 
change the lines that we are using presently. These areas are where 
most of the spring and early summer lobsters are caught.
    There would be a large increase in gear loss due to chafed off, or 
parted off groundlines as a result of these new lines. This increased 
cost will certainly be enough to put some of the lobster fisherman out 
of business.
    Please help us to delay the implementation date until a suitable 
line has been developed and tested. Thank you.

    Senator Snowe. It effects many communities, individuals, 
and families, and it is obvious from all those who have 
traveled here far and wide in the state today to present this 
information I think demonstrates the breadth of concerns.
    Anyone else before we adjourn? I want to make sure 
everybody has an opportunity to say anything before we 
conclude.

            STATEMENT OF ALISON HOLMQUIST, MANAGER, 
                     DOWNEAST FISHING GEAR

    Ms. Holmquist. I wasn't going to speak today. My name is 
Alison Holmquist. I am the manager of my family's business. We 
sell lobster rope and lobster traps to many of these guys that 
you see here today.
    One of the questions that I am getting from a lot of my 
customers right now is, what is the ASMFC rope? What do they 
need? I tell them, I don't have the answer. There is no answer.
    I know what they cannot use, but I cannot tell them what 
they can use.
    I am not seeing anything from my manufacturers, they are 
not getting answers as to what they need to make. They said 
there are various options, but they do not know what the 
various guys are going to need based on their geographic area.
    Everybody is different. Every harbor will be different. 
These guys have a $10,000 investment. What about me? I sell to 
500 of these guys. I cannot guess what they are going to buy.
    My manufacturer sells to ten people like me. He does not 
know what anybody is going to buy. So there may be some sort of 
certification that I have heard said from NMFS that would make 
this work for these guys.
    There is nothing that can make these guys come in and buy 
or place an order with me right now because they don't have the 
answer. I have lots of stuff that I know does not work and it 
will work for this guy but not the next guy.
    The only information I get comes from Patrice. She sends e-
mails to me, and that is the only information that ever comes. 
It comes from Patrice doing the work.
    There is nothing from the government at all that is coming 
into people like me who have to supply everybody, so the 
communication has to really open up with everyone involved, and 
I thank Patrice for the help that I get from the e-mails.
    That is all I have to say.
    Senator Snowe. I appreciate it. So you have a lot of 
inquiries from your customers?
    Ms. Holmquist. Well, a lot come in and they expect me to be 
in the know, which I try to be in the know, but there is 
nothing that I can tell them that this is what you need.
    I think somebody honestly would place an order if they knew 
what it was, or at least would buy a coil and try it out and 
see how it is going to work for them. There is nothing.
    Senator Snowe. The lack of information, no information in 
the communication.
    Ms. Holmquist. Correct.
    Senator Snowe. No certainty, that's clear.
    Yes, Ms. McCarron.
    Ms. McCarron. We have heard this concern obviously from so 
many people, and there is no real answer, but the Maine 
Lobstermen's Association is making an attempt to try to help 
educate fishermen.
    At the Maine Fishermen's Forum, one of the seminars that we 
have organized is Sinking Rope 101, and we have invited an 
independent rope, sort of engineer, who is going to go through 
sort of basic rope construction and how durability relates to 
cost, and I just sort of lay that out.
    We have also invited some of the major rope manufacturers 
to actually bring samples of the rope and talk about the 
process that they have used, and we have also asked them each 
to address, you know, ``hey, Joe Rope Manufacturer, how are you 
going to ensure that a lobsterman purchasing your rope is 
purchasing compliant rope?''
    So, it is just a scratch of the surface, but we have major 
concerns that our lobstermen are really not educated consumers, 
and they really do not know how to proceed with this.
    So hopefully this will begin to lay it out.
    Senator Snowe. And that is government's responsibility, 
too, wouldn't you say, ultimately. The government is issuing 
these regulations, you need to know what is compliant and not 
compliant if you are subject to sanctions and penalties.
    I think that is an issue here as well to be considered by 
the Take Reduction Team. I think all the mentions of this 
question is abundantly clear in all spheres.
    But certainly, that is the case. Who would want to step 
forward and make that kind of investment not knowing whether or 
not it is going to be compliant or not, let alone whether it is 
workable and whether it is safe enough, whether it will achieve 
the goal of protecting the whales?
    I think there are a lot of unanswered questions. I think 
they are obvious here today, and that is something that has got 
to be taken into account, I think by the agency and the Take 
Reduction Team and going back to the drawing board in some way 
to sketch this out. The kind of input that has been given here 
today is so useful because it is practical, they are on the 
front lines, and it certainly has to be regarded in going 
forward. And I hope some way we can find an effective 
cooperative, collaborative solution that does represent a win/
win. Protecting the whale, protecting the industry.
    It bothered me a little bit, the economic impact statement, 
to say the least, to suggest that somehow we are going to make 
assumptions that some people may quit the industry as a result 
of these regulations.
    We should start to say, ``how do we preserve the industry 
and the whale?'' That is the goal, and I believe it is 
achievable just listening here today. It seems to draw from so 
many ideas and thoughts and going back and sketching this out 
how that will occur.
    Anybody else? Do you want to say something, sir?
    Participant. I am not a speaker. Thank you, Senator Snowe, 
for coming. I would like to know what the red tracer in the 
rope is for.
    Mr. Lecky. Are you talking about the red mark that is 
required in the rope?
    Participant. That is my question.
    Mr. Lecky. The marking on the rope is designed to provide 
us with the capability of identifying the area the fishery rope 
comes from in the event we are able to recover it from an 
entangled animal.
    Participant. OK. How far does this requirement go? Where 
does it start? Where does it stop?
    Mr. Lecky. Well, the provisions for marking are described 
in the rule. It covers the whole fisheries. Different areas 
have different colors.
    Participant. They do?
    Mr. Lecky. Yes. I do not have them memorized.
    Participant. I asked the same question over in Machias one 
time, and the guy told me that it covered from the Canadian 
border to Florida.
    Mr. Lecky. Well, the marking requirement for gear is 
widespread. It is one of the broad-based marking requirements; 
but there are different marking requirements for different 
fisheries so that we can better distinguish when we recover 
gear where it came from.
    Participant. You are not answering my question. I do not 
think you are answering a lot of people's questions.
    We have a red tracer, and you get a whale that is wound up 
in rope, if he does not have a red tracer on him, where does it 
comes from?
    And if that tracer, the same color, is from Florida to the 
Canadian border, how are you going to tell where it come from?
    Mr. Lecky. Well, it is not the same color from Florida to 
the Canadian border.
    Participant. Well, that is what I was told in Machias, so 
that is why I asked the question.
    You said you could not tell where it came from or what 
fishery it come from. I will tell you this, too, the more 
whales you have out there, the more ship strikes you are going 
to have, so figure that one in, too.
    Senator Snowe. Certainly, the question on all of this as 
well is that both regulations at the end of the day to be going 
forward regarding ship strikes and hopefully resolving this 
regulation in a different way, but they both should be going 
forward, not just selecting the lobster industry to bear the 
disproportionate burden.
    I think that is the issue here, the fairness of it all. 
They tell us it is at OMB, but the fact is, that is where it is 
regarding ship strikes, and we know that they bear tremendous 
responsibility as well as for the killing of the right whales 
if you look at the numbers over the years.
    Mr. Lecky. I would like to thank you for your efforts to 
try and bust that rule.
    Senator Snowe. I will do everything I can.
    Mr. Lecky. We do think that it is a very important rule to 
get out. We think it will save whales.
    We have done a number of other things with ship strikes, so 
I thought it might be worth just to elucidate, we have modified 
the approach routes into Boston Harbor through areas that will 
have reduction in the risk and likewise, we have modified and 
put on charts corridors for approaching ports in the Southeast 
to reduce chances of encounters down there as well.
    We have participated with the Coast Guard in the Port 
Access Route Study that will look at further modifications to 
the routes through the Great South Channels and considerations 
of Areas To Be Avoided.
    Both of those are being reviewed now for the potential for 
presenting them to the International Maritime Organization for 
adoption. Canada is involved in some of our bilateral work on 
reducing ship strikes.
    So we are paying attention to that issue as well and 
working very hard to reduce mortality there.
    Senator Snowe. Yes, sir, do you have a question before we 
adjourn? Yes, go ahead.

           STATEMENT OF STANLEY SERGEANT, LOBSTERMAN

    Mr. Sergeant. Thank you for giving me a chance to speak. My 
name is Stanley Sergeant from Milbridge, Maine.
    I fish trawls 9 months out of the year. I fish most of my 
gear in Federal waters.
    The first thing is, I am going to be a little self-centered 
on this one, in this ruling on the rope alone is, financially 
where I fish and how I fish, is a lot more than $10,000. I 
would not be standing up and complaining if it was. I would 
just comply and that is it.
    Where we fish trawls, the distance between the traps and 
the depth of the water we fish, we have had two gangs of rope. 
We come inside, we fish pairs, we have to shorten our spreaders 
up.
    So we ultimately end up with two gangs of rope. I have 
enough rope to go from here to Milbridge, and all of it has got 
to be replaced.
    We, on our groundlines, we use 1/2-inch rope. We use 1/2-
inch poly steel; now we are going to have to convert to 
something else.
    This rope is very heavy. The rope that we have to convert 
to is not neutrally buoyant or sink rope, it is 86 pounds a 
coil. To re-rig 800 traps on trawls, and this is only half of 
my gear, only half of the rope that I'm going to end up buying 
here, is 10,000 pounds.
    I have sent letters to the National Marine Fisheries 
Service, Olympia Snowe's office, Mrs. Cornish and explained in 
great detail right to the dollar what this is going to cost.
    At $2.25 a pound it does not take a rocket scientist to 
come up, it is going to be $22,000, $23,000 just for the rope 
sitting in the coil. We have not put it together yet. We have 
not done anything to it yet.
    This is going to be a huge expense, and you know we tried 
all kinds of rope, it is not going to last. This is going to be 
a never-ending thing.
    It is an unbelievable financial burden. The economic impact 
is staggering. The environmental impact of this is just as bad 
because you are going to lose traps and the ever important now 
40-cent tag is worth more than the $100-trap that it is hooked 
to, is gone, it cannot be replaced. You are going to have all 
this gear on the bottom.
    I know you never had the privilege of trying to grapple 
back lobster traps with sink rope, but it sucks. You have to 
have more than just patience, I can tell you that.
    The environmental impact of this is going to be 
unbelievable with the lost gear. You are not going to fish it 
back.
    In my case, where I fish two gangs of rope, we bring our 
gear in. That is another whole set of expenses because the rope 
diameter decreases in size. It is same set of problems all over 
again.
    The time-frame of this is atrocious, and the physical 
demands on even building this stuff is unbelievable. You do not 
just whip this up in a couple of weeks.
    So in my letters I have invited one of them down to my 
house, and you can work right with us. You want to do it, no 
problem. We will show you how it is done, and you can join the 
fun, and bring a blank check because you will end up buying the 
stuff that we end up losing and we will see how you like it.
    That is my perspective on the environmental impact and the 
economic impact. The environmental impact, what this sink rope 
does to the bottom, is atrocious.
    We have critical bottom habitat for everything. No matter 
where you are, anywhere on the coast of Maine, and when you 
drive sink rope on bottom and you, I do not care how good you 
are, eventually you are going to be pulling that gear toward 
you, and you are dragging that, and you are cutting ropes 
across bottom. You are going to get a lot of things on that 
rope and in that rope you do not want, which destroys habitat, 
and nobody wants that.
    I mean, you are creating a lot more problems by going 
forward with this as it is written. Down the road, as usual, 
down the road you are going to find out that, and there are 
going to be a bunch of us saying, told you so, but we are still 
footing the bill. We still have to deal with it. We still have 
to be in compliance with it, because it is our livelihoods and 
our communities that are once being held in the balance, and 
that balance is not level at all by far, it is just not level 
at all.
    If there was this much interaction with whales where they 
were having a death of a lot of entanglements and stuff in the 
Down East area, there would be no whales. There would not be.
    They would have been gone long before that. We have taken a 
lot of gear out of water from trap reductions, and we have 
reduced vertical lines by thousands. We are not going to get 
any credit for that. I have 800 traps, that is 400 pair of 
traps inside. They go on trawls. I am going to go from 400 
vertical lines to 80 vertical lines. Do we get any credit for 
that? No.
    You have to take traps out of the water so you can reduce 
vertical lines. Well, God, I went from 8 from that to 80, but 
that is not going to count on anybody's equation.
    You save the whales in there, they are transversing from 
the Bay of Fundy down across, they go down by Jordan Basin 
right now. I think they are over toward Jeffrey's, there.
    They go back and forth there every winter. There is gear 
there. There is gear there year-round. Have they been 
entangled? No.
    They have flyovers every day, every day that is fit to fly 
over and track these whales, you have not seen any entanglement 
with the gear that has been fished there.
    The same thing is up in our area. The entanglements are not 
there. If you have 10,000 vertical lanes and you have, we will 
just say, two entanglements, it is very unfortunate. Nobody 
wants to see that. Nobody does.
    I see the whales are doing a hell of a job. They are doing 
a hell of a lot better job than we are getting around the gear 
sometimes, right?
    Run the numbers. You guys love statistics. You like graphs 
and everything else, run the numbers. Look at the vertical 
lines, look at the entanglements. Look at the percentages. You 
have about as much.
    Yes, it can happen. Yes, it can happen. Yes, and we can 
have gold bricks fall out right on the floor right here for 
everybody to take home, but I would not get ready to jump on 
that.
    They do a really good job of getting around the gear, and 
we have made huge efforts in reducing our groundlines. As far 
as numbers of traps in the water, they have been taken away 
from us. All kinds of reductions have come down through from 
state and Federal things.
    Just to add, and this is all about me, add insult to 
injury, this is one more thing piled on top of it.
    Economically, financially, environmentally, it is a very 
unsound direction to go in. With what we have to work with 
right now, to go to Alison and buy the rope that she has that 
is compliant, is really a foolish, foolish business venture 
right now.
    Even if it did work and even if we got a magic 4 years out 
of this rope, in 4 years you are going to be facing tens of 
thousands, in my case it is going to be pushing almost 30, 40 
grand, 38 thousand and change actually, I have to do it all 
over again, because this rope is going to wear out all at the 
same time.
    It is not different than tires on your car. If you do not 
rotate them, even if you do rotate them, what do they do? They 
all go to pieces at once, don't they?
    We are not talking about four tires; we are talking in my 
case, $35,000 to $40,000 worth of rope, and even if I can save 
one-third, three-quarters of that rope, and have it home to 
store in barrels, where are we going to put that rope?
    That is another environmental disaster. What are we going 
to do? Dump it in a land fill? Line up the 55-gallon drums and 
burn them like we used to?
    It has to go somewhere. Where is it going to go? There is 
no place to put it. I think this is a chain reaction that is 
going on. I am trying to look down the road, and I am trying to 
think ahead 6 months to a year, 2 years, and this is what I am 
seeing going down the road.
    That is my opinion on this. I do not want to get involved 
in all the details. I have sent all you guys letters, and it 
spells it out exactly. Thank you very much.
    Senator Snowe. Thank you for being here. Thank you, and I 
want to thank all of you and thank our witnesses for taking 
time out of their busy schedules to be here, I think it 
represents the gravity of the situation, and to all of you, all 
of our speakers, for everyone being here today because I know 
how difficult it is to take the time to travel long distances 
as you have to be here today to listen and to participate; and 
I thank you for your thoughts.
    It is a very critical question that is going to require 
considerable cooperation with all parties involved, and 
hopefully from this, the witnesses here today can take it back, 
especially Mr. Lecky, going back to the Take Reduction Team, 
Ms. Cornish, who is involved in that process as well, and I 
know that Commissioner Lapointe and Ms. McCarron are going to 
be part of it, and all of you.
    Because it is evident, without a question, indisputably, 
that something has to change. The regulatory process on this 
question and also the content of the regulation.
    Whether it is the question of the gear manufacturers, the 
testing of it, the standard of compliance, the workability, the 
costs. The list goes on.
    Hopefully from this, you can devise a way to take this back 
to the Take Reduction Team. Maybe there is a way of working 
through this understanding at the end of the day that given the 
unrealistic timetable it is inconceivable that they would be 
able to comply with those requirements in the midst of peak 
season.
    So I will be working with you, along with Ms. Cornish and 
Ms. McCarron, to see what we can do to move this process 
forward in a way that does ultimately become a win/win for the 
goals and for the industry that is so crucial to the future of 
this state and the future of their livelihoods and families and 
communities.
    So again, I want to thank everybody for being here, and 
reiterate the assurance that we will do everything that we can 
to address the issues that you have raised understanding the 
enormity and the gravity of the consequences of this regulation 
as it stands today.
    With that, and may I also say, I am including the statement 
of Senator Collins, who has also been a great ally in this 
fight. I will include her statement in the record, as well as 
any who would like to submit further statements or additional 
information in data, please know that you can do so for the 
Senate record.
    With that, the hearing stands adjourned.
    [Whereupon, at 1:23 p.m., the hearing was adjourned.]


                            A P P E N D I X

  Prepared Statement of Hon. Susan M. Collins, U.S. Senator from Maine

    I want to thank my colleague, Senator Snowe, Ranking Member of the 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard, for 
holding a field hearing to examine the impact of new regulations under 
the Atlantic Large Whale Take Reduction Plan (ALWTRP) on Maine's 
fishing industry. I have long believed that further economic analysis 
of the regulatory cost of this rule is required, and I am pleased the 
Subcommittee is giving Maine's fishing community an opportunity to help 
find a better way forward.
    The National Marine Fisheries Service (NMFS) published regulations 
amending the ALWTRP in October of last year that will require fixed-
gear fishermen in non-exempt areas to convert their gear from floating 
to sinking groundline. This initiative is designed to protect large 
whale populations in the Atlantic, and specifically to help ensure the 
survival of the endangered North Atlantic right whale. It is unclear 
that such regulation will achieve the worthy goal of reducing the 
number of whale entanglements, however, it is clear that sinking 
groundline between traps is not an economically viable option for many 
lobstermen in Maine. Where much of the sea floor along the Atlantic 
coast is sandy, Maine is unusual in that the seafloor along much of the 
coast is rocky. The problem is that sinking groundline wears down much 
faster over rocky surfaces than does floating line and needs to be 
replaced more often. Sinking line also has a greater tendency to snag, 
which raises safety concerns and often leads to lost traps.
    With the final whale protection measures in place, I am 
disappointed that despite Senator Snowe's and my repeated requests for 
further analysis, NMFS failed to carefully consider the full economic 
impact to one of Maine's most important industries. In 2006, for 
example, this industry landed more than 66 million pounds of lobster in 
Maine totaling more than $300 million. According to the Maine Lobster 
Promotion Council, this fishery provides a livelihood for nearly 7,500 
lobstermen as well as boat makers, marine outfitters, processors and 
retailers.
    As the final rule was being developed, I sent a letter to Dr. 
William Hogarth, National Oceanic and Atmospheric Administration's 
(NOAA) Assistant Administrator for Fisheries, outlining my concerns 
regarding the implementation of a sinking groundline requirement in 
Maine. While I appreciate that NOAA did incorporate some of the 
recommendations I made with regard to moving the exemption line further 
offshore as proposed by the Maine Department of Marine Resources, the 
sighting of the exemption line should correspond with the best 
available data on whale migration and foraging habits and be adjusted 
accordingly. I also support moving the implementation date from October 
2008 to June 2010, to allow rope manufacturers enough time to supply 
sinking groundline to the industry. Moving the implementation date 
would also allow for a more sensible transition at the end of the 
fishing season rather than disrupting fishing efforts during the prime 
fishing period.
    According to NMFS, the annual cost for a lobster vessel to comply 
with the sinking groundline requirement is just over $10,000. It is 
very unlikely, however, this figure truly captures the impact this rule 
will have on Maine's fishing communities. By factoring in the cost of 
lost traps, the value of the lost catch, and the greater frequency that 
lobstermen will need to replace their coils of rope, the Maine Lobster 
Association (MLA) predicts the cost of compliance to be three times the 
NMFS estimate. A Government Accountability Office report examining the 
extent to which NMFS assessed the costs to the fishing industry 
supports the MLA's findings when it concluded that NMFS's economic 
assessment did not reflect significant uncertainties that remain about 
the impact of the gear modifications on fishing communities.
    It is critical that Maine's lobstermen are not made to bear the 
full financial burden of this regulation. To assist this fishery, 
Senator Snowe and I have consistently supported the Gulf of Maine 
Lobster Foundation's groundline exchange program. Through this program, 
Maine lobstermen are able to trade their floating line for sinking line 
to help defray the initial cost of converting their gear. Since Fiscal 
Year 2006, Senator Snowe and I have secured nearly $2.4 million for 
this important effort. This year, I am pleased to report that despite a 
tight fiscal climate, we secured $376,000 to assist Maine's lobstermen 
with this difficult regulatory burden. While much more needs to be done 
to assist Maine's lobster industry, the rope buyback program is an 
important step in the right direction.
    I also joined Senate colleagues in sending a letter to the Office 
of Management and Budget on December 12, 2007, urging the 
Administration to provide $14 million in its Fiscal Year 2009 budget to 
help alleviate the economic hardship that the lobster line regulations 
will have on the lobster fishing industry. This assistance is so 
important for the hard-working fishing families who are being forced to 
deal with increasingly strict regulations.
    In focusing on a way forward, it is critical that as new, more 
precise data and technologies become available, the regulatory process 
be able to implement these advances quickly as part of the management 
of this fishery. As previously noted, the sighting of the exemption 
line must correspond with the best scientific data available. 
Additionally, the development of low-profile groundline, which hovers a 
few feet off the sea floor, offers a promising alternative to sinking 
groundline that must be given serious attention. The Maine lobster 
industry is an environmentally responsive fishery that has worked hard 
to protect endangered whales. Supporting efforts to protect our 
endangered whale populations is critical, but in doing so we must make 
sure Federal regulations do not endanger a way of life that is 
important to Maine's heritage and economy.
                                 ______
                                 
    Prepared Statement of Ben Olivari, Member, The CALVIN Project, 
                              Adams School

    I have been a member of The CALVIN Project for the two past years. 
Last November, when I attended the North Atlantic Right Whale 
Consortium meeting in New Bedford, I learned just how endangered right 
whales are. Since then my project has been studying their population.
    Of course, the North Atlantic right whale is listed as endangered, 
but now I know just how bad it is. Many people at the meeting said they 
were not sure the population could go any lower without the whales 
going extinct.
    Humans cannot do much about the low numbers of right whales and we 
cannot do much about diseases and natural deaths of the whales. But we 
can do something about deaths and injuries caused by fishing gear. Our 
laws say we have to do something in two acts of Congress; The 
Endangered Species Act and the Marine Mammal Protection Act. We have no 
choice.
    We can choose how to stop entanglements and also how to support the 
lobstermen. My friends and I have brainstormed many ways to get rid of 
lines in the water and to make whale-safe gear. We are glad that this 
committee is discussing alternatives to help the whales and the 
fishermen, but action must be taken now so that the population is not 
reduced by even one more right whale. Sinking groundline eliminates 
lots of rope in the water column. We cannot wait any longer.
    Thank you.
                                 ______
                                 
    Prepared Statement of Evan Motycka, Member, The CALVIN Project, 
                              Adams School

    My name is Evan Motycka and I am a student at Adams School in 
Castine and a member of The CALVIN Project.
    I heard a talk last fall about entanglements and rope strength. It 
seems that entanglements of right whales has become much worse since 
they were first studied back in the 1980s. In 1992, a new kind of rope 
called polysteel was manufactured. It is very strong rope. Today 76 
percent of the right whales, 300 out of the 400 left, have entanglement 
scars.
    I have pulled lobster pots with my father. It seems to me that pot 
rope does not need to be so strong. Lobster fishermen did fine with the 
weaker rope before polysteel and there seemed to be a lot fewer 
entanglements. I hope this Committee looks at using rope that right 
whales can break free of more easily when they do become entangled.
    And, I would also like to say that I am working on a lobsterpot 
that has no vertical line until the lobsterman wants to haul it. I am 
doing this because of the brainstorm sessions we have had in the 
Project.
    Thank you.
                                 ______
                                 
      Prepared Statement of the Downeast Lobstermen's Association

    [This statement was signed by many members of the Association.]
    Thank you for the opportunity to express concerns to you about the 
future of the lobstering industry with the present situation of 
preserving whales and the banning of float rope outside the exemption 
line that has been established by the National Marine Fisheries 
Service.
    At this point in time, I'm sure that you've heard all of the 
arguments and statistics. A few weeks ago, we were pleased to share our 
concerns with your assistant, Mike Conathan. One of the first things 
that we told him is that the fisherman is one of the whale's best 
friends. When a whale is discovered entangled in line or in any form of 
danger, it is quickly reported. This is the first and most important 
step to helping save the endangered whales.
    The lobstermen have been experimenting with low profile rope as a 
replacement for float rope for several years now. Each type of 
experimental rope that has been tried has failed to the standards that 
are required for fishing along Maine's rocky coast. These failures have 
raised many concerns about safety for the fishermen and the amount of 
catastrophic gear loss that would result in ghost gear on the bottom.
    The fishermen must have a rope that does not endanger themselves 
and the environment in which they fish. They must also have a rope that 
is capable of lasting at least 8 years. At this point in time, we can't 
even get one season out of the rope. Some of the rope failures include 
excessive wear, chaffing and many weak places in the line.
    The biggest concern that many fishermen have is the feeding habits 
of the whales. There's very little scientific proof that shows copepods 
on rocky or hard bottom, which is the primary food for right whales. We 
would like to have research done to see if copepods are on hard bottom 
areas inside the fifty fathom curve. We would also like to see more 
physical proof such as pictures with latitude and longitude, date and 
time for the whale sightings.
    With the logistics involved with manufacturing this new rope, the 
rope manufacturers do no have the physical or capital resources to make 
enough rope before October, 2008 to fulfill the demand. With the 
situation and the law as it stands, the lobster fishery will be 
devastated. Who is going to be responsible for a lost life and the 
legal ramifications involving it?
    Please help us to save our fishery, lobstermen and their families, 
which are also considered the ``endangered species.''
                                 ______
                                 
     Prepared Statement of Myron Lenfestey, Jr., Frenchboro, Maine

    I am a lobsterman from the town of Frenchboro. Frenchboro is an 
island 8 miles off the coast, we have a ferry boat that lands us in 
Bass Harbor ferry terminal on Sundays, Wednesdays, and Thursdays. To 
say the least I am unable to attend the hearing on Tuesday, Feb. 19th. 
I like many other fishermen strongly object to the whale rule that will 
force many to lose tens of thousands of dollars in replacing supposed 
``whale safe rope'' not to mention the never ending of replacing of 
lost gear due to the hanging down of the rope to the rocky bottom of 
the ocean in which I fish. We already have enough of a financial burden 
living with the high cost of fuel, the high cost of health insurance 
for self employed, and the high cost of living. I am afraid for my 
family in which I have 3 young children under the age of 8 years, and a 
wife that is dealing with health problems. I can not afford to spend 
out any more money to protect a whale that is not even known to travel 
in the area in which I fish. This island is based on lobster fishing 
only, there are no alternatives for income, I fear that within 1 year 
of this ruling a lot of fishermen with families will be forced to quit 
fishing and pack up to the mainland to find other jobs. I can't 
understand why the government makes the Maine fishermen follow these 
strict rules before the other fishermen are not up to the compliances 
we have to face already. Canada for example uses float rope from the 
trap straight to the buoys! The economic impact of this ruling would 
impact everyone in the state not just the fishermen. Please make more 
considerations or changes to help us the fishermen along Maine's 
beautiful coastline. Help the billion dollar industry before the State 
of Maine realizes how much the coast of Maine impacts the economy for 
the whole State.
                                 ______
                                 
    Prepared Statement of Tonia Merchant, Sternman, Jonesport, Maine

    The scheduling is not very good for the fishermen. Urchin 
harvesters have only 3 days per week to work. Today is one of them. 
Fishermen have to make a choice; give up their work day or come to this 
hearing.
                                 ______
                                 
       Prepared Statement of Donald J. Jones, Lobster Fisherman, 
                           Stonington, Maine

    My name is Donald Jones. I am a lobster fisherman from Stonington, 
ME. I have a 34 foot boat and a Maine state lobster license and an Area 
1 Federal permit. I regularly fish traps on bottom both inside and 
outside the Maine Exemption Line laid out in the new requirements of 
the ALWTRP.
    I am opposed to requiring the use of sinking rope for groundlines 
because:

  <bullet> It won't work on the hard, rocky bottom where I fish;

  <bullet> Its use will cause huge numbers of lobster traps to be 
        parted off and pile up on bottom; and

  <bullet> The annual cost of buying sink rope and replacing lost traps 
        is an economic hardship for my small business.

    However, since National Marine Fisheries Service (NMFS) has 
implemented the sink rope for groundlines requirement, I join with 
everyone who is asking for a delay in its enforcement because:

  <bullet> There's no sink rope found to hold up to fishing on hard 
        bottom despite years of experimenting and field trials;

  <bullet> Rope manufacturers cannot make enough sink rope in time for 
        that Oct. 5, 2008 deadline;

  <bullet> The implementation date falls in the middle of the fishing 
        season not during the time when gear work is done; and

  <bullet> There's no way to know whether rope being sold is acceptable 
        and how it will be certified and enforced.

    Hard rocky bottom. The bottom is covered with ledges and boulders. 
It is not smooth and sandy, as portrayed in that drawing used 
everywhere to show the loop from floating groundline. Every boat uses 
bottom sounding machines to set traps, trying to position traps along 
the edges, with the main and tailer traps frequently at different 
depths. We also have tides that cause strong currents that affect the 
groundlines by keeping them from floating up. I can't avoid fishing on 
this kind of bottom because that's the way it is everywhere in my 
territory. I had DMR people aboard my boat when Maine was doing the ROV 
surveys. I have seen what the bottom looks like as well as knowing it 
from 40 years of fishing on it. On this bottom, sink rope is constantly 
chafed, gets hung down, and parts off, leaving the tailer traps on 
bottom.
    Ghost gear. The use of sink rope for groundline will result in a 
huge accumulation of parted off lobster traps on bottom. In the FEIS, 
NMFS estimates there could be a 10 percent increase in the amount of 
lost gear. Experience here says that is an extremely conservative 
estimate averaged over a broad area. On hard rocky bottom the loss rate 
will increase by at least 40-50%, which means I could expect to lose at 
best only 50 traps a season, probably many more. I know of at least 100 
other lobstermen in this harbor who fish outside of that exemption 
line. So the fishing grounds off Stonington are going to become covered 
by a pile up of ghost traps at the rate 5,000 a year resulting from the 
use of sink rope groundlines. Has anyone looked at the impact of that 
ghost gear increase on the marine ecosystem, including whales? And 
furthermore, the Federal Government spends million of dollars each year 
on the removal of marine debris, which includes lost traps. The results 
of the sink rope requirement run counter to that policy.
    Economic impact. Since I fish on both sides of the proposed 
exemption line, I will have to rig over all of my gear to have sink 
rope for groundline. It is not practical for me to try to change the 
groundline from floating to sinking rope as I shift traps inside and 
outside of the exemption line as I try to follow the movements of 
lobsters, which is my normal fishing practice. And it certainly doesn't 
make sense to only fish shoreward of the exemption line. That bottom is 
already the most crowded with traps, and here you have to move outside 
that line in order to catch enough lobsters to stay in business if you 
fish full-time.
    All of my gear is out of the water for a period of time in the 
winter. As I get it ready to set in this spring, I'll have to put on 
sink rope. I estimate that I'll need to buy about 4,500 pounds of sink 
rope to replace my float rope groundlines. At a cost of $2.12 a pound, 
which is a discounted price for buying in volume, it will cost me 
$9,500 for an initial outlay, assuming I could find it.
    NMFS estimates that 17 percent of the groundline will have to be 
replaced each year. I think that estimate was not based on fishing on 
hard, rocky bottom. The experience of people in this area participating 
in DMR rope testing who have tried sink and neutrally buoyant rope is 
that it won't last a single season. So I think that I'm looking at 
spending $9,500 each year to fish with sinking rope groundlines.
    The other huge annual expense for me will be the cost of replacing 
the traps that I will lose. I don't think NMFS put enough analysis into 
predicting what the trap loss will be on hard bottom. The estimate was 
based on averaging over the entire range of the ALWTRP. But Maine is 
going to feel that impact much greater than other areas, and the mid 
and Down East parts of the Maine coast are going to feel it most of 
all.
    A new lobster trap with cement runners cost $80. If I lose that 
minimum 50 a year, trap replacement will add $4,000 to my cost of doing 
business. But what if the loss rate turns out to be a 100 percent 
increase? There is no answer because NMFS didn't look closely enough at 
this area. A one-size-fits-all approach simply doesn't work because the 
bottom is vastly different.
    Between annual sink rope purchase and trap loss replacement, this 
requirement will add at least $13,500 a year to my cost to do business. 
In my best year, when the boat price of lobsters averaged $4.62 a 
pound, that expense would have taken about 30 percent of my lobster 
business net income. In fact, I would have to wonder if I would be able 
to stay in business.
    The sink rope requirement will cost me and hundreds of other Maine 
lobstermen at best thousands of dollars a year, at worst some of us 
will be forced out of business. There will be huge accumulations of 
ghost year on bottom. And for all of this, there isn't enough 
information about the behavior of right whales to even know if they try 
to feed on hard bottom. I think the hard bottom in the relatively 
shallow depths we fish--20, to 200,--is not suitable for large whales. 
They are outside in the Gulf of Maine, 40 miles from shore or more. The 
bottom off there is very different than what we fish inside the 50-
fathom curve.
    We aren't harming whales now and it makes no sense to require these 
devastating changes.
                                 ______
                                 
Richard K. Larrabee Sr.
Stonington, ME
                                                  February 19, 2008

Dear Senator Snowe:

    The Town of Stonington is extremely concerned about the sinking 
rope groundline issue.
    The Stonington harbor has approximately 300 moored boats that 
depend on lobstering and crabbing. In addition to the captains/owners 
of these boats, almost every boat carries one to two sternmen. We have 
five lobster buying stations that employ anywhere from three to ten 
people and several crab picking stations. We have two marine supply 
stores, a boat yard that employees anywhere from 40 to 50 people at any 
given time, three fuel companies that supply fuel for the boats and 
general businesses that depend on the fishing trade.
    By forcing the fishermen to change their rope from floating 
groundlines to sinking groundlines, this will deter fishermen from 
crossing the line that NMFS has drawn up because these fishermen will 
not be able to afford the astronomical cost of the change-over. This 
will mean more fishermen competing in a smaller area and fewer being 
able to fish where they once fished across the line. Many captains/
owners of their boats will be unable to carry additional sternmen which 
will result in the loss of jobs and the safety of the owners and their 
crews.
    As a selectman of the Town of Stonington, I have seen the increase 
in general assistance, the need for affordable housing, and jobs. It is 
difficult for us to try to address the needs of our islanders when 
fishing is our island's main support and these changes will not only 
affect the economics of our fishing industry, but will trickle down to 
all businesses within our community and beyond.
    Thank you for taking the time to read this.
            Sincerely,
                                    Richard K. Larrabee Sr.
                                 ______
                                 
To whom it may concern,

    This is written testimony that I, Richard Larrabee Jr. am opposed 
to the new whale regulations affecting lobster fisherman, their 
sternmen and their families. It is a financial hardship for us to have 
to buy the rope needed, but also to have to absorb up to a 30 percent 
gear loss. Now instead of fishing traditional hard bottom, we are now 
forced to fish the mud bottom. This makes absolutely no sense because 
the whales that ALWTRP are trying to protect, feed on the mud bottom . 
. . putting more lines where they feed. 1 have never seen a right 
whale, finback, or humpback and I have been fishing for 19 years. The 
better plan would be to move the lines to the fifty fathom edge, and 
leave up the DAM zones in the areas where whales are seen. Floating 
rope is not the problem.
            Thanks,
                                      Richard Larrabee Jr.,
                                                         Fisherman.
                                 ______
                                 
                                                  February 18, 2008
Dear Senator Snowe,

    I am Trevor Jessiman of Cutler, Maine. I am a 19 year old fourth-
generation fishermen and I would like to thank you for coming to meet 
with us over such a serious issue.
    The recently proposed law on sinking groundlines I find to be huge 
threat to many livelihoods in this area including my own. In the area 
where many fisherman including myself fish there is hard rough bottom 
that would cause chafe in these sinking groundlines which in turn will 
turn into ghost gear. To me this would pose more possibilities for 
whale entanglement then having the floating groundlines used today. 
Theses floating groundlines have been successful in the past never 
having any entanglements with any Right whales. In a sense there would 
be a lot of litter covering the oceans bottom.
    My whole family has been in the fishing industry since my great 
grandfather who passed away in 1965 to me being the youngest 
generation. I haven't ever heard of seeing any Right Whales not to 
mention having any entanglements with them from any of my past family 
nor have I had any encounters.
    To be forced to use the sinking groundlines would be completely 
devastating for the fishermen, especially down east. In this area we 
have huge tides and hard bottom that is rough and sharp. I personally 
have used some of the new different kinds of sinking and neutral rope 
and it has all chafed and become entangled in the ocean floor. Not only 
would the up front cost of this change put fishermen in the hole but 
the constant repairing and changing of the rope, not to mention 
replacing lost gear, would kill the industry and the fishermen in it.
    In conclusion there are many families and individuals that have 
been and still are reliant on the industry and would be put in severe 
financial hardship if this continues to go through. I find it 
unnecessary to make fishing a thing of the past due to trying to save 
something we have done nothing to harm and everything possible to 
protect.
            Thank you for your consideration,
                                           Trevor Jessiman.
                                 ______
                                 
                  Stonington Economic Development Committee
                                                     Stonington, ME
Hon. Olympia J. Snowe,
Ranking Member,
U.S. Senate Subcommittee on Oceans, Atmosphere, Fisheries, and Coast 
            Guard,

       Re: Impacts of the Atlantic Large Whale Take Reduction Plan 
                                                           (ALWTRP)

Dear Senator Snowe:

    The Stonington Economic Development Committee (SEDC) is an eight-
member committee appointed by the town's governing body, the board of 
selectmen. Its composition includes a selectman, two members with close 
ties to the lobster industry, and local small business owners. Among 
its purposes is to create an economic climate that supports and 
sustains existing businesses and to attract businesses that bring year-
round jobs.
    Stonington, ME, located in Hancock County, is the southernmost town 
on the island of Deer Isle, which is located east of Penobscot Bay. 
Hancock County was identified by National Marine Fisheries Service in 
its analysis as an ``at-risk'' county, where there are over 100 active 
vessels that must comply with ALWTRP requirements. Further, Hancock is 
among the rural counties identified as having limited economic 
diversification and/or higher than average unemployment and poverty 
rates.
    With a year-round population of about 1,150, the commercial fishing 
industry is the backbone of Stonington's economy. In 2006, $34.3 
million worth of seafood was landed in Stonington, ranking it as 
Maine's top port in terms of ex-vessel value, according to Maine 
Department of Marine Resources (DMR) statistics. By far and away, 
lobster is the single most important species. Stonington's lobster 
landings over the last 3 years were: 2006, 7.43 million pounds with an 
ex-vessel value of $29.1 million; 2005, 6.71 million pounds with an ex-
vessel value of $30.8 million; and 2004, 5.22 million pounds with an 
ex-vessel value of $21.2 million.
    The dockside value of Stonington's catch provides the annual income 
of hundreds of year-round residents. Close to 300 lobster boats are 
moored in the town, each is its own small business supporting the owner 
and his family, and a majority also providing jobs for one or two 
sternmen. Five businesses, each with from two to 10 employees, exist in 
town to buy and market lobsters. Each of those dealers is located on 
valuable property that is critical to Stonington's working waterfront. 
The owners of two tidal ponds located in Stonington also buy lobsters.
    Operation of the lobster fleet depends on a range of services 
including daily fuel and bait. Three oil companies supply diesel fuel, 
gas, and engine oil to the fleet and one local bait business supplies a 
portion of the lobster bait requirements. Billings Diesel and Marine, a 
full service boat yard and the town's largest employer, provides 
maintenance and repair services to the boats. There are two marine 
supply stores in town, both of which provide year-round jobs, selling 
predominately to commercial fishermen.
    The SEDC's concern with the lobster gear rigging requirements in 
the ALWTRP is that their economic impact can undermine the lobster 
fleet here in a way that ultimately would reduce revenue and cause both 
direct and indirect job loss. We will focus our remarks on the 
requirement that Maine lobstermen use only sinking or neutrally buoyant 
rope for groundlines on all traps fished seaward of the Maine Exemption 
Line.
    The cost for many of Stonington's lobstermen to comply with the 
sink rope requirement is substantially greater than the National Marine 
Fisheries Service (NMFS) economic estimates, both for the initial as 
well as the ongoing costs. The DMR estimates that conversion would 
require 5,000 pounds of sink rope for a lobsterman fishing the maximum 
allowable 800 traps. At a cost of approximately $2.25 a pound, the 
initial cost for sink rope alone is $11,250. That doesn't take into 
account any dollar value for the added time and labor to measure and 
cut up the 1,200 ft coils of sink rope and to take off the float rope 
currently used.
    Furthermore, field testing of various brands and configurations of 
sink rope has shown that it doesn't hold up in real trap hauling 
conditions on hard rocky bottom. Rather than having to replace about 17 
percent of sink rope every year due to wear and tear as NMFS estimates, 
Stonington lobstermen would be replacing a much higher percentage that 
will cause a substantial ongoing increase in expense for Stonington 
lobstermen.
    The second part of the failure of sink rope to hold up in the 
fishing conditions in this area will be the huge increase in parted off 
and lost traps. NMFS estimated a 10 percent increase in lost traps per 
year from the use of sink rope. The cost to replace 80 traps, 10 
percent for a lobsterman fishing the maximum 800 traps, would be from 
$6,250 to $8,000, depending on the fisherman's trap runner preference. 
But trap loss in field testing on hard rocky bottom has occurred at a 
much greater rate. Again, since rope trial participants in this area of 
the coast haven't tried sink rope alternatives for a single fishing 
season, it is not known how high the percentage of trap loss can 
actually become here. And, certainly more research is needed to assess 
the impact of such a pile up of ghost traps on bottom.
    The SEDC's concern is that, even working with the minimum costs and 
anticipated trap losses, complying with the sink rope requirement could 
cost a Stonington lobsterman at least $20,000 a year. NMFS considers 
heavily affected vessels as those for which annualized compliance costs 
exceed 15 percent of mean annual revenues, which at $20,000 annually 
seems likely for a number of Stonington boats. Further, while 
qualifying it as a small number relative to the full set of ALWTRP 
vessels, NMFS expects that these costs are significant enough to drive 
some of the heavily affected and at-risk vessels out of business. 
Though that number may be small in NMFS's broad analysis, the SEDC 
believes it could be a significant problem for Stonington and other 
Midcoast and Down East coastal communities.
    The impact of a lobsterman going out of business has a ripple 
effect throughout the other lobster-dependent businesses in the 
community. Any scaling down or loss of year-round jobs threatens the 
success and survivability of our community. Furthermore, the shorefront 
property owned by lobster dealers is critical to maintaining 
Stonington's working waterfront. If any those businesses can't survive 
a decrease of lobster fishing activity, that highly valued real estate 
will be lost to working waterfront uses--most likely never to return.
    Given the additional information on the location of whale 
sightings, the SEDC requests that the location of the Maine Exemption 
Line be moved farther offshore, along the 50-fathom curve. Such a 
change of location would not increase the entanglement risk to whales 
and would exempt many more Stonington lobstermen from the sinking rope 
for groundlines requirement.
    The SEDC also requests that the Oct. 5, 2008 implementation date 
for the sink rope requirement be pushed back to allow more time to 
comply. It is unrealistic to expect small lobster businesses to finance 
the cost of rigging over to sink rope within that short period of time. 
We also question the availability of adequate amounts of sink rope in 
the marketplace to accommodate the demand from several hundred 
lobstermen.
            Respectfully submitted,
                                                Dan Hadley,
                                                          Chairman,
                             Stonington Economic Development Committee.
                                 ______
                                 
                      Community Fisheries Action Roundtable
                                  Stonington, ME, February 18, 2008
Senate Committee on Commerce, Science, and Transportation,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

To Members of the U.S. Senate Committee on Commerce, Science, and 
            Transportation, Subcommittee on Oceans, Atmosphere, 
            Fisheries, and Coast Guard:

    The Community Fisheries Action Roundtable is a group of fishermen 
from island and coastal communities in Eastern Maine working together 
for a better fishing future. We have extensively discussed the final 
Atlantic Large Whale Take Reduction Plan (ALWTRP) and the Maine 
Department of Marine Resources (DMR) suggested alternatives. We are 
writing to you today requesting for further area-specific research in 
the fishing communities that this rule will directly effect. In Eastern 
Maine, the Final Rule sets the sink line area well inside the State of 
Maine three mile limit that comes in painfully close to our islands and 
coastal towns that depend on the lobster fishery. This rule will 
manifest itself in a major change in traditional fishing techniques: we 
will be forced out of our territories on the rocky bottom and onto the 
mud. When gear is relocated in higher density areas, it is more 
susceptible to overlap, and therefore lead to an increased danger to 
fishermen as tangled gear is hauled on board.
    Further research with fishermen in towns throughout the Maine coast 
that will be affected by the ALWTRP will reveal concerns specific to 
their own styles of fishing, ecological, economic, and community 
issues. Once these concerns are identified better management will 
surely follow.
    Please note that attached to this letter is a map with our revision 
to the DMR suggestion, with a new line that splits off from the 12900 
Loran Line and follows the 25700 Loran Line to the Canadian border.
            Thank you for your consideration,

Community Fisheries Action Roundtable

Jason Barter
Isle Au Haut, ME 04645

Robbie Gray
Deer Isle, ME 04627

Nicholas Look
Beals Island, ME 04681

Tom Pottle
Perry, ME 04667

Nate Clark
Isle Au Haut, ME 04645

Dick Larrabee, Jr.
Stonington, ME 04681

Dan & Sue MacDonald
Isle Au Haut, ME 04645

John and Vicky Renwick
Birch Harbor, ME 04613

Harry Shain
Perry, ME 04667

Patrick Shepard
Stonington, ME 04681
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                               Lily's Cafe.
                                  Stonington, ME, February 18, 2008
Hon. Olympia Snowe,
Senate Committee on Commerce, Science, and Transportation,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Dear Senator Snowe:

    I must admit that I often wonder if anyone reads the heartfelt 
letters sent to you by your constituents. The idea of living in 
Stonington without any lobsterman, has driven me to take a chance on 
being heard.
    For the last eleven years I have owned and operated a cafe on Route 
15 in Stonington Maine. I have become a part of a very special local 
community who's soul thrives on the daily routine of being a fishing 
village. My year round business depends heavily on the fisherman's 
success. My personal fulfillment depends heavily on living in a town 
with them as my neighbors, friends and customers.
    It desperately frightens me that laws being passed to protect 
whales have not been thoroughly thought out to also protect our 
fisherman from extinction. The loss of the fisherman and their families 
in this community would mean the loss of both my business and the 
town's integrity.
    Please listen to them and work at creating a plan that serves both 
sides.
                                                 Kyra Alex,
                                                             Owner.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
